<html>
<title> - TITLE II CONSERVATION PROGRAMS: EXPLORING CLIMATE SMART PRACTICES</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]




   TITLE II CONSERVATION PROGRAMS: EXPLORING CLIMATE-SMART PRACTICES

=======================================================================


                                 HEARING

                               BEFORE THE

               SUBCOMMITTEE ON CONSERVATION AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 12, 2021

                               __________

                            Serial No. 117-5



             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

                             __________
                             
                  U.S. GOVERNMENT PUBLISHING OFFICE
                
45-387 PDF                WASHINGTON : 2021
                             
                             


                           
                        COMMITTEE ON AGRICULTURE

                     DAVID SCOTT, Georgia, Chairman

JIM COSTA, California                GLENN THOMPSON, Pennsylvania, 
JAMES P. McGOVERN, Massachusetts     Ranking Minority Member
FILEMON VELA, Texas                  AUSTIN SCOTT, Georgia
ALMA S. ADAMS, North Carolina, Vice  ERIC A. ``RICK'' CRAWFORD, 
Chair                                Arkansas
ABIGAIL DAVIS SPANBERGER, Virginia   SCOTT DesJARLAIS, Tennessee
JAHANA HAYES, Connecticut            VICKY HARTZLER, Missouri
ANTONIO DELGADO, New York            DOUG LaMALFA, California
BOBBY L. RUSH, Illinois              RODNEY DAVIS, Illinois
CHELLIE PINGREE, Maine               RICK W. ALLEN, Georgia
GREGORIO KILILI CAMACHO SABLAN,      DAVID ROUZER, North Carolina
Northern Mariana Islands             TRENT KELLY, Mississippi
ANN M. KUSTER, New Hampshire         DON BACON, Nebraska
CHERI BUSTOS, Illinois               DUSTY JOHNSON, South Dakota
SEAN PATRICK MALONEY, New York       JAMES R. BAIRD, Indiana
STACEY E. PLASKETT, Virgin Islands   JIM HAGEDORN, Minnesota
TOM O'HALLERAN, Arizona              CHRIS JACOBS, New York
SALUD O. CARBAJAL, California        TROY BALDERSON, Ohio
RO KHANNA, California                MICHAEL CLOUD, Texas
AL LAWSON, Jr., Florida              TRACEY MANN, Kansas
J. LUIS CORREA, California           RANDY FEENSTRA, Iowa
ANGIE CRAIG, Minnesota               MARY E. MILLER, Illinois
JOSH HARDER, California              BARRY MOORE, Alabama
CYNTHIA AXNE, Iowa                   KAT CAMMACK, Florida
KIM SCHRIER, Washington              MICHELLE FISCHBACH, Minnesota
JIMMY PANETTA, California            JULIA LETLOW, Louisiana
ANN KIRKPATRICK, Arizona
SANFORD D. BISHOP, Jr., Georgia

                                 ______

                      Anne Simmons, Staff Director

                 Parish Braden, Minority Staff Director

                                 ______

               Subcommittee on Conservation and Forestry

               ABIGAIL DAVIS SPANBERGER, Virginia, Chair

FILEMON VELA, Texas                  DOUG LaMALFA, California, Ranking 
CHELLIE PINGREE, Maine               Minority Member
ANN M. KUSTER, New Hampshire         SCOTT DesJARLAIS, Tennessee
TOM O'HALLERAN, Arizona              RICK W. ALLEN, Georgia
JIMMY PANETTA, California            TRENT KELLY, Mississippi
J. LUIS CORREA, California           DUSTY JOHNSON, South Dakota
KIM SCHRIER, Washington              MARY E. MILLER, Illinois
                                     BARRY MOORE, Alabama

             Felix Muniz, Jr., Subcommittee Staff Director

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
LaMalfa, Hon. Doug, a Representative in Congress from California, 
  opening statement..............................................     4
Spanberger, Hon. Abigail Davis, a Representative in Congress from 
  Virginia, opening statement....................................     1
    Prepared statement...........................................     3
    Submitted report.............................................    55

                               Witnesses

Isbell, Jr., Charles ``CJ'' Edwin, Farmer and Co-Owner, Keenbell 
  Farm, Rockville, VA............................................     6
    Prepared statement...........................................     9
Ratcliff, Kimberly, Manager/Owner, Caney Creek Ranch, Oakwood, TX    11
    Prepared statement...........................................    12
Paustian, Ph.D., Keith H., Distinguished Professor, Department of 
  Soil and Crop Science, Colorado State University; Senior 
  Research Scientist, Natural Resource Ecology Laboratory, CSU...    17
    Prepared statement...........................................    18
Johansson, Jamie, President, California Farm Bureau, Sacramento, 
  CA.............................................................    23
    Prepared statement...........................................    25




 
   TITLE II CONSERVATION PROGRAMS: EXPLORING CLIMATE SMART PRACTICES

                              ----------                              


                        WEDNESDAY, MAY 12, 2021

                  House of Representatives,
                 Subcommittee on Conservation and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 1300, Longworth House Office Building, Hon. Abigail Davis 
Spanberger [Chair of the Subcommittee] presiding.
    Members present: Representatives Spanberger, Pingree, 
Kuster, O'Halleran, Panetta, Schrier, Costa, LaMalfa, 
DesJarlais, Allen, Kelly, Johnson, Miller, and Moore.
    Staff present: Lyron Blum-Evitts, Prescott Martin III, 
Felix Muniz, Jr., Ashley Smith, John Konya, John Busovsky, Josh 
Maxwell, Patricia Straughn, Erin Wilson, and Dana Sandman.

     OPENING STATEMENT OF HON. ABIGAIL DAVIS SPANBERGER, A 
            REPRESENTATIVE IN CONGRESS FROM VIRGINIA

    The Chair. The Conservation and Forestry Subcommittee's 
hearing entitled, Title II Conservation Programs: Exploring 
Climate-Smart Practices, will come to order.
    Welcome and thank you for joining today's hearing.
    After brief opening remarks, Members will receive testimony 
from our witnesses today. And then the hearing will be open for 
questions. Members will be recognized in order of seniority, 
alternating between Majority and Minority Members, and in the 
order of arrival for those Members who have joined us after the 
hearing was called to order.
    When you are recognized, you will be asked to unmute your 
microphone. And you will have 5 minutes to ask your questions 
or make a comment. If you are not speaking, I ask that you 
remain muted in order to minimize background noise.
    In order to get in as many questions as possible, the timer 
will stay consistently visible on your screen.
    In consultation with the Ranking Member and pursuant to 
Rule XI(e), I want to make Members of the Subcommittee aware 
that other Members of the full Committee may join us today.
    I am excited to be here today for our first hearing of the 
Subcommittee on Conservation and Forestry in the 117th Congress 
and for the opportunity to work alongside my colleague, Ranking 
Member Doug LaMalfa, and the rest of the esteemed Members of 
this Subcommittee. In addition to increasing farm productivity 
and profitability, conservation agriculture holds enormous 
potential in our efforts to combat the climate crisis, both 
through increased soil carbon sequestration and reduced 
greenhouse gas emissions.
    As we look to scale the adoption of conservation practices, 
there is perhaps no greater tool available than the farm bill's 
conservation programs.
    Title II programs provide much needed technical and 
financial assistance to encourage the adoption of cover crops, 
reduced- to no-till management systems, and prescribed grazing 
systems, among many other climate-smart practices. As we have 
seen firsthand, these programs are working well in central 
Virginia. Studies show that these programs are effective. Not 
only do they facilitate greater adoption of conservation 
practices, but they also make it more likely that farmers will 
keep implementing these practices in the long-term to the 
benefit of our climate, clean water, and the health of our 
rural communities.
    What's more, these investments are paying dividends to 
farmers' bottom line. When farmers participate in these 
voluntary conservation programs, they do not only reduce carbon 
dioxide emissions in the environment by sequestering carbon 
through healthier soils, but they also improve crop quantity, 
yield, and profit margins. Put simply, any investment Congress 
makes in title II programs are an investment in the long-term 
economic success of rural America and America's farmers.
    In recent years, USDA has developed new tools that make it 
easier than ever to consider climate mitigation benefits during 
the conservation planning process. And thanks to USDA's 
publication of the blue book, we have technical guidelines and 
science-based methods to quantify emission sinks in 
agriculture, and, likewise, the development of the COMET-Farm 
online tool has made it possible to assess a farm's carbon 
footprint and see how alternative voluntary management projects 
and practices could achieve greenhouse gas emissions--or 
reductions, excuse me.
    These tools are exciting ways to maximize climate benefits 
while also making things easier for farmers. And as these tools 
are refined, I am hopeful that they will strengthen 
conservation programs and maximize the benefits delivered to 
farmers.
    In this spirit, I worked across the aisle to introduce the 
H.R. 2820, Growing Climate Solutions Act on Earth Day this 
year. This legislation would create a certification program at 
the U.S. Department of Agriculture to help solve technical 
entry barriers that prevent farm and forest landowner 
participation in carbon credit markets. This bill is almost 
universally endorsed by national farmer organizations, like the 
American Farm Bureau Federation, the National Farmers Union, 
while also gaining support from large environmental groups, 
like the Environmental Defense Fund and the National Wildlife 
Federation, and corporations, like McDonald's, Bayer, and 
Microsoft.
    This legislation has built a broad coalition because it 
empowers farmers to continue climate-friendly conservation 
practices, it helps farmers unlock new revenue streams through 
private carbon markets, and it empowers the USDA to further 
develop tools that empower climate-friendly conservation 
practices.
    I am excited to hear from our witnesses today on their 
experiences utilizing these practices and the role that the 
farm bill's programs play in facilitating their adoption. And 
while we have made great progress in developing the science and 
the tools that let us better quantify the climate benefits of 
conservation, I also hope to hear today if there are areas 
where further research or support may be needed.
    [The prepared statement of Ms. Spanberger follows:]

 Prepared Statement of Hon. Abigail Davis Spanberger, a Representative 
                       in Congress from Virginia
    Good morning. I'm excited to be here today for our first hearing of 
the Subcommittee on Conservation and Forestry in the 117th Congress and 
for the opportunity to work alongside my colleague, Ranking Member Doug 
LaMalfa, and the rest of the esteemed Members of this Subcommittee.
    In addition to increasing farm productivity and profitability, 
conservation agriculture holds enormous potential to help combat the 
climate crisis--both through increased soil carbon sequestration and 
reduced greenhouse gas emissions.
    As we look to scale the adoption of conservation practices, there 
is perhaps no greater tool available than the farm bill's conservation 
programs. Title II programs provide much needed technical and financial 
assistance to encourage the adoption of cover crops, reduced- and no-
till management systems, and prescribed grazing systems--among many 
other climate-smart practices. And we have seen firsthand these 
programs working in central Virginia.
    Studies show that these programs are effective. Not only do they 
facilitate greater adoption of conservation practices, but they also 
make it more likely that farmers will keep implementing these practices 
in the long-term to the benefit of our climate, clean water, and the 
health of our rural economies. What's more, these investments are 
paying dividends to farmer's bottom lines. When farmers participate in 
these voluntary conservation programs, they not only reduce carbon 
dioxide emissions in the environment by sequestering carbon through 
healthier soils, they can also improve crop quantity, yield, and profit 
margins. Put simply, any investment Congress makes in title II programs 
are not just an investment in the future of our planet, but also in the 
long-term economic success of rural America and America's farmers.
    In recent years, USDA has developed new tools that make it easier 
than ever to consider climate mitigation benefits during the 
conservation planning process. Thanks to USDA's publication of the 
``blue book,'' we have technical guidelines and science-based methods 
to quantify emissions sinks in agriculture. Likewise, the development 
of the COMET-Farm online tool has made it possible to assess a farm's 
carbon footprint and see how alternative, voluntary management 
practices could achieve greenhouse gas reductions.
    These tools are exciting ways to maximize climate benefits while 
also making things easier for farmers. And as these tools are refined, 
I'm hopeful that they will strengthen conservation programs and 
maximize the benefits delivered to farmers.
    In this spirit, I worked across the aisle to introduce the H.R. 
2820, Growing Climate Solutions Act on Earth Day this year. This 
legislation would create a certification program at the U.S. Department 
of Agriculture (USDA) to help solve technical entry barriers that 
prevent farmer and forest landowner participation in carbon credit 
markets. This bill is almost universally endorsed by national farmer 
organizations, like the American Farm Bureau Federation and National 
Farmers Union, while also gaining support from large environmental 
groups like the Environmental Defense Fund and the National Wildlife 
Federation and corporations like McDonald's, Bayer, and Microsoft. This 
legislation has built a broad coalition because it empowers farmers to 
continue climate-friendly conservation practices, helps farmers unlock 
new revenue streams through private carbon markets, and empowers USDA 
to further develop tools that empower climate-friendly conservation 
practices.
    I'm excited to hear from our witnesses today on their experience 
utilizing climate-smart practices and the role that farm bill programs 
play in facilitating their adoption. And while we have made great 
progress in developing the science and the tools that let us better 
quantify the climate benefits of conservation, I also hope to hear 
today if there are areas where further research or support may be 
needed.

    The Chair. With that, I would like to recognize the Ranking 
Member, Congressman Doug LaMalfa, for any opening remarks.

  OPENING STATEMENT OF HON. DOUG LaMALFA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    Mr. LaMalfa. Well, good morning, everyone.
    And thank you, Chair Spanberger, for convening the hearing 
today and for our panelists that will be speaking with us.
    The 2018 Farm Bill offered important environmental and 
resource benefits through USDA's suite of voluntary incentive-
based conservation programs. The conservation title provides an 
estimated $6 billion per year to farmers, ranchers, and forest 
landowners for the implementation of practices that truly do 
work. Through these voluntary programs, producers can improve 
soil health and water quality, better manage their lands, and 
incorporate innovations like increased energy-efficient farming 
practices.
    Our conservation delivery system is a proven model that 
leverages significant funding as a win-win for both producers 
and the environmental needs. Because of its effectiveness, 
NRCS's conservation programs have been in the spotlight in 
recent years and become a staple in ongoing climate 
discussions. While these programs generate countless on-farm 
benefits, they also directly result in carbon sequestration.
    As we continue to dwell on climate-related policy, 
voluntary conservation does have an important role to play. I 
think it is very important to recognize the great conservation 
work farmers, ranchers, and foresters are already doing each 
and every day, and they don't always get credit for what has 
been done in the past before this became such a hot topic.
    Despite the calls from some climate alarmists, the U.S. is 
already making great progress towards meeting carbon reduction 
goals. The U.S. generates less than 15 percent of the world's 
anthropogenic carbon emissions. That number is continuing to 
decline in the coming decades. Currently U.S. farm productivity 
and management practices have increased dramatically over the 
past 70 years. U.S. farm productivity has increased by 287 
percent since 1948, the inputs have remained relatively the 
same. That means the efficiency is going up, more bang for the 
buck, more bang for the same amount of carbon. In short, we are 
producing more food and fiber while using the same amount of 
resources we did generations ago.
    Additionally, we need to recognize the considerable 
resources already provided by the farm bill to support 
voluntary conservation and not rush to unproven approaches that 
may not actually address the concern being made of climate or 
consider if it will benefit farmers and ranchers directly.
    In addition to improving soil health, there are a variety 
of other existing agricultural practices and technologies that 
are just as beneficial and must be fully utilized. This 
includes increasing the deployment of precision agriculture to 
reduce over-fertilization and runoff, and adoption of 
technologies such as anaerobic digesters that convert 
livestock-generated methane to renewable natural gas.
    Incorporating new technologies and innovative practices 
will reduce emissions, improve water and air quality, and 
provide new revenue for farmers and ranchers in the process. No 
singular solution will be appropriate to each crop, each 
cropping system, or region. Opportunities in ag extend beyond 
soil health and cover crops. What works for corn in Iowa will 
not necessarily work for wheat out in the West, or rice in the 
Mississippi Delta or rice in northern California.
    We need to resist turning the farm bill conservation title 
into the climate title. We cannot allow one natural resource 
concern to completely overshadow all others. These programs 
must continue to be voluntary, which means we must offer 
practices that provide farmers choices.
    Although forests are not the focus of today's hearing 
necessarily, they must be part of the conversation. Our forests 
are natural carbon sinks and hold great potential for reducing 
emitted carbon and sequestering it. For example, any finished 
wood product stores carbon indefinitely. By improving forest 
health and actively managing our forests, we can encourage 
healthier lands, prevent potential fires and the millions of 
acres of destruction we see so much of these days, as well as 
the release of more carbon dioxide than all of California's 
power.
    So, during a recent House Appropriations Committee hearing, 
U.S. Forest Service Chief Vicki Christiansen mentioned our 
forests are sequestering 14 percent of all U.S. carbon 
emissions. That number could be nearly doubled to 20 to 28 
percent through more reforestation and restoration, greater 
forest resiliency, and the use of more forest products which 
store carbon. But we must not be hamstrung from actually 
getting out there and doing the work.
    With that in mind, as we talk about climate and reducing 
carbon dioxide, I believe we must take a hard look at how we 
manage our forests and how we address the wildfire crisis and 
the huge costs via budget or to our landscape. 2020 was the 
most devastating fire season we have had on record. That 
includes especially significant fires in my home State of 
California. We must do more to prevent small fires from 
unnecessarily becoming huge mega-fires that reduce enormous 
amounts of otherwise stored carbon dioxide. Addressing 
wildfires is a crisis and an emergency we can no longer ignore 
or continue to kick the can down the road.
    Thanks again to all of our witnesses for taking the time to 
come be a part of this today, to provide your testimony, and 
that we can have this good conversation. As we consider the 
many stewardship proposals and ideas before Congress, as this 
Committee starts thinking about the next farm bill, your input 
will be invaluable from here on out. And it is much 
appreciated.
    I yield back. Thank you.
    The Chair. Thank you very much, Ranking Member LaMalfa. 
Your comments made me think of something that a constituent 
producer said, which is: ``Farmers are the original 
conservationists.''
    The chair would request that other Members submit their 
opening statements for the record so witnesses may begin their 
testimony and to ensure that there is ample time for our 
questions.
    I am pleased to welcome such a distinguished panel of 
witnesses to our hearing today. Our witnesses bring to our 
hearing a wide range of experience and expertise, and I thank 
you all for joining us.
    Our first witness today is Mr. Charles Isbell, Jr. Mr. 
Isbell raises livestock on his family's 340 acre farm, Keenbell 
Farm, in Rockville, Virginia, not too far from the district I 
represent. The farm specializes in grass-fed beef, pork, 
poultry, turkey, eggs, and specialty grains using intense 
rotational management, precision agriculture, and conservation 
practices like cover cropping. He was named the 2020 Virginia 
Farmer of the Year. He is a founding member of the Common Grain 
Alliance and a member of the Virginia Association of Biological 
Farming, as well as the Virginia Farm Bureau Young Farmers 
Program.
    Our next witness today is Ms. Kimberly Ratcliff. Ms. 
Ratcliff manages Caney Creek Ranch, a diversified ranch in east 
central Texas that was started by her parents. She has worked 
on the ranch since 2007 and also owns Farm to Freezer Beef, a 
family-run business that offers fresh beef direct from east 
Texas ranches. In 2008, Kimberly helped found 100 Ranchers, 
which is an organization comprised of minority farmers and 
ranchers in Texas, to promote agriculture at the local level. 
And last year Ms. Ratcliff was appointed to serve on the USDA 
Advisory Committee on Minority Farmers.
    Our third witness today is Dr. Keith Paustian. Dr. Paustian 
serves as the University Distinguished Professor in the 
Department of Soil and Crop Sciences and Senior Research 
Scientist at the National Resource Ecology Laboratory at 
Colorado State University. A major focus of his work involves 
modeling, field measurement, and development of assessment 
tools for soil carbon sequestration and greenhouse gas 
emissions from soils. Dr. Paustian assisted with the 
development of the COMET-Farm tool used by USDA and the 
development of models and methodology used to estimate the U.S. 
greenhouse gas emissions reported annually by the EPA.
    Our fourth and final witness today is Mr. James Johansson. 
Mr. Johansson has been serving as President of the California 
Farm Bureau since 2017. He serves on the American Farm Bureau 
Federation Board of Directors, and previously he served as the 
Chairman of the California Young Farmers and Ranchers State 
Committee. Mr. Johansson is a farmer himself, growing olives 
and citrus fruit in Oroville, California.
    Welcome to all of our witnesses today, and we will now 
proceed with hearing your testimony. You will each have 5 
minutes, and there should be a timer visible on your screen 
that will count down to zero, at which point your time has 
expired.
    Mr. Isbell, please begin with your opening statement 
whenever you are ready. Thank you.

 STATEMENT OF CHARLES ``CJ'' EDWIN ISBELL, Jr., FARMER AND CO-
              OWNER, KEENBELL FARM, ROCKVILLE, VA

    Mr. Isbell. Madam Chair, Members of the Committee, thank 
you for allowing me the opportunity to testify here today. I am 
a third-generation farmer, co-owner of Keenbell Farm located in 
Hanover County and resident of Virginia's First District.
    On our farm, we utilize regenerative agriculture practices 
while we work to produce and market directly to the consumer 
quality grass-fed beef, pasture-raised pork, chicken, turkeys, 
eggs, and specialty non-GMO grains. Our mission is to improve 
the quality of life of our customers, community, environment, 
and ourselves by producing the highest quality foods and 
products using humane, sustainable, biological sound practices. 
Our focus since inception has been to promote a living, healthy 
soil utilizing forages, livestock, and crops as the management 
tools to accomplish this goal.
    While growing and developing our farming operation, we have 
been able to develop relationships with our local Natural 
Resources Conservation Service offices, soil and water 
conservation districts, Virginia Cooperative Extension agents, 
and USDA service centers.
    While working towards our overall mission statement, 
sharing our vision of healing the land utilizing innovative 
approaches to livestock and crop production, our approach 
relies heavily on the use of cover crops, particularly multi-
species cover crops, no-tillage, and additionally incorporating 
livestock into this cover/cash crop rotation.
    Our local agency's recognition of our approach to 
environmental stewardship made us aware of title II 
conservation programs that would fit our production model and 
we are dedicated to utilizing the conservation programs, 
regardless of whether we receive an award, if the practices are 
economically feasible, and, if awarded, the offset in capital 
is put towards other conservation programs, which are not 
covered by these outlined conservation programs.
    We have been fortunate to participate in numerous 
Environmental Quality Incentives Program, EQIP, in which we 
have implemented stream exclusion fencing, prescribed grazing 
systems, cover crop, nutrient management planning, livestock 
water systems, just to name a few.
    Environmental stewardship is the foundational value of our 
farm and one key factor when we evaluate management decisions 
in our operation. Being that our farm is in the Chesapeake Bay 
watershed, we made the decision to install exclusion fencing to 
keep livestock out of lakes and streams on the farm. The 
fencing was installed with twice the minimum buffer to provide 
additional filter support and stimulate wildlife refuge areas. 
As part of our conservation efforts, we practice intense 
rotational management of all of our livestock species we raise. 
Most are moved daily but at a minimum every 3 days. This 
rotation allows for natural distribution of manure, preventing 
the buildup and potential runoff of nutrients, and this 
rotational management system, combined with the exclusion from 
our lake and streams, require the installation of over 12,000 
of underground waterlines and 40,000 of fence lines.
    We utilize precision agriculture with grid sample and 
variable rate fertility application. And, in addition, we 
utilize multi-species cover crops, both to sustain a living 
cover in the traditional sense but also as a key component in 
our crop production cycle that has virtually eliminated the 
need for chemical applications.
    Our structured management of livestock and cover crops have 
allowed for almost doubling of the soil organic matter, which 
reduces erosion, increases nutrient holding capacities, and 
reducing runoff. Conversion of cropland, formerly under a 
conventional management system, was a hurdle to work through as 
we grew. Time and management have allowed for this stimulation 
of soil biology and building of soil organic matter and health. 
This continues to be our focus in current managed land as we 
take on new land in expanding our operation.
    While implementing this approach to livestock and crop 
production with the assistance of title II conservation 
programs, we have seen substantial benefits from the 
implementation of these practices. We have eliminated erosion, 
doubled our soil's organic matter, improved our forage and crop 
quality. We have confirmed these improvements with both 
anecdotal observation and empirical scientific data.
    Although the benefits from title II conservation programs 
are great in number, the implementation of these programs could 
be improved. As with most programs reliant on budgetary 
allocations, there are many more dollars applied for than 
funding provides. Focus needs to be directed to allow for 
greater access to these programs and assistance provided to 
ensure continuation of these conservation practices when 
funding is not available. As producers, we see the financial 
and physical benefits of conservation. But they will be more 
prone to continuing previously awarded practices with this 
focus.
    Barriers to greater adoption of these programs and 
practices include limited staffing at NRCS service centers, 
limited access to the offices themselves, excessive paperwork 
for application, capital costs requirement up-front for the 
producers, and program requirements sometimes can be too 
restrictive for today's environmental conditions, which 
sometimes eliminate their eligibility due to inability to 
comply with outlined timeframes. And it doesn't allow for some 
of the newer dynamic regenerative agriculture practices to be 
implemented with the same.
    But, with these problems, I also provide recommendations 
that would assist in improving the implementation and adoption 
of these conservation programs and practices. Support continued 
increased funding allocation for title II programs with a 
directed focus of continued outreach post-producer funding to 
encourage the continuation of conservation practices. For 
example, after a program is awarded, providing the technical 
assistance to assist the producer in understanding both the 
environmental and financial benefits from the awarded program. 
This additional support will give confidence to producers to 
continue conservation efforts beyond the program award once the 
operational benefits can be identified.
    Conversion of the NRCS brick-and-mortar paper application 
process to a more computer-based system with remote 
accessibility. Understandable that some efforts have been 
placed with the pandemic to do so, but still, as a producer, I 
have to go in person to file for crop reporting, most recently 
the CFAP applications, and the like. If a farmer had a web 
portal with all the farms associated to them, they could apply, 
file for cover crop reporting, publish yield data without the 
need for the infrastructure to house the current paper system.
    We should provide NRCS agents with the tools, technology, 
and flexibility to spend more time out in the field with 
producers. This will allow them to make more contact and 
hopefully convey the benefits of these conservation programs 
for continued use.
    Some of the program restrictions, they require producers to 
provide all up-front payment to implement these programs with 
the hope of reimbursement at a later date as long as complying 
with the defined requirements of the program. If we allow for 
up-front funding at the time of award, we may see more adoption 
of these conservation programs.
    Last, I would recommend for allowing more flexibility 
within the program guidelines to better reflect the changes in 
climate, environmental events, and modern regenerative 
agriculture practices to be more compliant and allow for 
greater adoption of these practices.
    By working together through the implementation of 
conservation and regenerative agriculture practices, we can 
heal the soil that feeds the plants which, in turn, feeds all 
of us.
    I want to thank you for allowing me the opportunity to 
testify and I am happy to answer any questions you may have.
    [The prepared statement of Mr. Isbell follows:]

 Prepared Statement of Charles ``CJ'' Edwin Isbell, Jr., Farmer and Co-
                  Owner, Keenbell Farm, Rockville, VA
    Dear Madam Chair,

    I am a third-generation farmer, co-owner of Keenbell Farm located 
in Hanover county, and resident of Virginia's First Congressional 
District. On our farm we utilize regenerative agriculture practices 
while we work to produce and market directly to the consumer quality 
grass-fed beef, pasture raised pork, chicken, turkey, eggs, and 
specialty non-GMO grains. Our mission is to improve the quality of life 
of our customers, community, environment, and ourselves by producing 
the highest quality foods and products using humane, sustainable, 
biologically sound practices. Our focus since inception is to promote a 
living, healthy soil; utilizing forages, livestock, and crops as the 
management tools to accomplish this goal.
    My grandfather started the farm in 1951 and progressed from a 
laying hen operation into a farrow-finish hog operation, and then all 
beef cattle with finishing feedlot. This was all while growing 
conventional grains for area elevators. My father left the farm full 
time during the 1980s due to the inability for the farm to support 
multiple families, but still worked nights and weekends to help out. My 
grandfather retired from farming in the late 1990s and sold some 
adjacent tracks of land, all the livestock, most of the equipment, 
removed fencing infrastructure, and rented out the land to a local 
grain farmer. Growing up in the farm, I had always wanted to farm but 
was told ``there is no money in farming and to go get an in-town job 
for stability''. In 2006, I started to work and clean up the neglected 
remains of farm buildings and 2 acres not utilized by the grain farming 
tenant. I was also providing labor to a local farmer, who had a cow 
pass away leaving a week-old calf. He gave the calf to me and told me 
that ``we can settle up if she makes it''. Well she made it, and I 
started to do research for opportunities that would allow for 
profitable farming at a level in which my family's home place could 
provide. This research yielded a lack of local meat proteins available 
to local consumers, so I formulated a business plan to take my single 
heifer and expand over the next 10 year period. With my business plan 
in hand, and the primitive base farm operation started; my father and I 
sat down and formally started our partnership with the creation of our 
LLC in 2008. Since that time, we have grown and diversified to 
incorporate a multitude of livestock species and food grade grains for 
direct to consumer sales.
    While growing and developing our farming operation, we have been 
fortunate to have developed relationships with our local Natural 
Resources Conservation Service office, Virginia Soil and Water 
Conservation District, Virginia Cooperative Extension agents, and USDA 
service centers. While working towards our overall mission statement 
and sharing our vision of healing the land utilizing innovative 
approaches to livestock and crop production. Our approach relies 
heavily on the use of cover crops, particularly multi-species cover 
crops, no-tillage, and additionally incorporating livestock into this 
cover/cash crop rotation. Our local agency's recognition of our 
approach to environmental stewardship, made us aware of title II 
conservation programs that would fit our production model. We are 
dedicated to utilizing conservation programs regardless of whether we 
receive an award, if the practices are economically feasible. And if 
awarded, the offset in capital would be put toward other conservation 
practices that are not covered by these outlined conservation programs. 
We have been fortunate to participate in numerous Environmental Quality 
Incentives Program (EQIP) in which we have implemented stream exclusion 
fencing, prescribed grazing systems, cover crop, nutrient management 
planning, livestock watering systems to name a few.
    Environmental stewardship is a foundational value of our farm and 
one of our key factors when we evaluate management decisions in our 
operation. Being that our farm is in the Chesapeake Bay watershed, we 
made the decision to install exclusion fencing to keep livestock out of 
the lake and streams that are on the farm. The fencing was installed 
with twice the minimum buffer from water to provide additional filter 
support and stimulate wildlife refuge areas. As a part of our 
conservation efforts we practice intense rotational management of all 
livestock species we raise. Most are moved daily, but at a minimum 
every 3 days. This rotation allows for natural distribution of manure, 
preventing the buildup and potential runoff of nutrients. This 
rotational management in combination with exclusion from our lake and 
streams required the installation of over 12,000 of underground water 
lines and over 40,000 of fence line. We also utilize precision 
agriculture, with grid sampling and variable rate fertility 
application. In addition, we intensely utilize multi-species cover 
crops both to sustain a living cover in the traditional sense but also 
is a key component in our crop production cycle that has virtually 
eliminated the need for routine chemical applications. Our structured 
management of both livestock and cover crops has allowed for the almost 
doubling of soil organic matter, which reduces erosion and increases 
water/nutrient holding capacities, thus reducing runoff potential. 
Conversion of cropland formerly under a conventionally managed system 
was a hurdle to work through as we grew. Time and management have 
allowed for the stimulation of the soil biology and building of soil 
organic matter & health. This continues to be our focus both in 
currently managed land and as we take on new land during the expansion 
of our operation. While implementing this approach to livestock and 
crop production with the assistance of title II conservation programs, 
we have seen substantial benefits from the implementation of these 
practices. We have eliminated erosion, doubled our soils organic 
matter, reduced water runoff, increased our soil biology, increased our 
carbon sequestration and improved our forage/crop quality. We have 
confirmed these improvements with both anecdotal observation and 
imperial scientific data.
    Although the benefits of title II conservation programs are great 
in number, the implementation of these programs could be improved. As 
with most programs reliant on budgetary allocations, there are many 
more dollars applied for than funding provisions. Focus needs to be 
directed to allow for greater access to these programs and assistance 
provided to ensure continuation of these conservation practices when 
funding is not available. As producers see the physical and financial 
benefits of conservation, they will be more prone to continuing 
previously awarded practices. Barriers to greater adoption of these 
programs and practices include: limited staffing at local NRCS service 
centers, limited access to NRCS offices, excessive paperwork required 
for application, capital cost requirement up-front, and program 
requirements are too restrictive. For example, they do not account for 
environmental conditions which may eliminate eligibility for producers 
due to inability to comply with outlined timeframes, and the strict 
verbiage does not account for newer dynamic regenerative agriculture 
practices.
    I have several recommendations that would assist in improving the 
implementation and adoption of conservation programs/practices. Support 
continued and increased funding allocation for title II conservation 
programs, with a directed focus of continued outreach post producer 
funding award to encourage the continuation of conservation practices. 
For example, after a program award providing the technical assistance 
to assist the producer in understanding both the environmental and 
financial benefits from the awarded program. This along with additional 
support to give confidence to the producers to continue conservation 
efforts b[e]yond program award, once operational benefits can be 
identified. Conversion of the current NRCS brick and mortar paper 
application process, to a computer-based system. Understandable that 
some efforts have been placed with the pandemic to do so, but as a 
producer I continue to have to go in person to file crop reporting, 
CFAP application, and the like. If each farmer had a web portal with 
all of the farms associated to them, then could apply, file crop 
reporting, yield data, etc., without the need for the infrastructure to 
house the current paper system. Provide NRCS agents the tools, 
technology, and flexibility to spend more time in the field with 
producers. Revise program restrictions to allow for up-front program 
payments to producers when awarded, currently many producers are 
discouraged to apply due to the financial burden having to spend the 
up-front capital costs to implement the program, in hopes for 
reimbursement at a later date. Last, allow for more flexibility within 
program guidelines to better reflect the changes in climate, 
environmental events, and modern innovative regenerative agriculture 
practices.
    By working together through the implementation of conservation and 
regenerative agriculture practices we can heal the soil that feeds the 
plants, and in turn feeds all of us.
    I want to thank you for allowing me the opportunity to testify.

    The Chair. Thank you very much for your opening statement, 
Mr. Isbell.
    Ms. Ratcliff, please begin whenever you are ready.

  STATEMENT OF KIMBERLY RATCLIFF, MANAGER/OWNER, CANEY CREEK 
                       RANCH, OAKWOOD, TX

    Ms. Ratcliff. Chair Spanberger, Ranking Member LaMalfa, 
Members of the Committee, thank you for this opportunity to 
speak on behalf of Caney Creek Ranch.
    After leaving a New York City financial information firm in 
2007, I returned to Caney Creek Ranch, my family operation, in 
Oakwood, a small town in central east Texas. Our family-owned 
ranch was established in 2002 by my parents, Wesley and Marie 
Ratcliff. I manage daily operations where we produce Charbray 
cattle, from which bulls, replacement heifers, semen, embryos 
are sold across the world.
    Working with my father and brother, I am leading our family 
business into the future, developing new line of businesses, 
using best practices on the ranch to increase resilience and 
efficiency, and strongly contributing to the success of our 
entire community.
    I am one of the founders of the 100 Ranchers, a community-
based organization supporting minority producers across the 
country. It has introduced me to a number of producers who have 
shared their personal stories about their journey into 
agriculture and many important conservation lessons I have 
learned.
    A friend of mine, a third-generation rancher from North 
Carolina, shared with me the importance of keeping forests as 
forests and passing on this responsibility to future 
generations. A friend of mine, a third-generation family, 
started in 1916, where his grandfather purchased 38 acres for 
$864. As he described, this was a great feat for a man but 
particularly for an African American. Initially the focus was 
to clear the land, but as the old saying goes, money does not 
grow on trees. But today the story is different.
    Organizations like Sustainable Forestry and African 
American Land Retention Project, where I serve on the Prairie 
View A&M local chapter board are working with small landowners 
to introduce them to sustainable forestry as a tool to increase 
family income and land value. This includes silvopasture, a 
management system that integrates trees with forage and 
livestock production. Silvopasture system optimized three 
components: forage, livestock, and ecosystem. Trees are planted 
into rows or cluster, or forests are thinned to provide 
significant light for forage.
    On our family operation, we incorporate existing forest 
area to provide shade, timber, food for our livestock. The 
carbon captured in the soil and the trees more than makes up 
for the greenhouse gases ruminants emit through belches and 
gas. The silvopasture system increases our production of meat 
and milk in part because the shade of the trees reduces stress 
on the livestock.
    The trees also provide a haven for wildlife habitat. The 
additional trees have brought about an increase in the number 
of quail, deer, turkey that inhabit our farm. The trees also 
act as a buffer, preventing harmful nutrients from entering the 
nearby water source.
    We also practice rotational grazing, allowing our pastures 
to rest and recover and soil health to improve.
    We were introduced to many conservation plans, including 
rotational grazing, when we started working with USDA Natural 
Resources Conservation Service. We learned how to improve the 
efficiency of our pasture, about cross-fencing, and about 
programs after working with NRCS to develop a conservation 
plan.
    Conservation plan is free. It is often the introduction to 
NRCS cost-sharing programs like EQIP, Environmental Quality 
Incentives Program, like Conservation Stewardship Program, 
Conservation Reserve Program. These programs support voluntary 
conservation efforts with landowners in the United States, 
helping direct owners to practice benefits of environment.
    Unfortunately, participation rate of conservation plans and 
cost-sharing programs are low among small landowners. Minority 
landowners have even lower rates of participation, have fewer 
acres enrolled, are less likely to afford cost-share 
requirements, and less satisfied with the program.
    To close this gap, there needs to be a new approach to 
encourage program participation by small landowners in general 
but especially minority landowners. Peer-to-peer education 
about proper management is essential to achieve conservation 
goals. This is why it is important to support organizations 
like the Texas Agriculture Life, the Texas Agricultural Land 
Trust, the National Grazing Lands Coalition, and the 
Sustainable Forestry and African American Land Retention 
Project to provide resources and technical support to producers 
on the ground.
    While there are a number of wonderful programs in NRCS, it 
is important for us to remember our work is not complete. For 
the past 60 years, agriculture industry admittedly focused on 
treating climate symptoms with practices and inputs rather than 
addressing the problem with science-based holistic principles. 
Innovative producers today understand that we do not solve 
ecological problems by implementing old practices. Rather we 
implement best practices that we know work based on science and 
explore new ways of working. It begins with maintaining a solid 
foundation with the healthy soil that helps money grow on 
trees.
    We need investment in capital to engage in best practices. 
We need education. We need access to market. We need 
partnerships to ensure that we all benefit from opportunities 
for my industry, specifically minority producers to address 
climate change, to ensure food security and diversity of our 
networks of producers.
    I appreciate you allowing me to submit this here today.
    [The prepared statement of Ms. Ratcliff follows:]

  Prepared Statement of Kimberly Ratcliff, Manager/Owner, Caney Creek 
                           Ranch, Oakwood, TX
    Chair Spanberger, Ranking Member LaMalfa, Members of the Committee, 
thank you for this opportunity to submit a written statement on behalf 
of the Caney Creek Ranch.
    After leaving a New York City financial information firm in 2007, I 
joined Caney Creek Ranch to create a generational family business 
operation. Caney Creek Ranch is located in Oakwood, a small town in 
central east Texas. Our family-owned ranch was established in 2002 by 
my parents Wesley and Marie Ratcliff. I manage daily operations of our 
family business producing Charbray cattle, from which bulls, 
replacement heifers, semen and embryos are sold nationally and 
internationally. Working with my father and brothers, I am leading our 
family business into the future--developing new lines of business, 
instituting best practices on the ranch for resilience and efficiency, 
and strongly contributing to the success of our entire community.
    Having witnessed my own family's journey establishing a new ranch, 
I understand the challenges facing new farmers and ranchers. I am 
passionate about supporting these groups, particularly minority 
producers like me. That's why I am engaged in 100 Ranchers. Established 
in 2008, The 100 Ranchers is a community-based organization for 
Minority Producers with members from across the country whose primary 
mission is to unite production agriculture producers to increase their 
livelihood by strengthening their capacity to produce safe, clean and 
marketable products.
    My experience with 100 Ranchers has introduced me to a number of 
individuals who have shared their personal stories about their journey 
into agriculture and many important conservation lessons that I have 
implemented into my own practices. A friend of mine, a third generation 
rancher from North Carolina shares with me the importance of keeping 
forests as forests and passing on this responsibility to future 
generations. His story, like so many others, connects the dots between 
forests, sustainable management, and the economic and environmental 
benefits that come with being a responsible steward of the land.
    His family's story starts in 1916 when his grandfather purchased 38 
acres of land for $864. As he describes, ``This was a great feat for 
any man at the time, but particularly so for an African American.'' 
Initially, the focus was on clearing the land for agriculture--as the 
old saying goes, ``Money doesn't grow on trees''.
    But today, the story is different. Organizations like the 
Sustainable Forestry & African American Land Retention Project (SFLR) 
where I serve on the Prairie View A&M University local chapter board 
are working with small landowners to introduce them to sustainable 
forestry as a tool to increase family income and land value, with a 
broader goal of providing future generations with a better quality of 
life through pasture and forestland ownership and retention.
    Silvopasture is integrates trees with forage and livestock 
production. The goal of a Silvopasture system is to optimize production 
of three components: forage, livestock and ecosystems. A Silvopasture 
operation can enhance soil protection and increase long-term income 
with the simultaneous production of trees and grazing animals. For 
Silvopasture, trees are planted or thinned to provide sufficient light 
for good forage production. Grouping trees into rows or clusters 
concentrates their shade and root effects while providing open spaces 
for pasture production.
    The Roque Family, a member of the 100 Ranchers and descendants of 
African slave received more than 660 acres of land through a land grant 
and established multiple farming operations. They currently operate 600 
native pecan trees and feed over 500 calves on the pasture between the 
pecan trees. For decades, the Roque Family's pecan orchard has provided 
double source of income from the same parcel of land (pecans + beef), 
improved soil health, improves water quality, reduces erosion, and has 
had a greater carbon storage than traditional pasture systems.
    On our family operation, we incorporated existing forest area to 
provide shade, timber and food for our livestock. The carbon captured 
in soil and trees more than makes up for the greenhouse gases that 
ruminants emit through belches and gas. The Silvopasture systems 
increased our production of meat and milk, in part because the shade 
from the trees reduces stress on livestock. The trees also provide a 
haven for wildlife habitat. The addition of trees has brought about an 
increase in the number of quail, deer and turkey that inhabit at the 
farm. The trees also act as buffers, preventing harmful nutrients from 
entering a nearby water sources. By implementing a Silvopasture system 
we are less likely to raise environmental concerns related to water 
quality, odors, dust, noise, disease problems and animal treatment.
    Our family operation stands by a long-term stewardship plan of 
maintaining and enhancing the quality of our resources by using them in 
a way that allow them to regenerate for the future. We concentrate on 
creating a system that rely more on the cycling of nutrients to support 
our production agriculture with fewer potentially toxic interventions. 
The prioritization is caring for the soil, because we recognize that a 
healthy soil promotes healthy crops and livestock. The buildup our soil 
organic matter help ease the increase of atmospheric CO<INF>2</INF> and 
therefore climate change.
    Our soil management system evaluates the nutritional and forage 
needs of our cattle, and shifts livestock to a different paddock on a 
regular sequence to allow recovery and growth of the pasture plants 
after grazing. This management system is called rotational grazing.
    At the very beginning of our operation, we were introduced to 
rotational grazing when we started working with the local USDA Natural 
Resource Conservation Service office on developing a conservation plan. 
We learned how to improve efficiency of our pastures and about cross-
fencing to support rotational grazing practices. Since implementing 
rotational grazing, we have improved the grass structure, the 
production of the grass, and the production and the performance of the 
cattle.
    The NRCS also supported our family as we developed a conservation 
plan. A conservation plan is a document that lays out the steps for how 
an agricultural landowner will implement specific conservation 
practices on their land. This document is important tool for 
understanding the soil, water, air, plant and animal resources on your 
property and the resources available to you to improve these conditions 
through the NRCS. Unfortunately, participation rates are low among 
small landowners. Minority landowners have even lower rates of 
participation, have fewer acres enrolled, are less likely to be able to 
afford cost-share requirements, and are less satisfied with programs. 
To close this gap, there needs be a new approach to encouraging program 
participation by small landowners in general and by minority landowners 
in particular.
    Peer-to-peer education about proper management is critical in 
working with ranchers to achieve conservation goals. This is why it is 
important to support organizations like the Texas Agriculture Land 
Trust, the National Grazing Lands Coalition, and the Sustainable 
Forestry & African American Land Retention Project that provide 
resources and technical support to producers on the ground.
Part of the Solution to Climate Change
    Grazing lands are one of America's greatest natural resources. They 
provide the nation and the world with a secure food supply, renewable 
energy, improved water quality and availability, productive plants that 
sequester carbon, robust wildlife habitat, and healthy soils, serve as 
the foundation for our country's farming and ranching families and 
contribute to food security for our nation and the world. Grazing lands 
contribute billions annually to the U.S. economy by supporting an 
estimated 60 million head of cattle. To sustain agricultural 
production, grazing lands must be conserved and properly managed to 
produce robust, resilient stands of grasses and forage. All of this 
starts below our feet with ``soil health,'' the foundation of our 
operations.
    The natural biological processes of grazing by roaming herds and 
periodic fire that created the natural grazing lands are no longer at 
work. A decade-long drought, and poor management practices contributed 
to the great Dust Bowl of the 1930s. This disaster brought about the 
birth of land conservation and the Conservation Act of 1935, which 
created the Soil Conservation Service, now the NRCS. Notwithstanding, 
in the 1950s the Green Revolution took hold, and great advancements 
were made in agricultural technology, including the development of 
commodity and forage crops that responded well to fertilizer, advanced 
farm machinery and other technological advancements that expedited crop 
production with less need for labor.
    In the years that followed, the agricultural industry operated on 
cheap feed, cheap fertilizer and cheap fuel. Our industry and our 
research during that time focused on the chemical and physical 
characteristics of soils with little to no consideration of biological 
interactions within the soil.
    In recent years, however, prices for feed, fertilizer and fuel have 
increased to a point that has become unsustainable for many operations. 
Many producers have had to make a choice: continue doing what they have 
always done or working with nature to find a new way to farm and ranch. 
Born out of equal parts necessity and frustration, producers began to 
experiment with farming and ranching techniques that limited the use of 
inorganic fertilizer, fuel and feed.
    They began to see that limiting or eliminating tillage reduced 
their fuel bill, using the ageless practice of ``cover crops'' to keep 
their fields covered provided numerous benefits to the soil (i.e., 
preventing erosion, increasing water holding capacity and increasing 
biodiversity), converting marginal soils to perennial pasture land to 
eliminate tillage and minimize erosion, and through managed rotational 
grazing the pastoral lands improved in composition and production due 
to the recovery allowed between grazing events.
    In essence, they built a foundation of principles that many 
producers follow today to manage healthy soils and restore deteriorated 
soils. These soil health management principles were set forth to 
achieve specific goals that are inherent to all soils. They are based 
on mimicking highly diverse, heterogeneous, native grazing land plant 
communities by harnessing the power of biologic interactions between 
plants, soil microbes, fungi and other of life in our soils. These 
principles build soil aggregation, which further builds soil structure.
    These principles have proven the path forward for many innovative 
producers and substantiated that the conventional farming and ranching 
practices of the last 6 decades are not the only way to succeed.
Climate-Smart Agriculture
    Since producers are often the most vulnerable to the effects of 
climate change, working with them to build ``climate resilience'' is 
critically important for global food security. Working with producers 
to advance agricultural methods that boost their productivity and 
decreasing greenhouse gas emissions. These ``climate-smart'' techniques 
also increase resilience against droughts, torrential rains, and 
changing growing seasons. Climate-smart agriculture is not a new form 
of agriculture. It's a holistic system that identifies the risks posed 
by climate change and the best practices to address those challenges.
    These strategies begin at our feet. Soil is among our greatest 
resource to combat climate change, serving as a bank to draw carbon 
deep within. Proper grazing management through livestock production can 
accelerate this.
    Developing a proper grazing plan that provides an effective 
mechanism for implementing the soil health principles and the natural 
laws of grazing management is essential for sustainable grazing 
operations. A well-designed and well-managed grazing plan results in 
healthy soils and grasses, proper nutrition for grazing animals, and 
greater livestock production at a lower cost. This is achieved by 
managing stocking rate, livestock rotation, utilization rate and plant 
rest and recovery in unison.
    Livestock producers must actively manage their stocking rate, or 
the number of animals on a given area of land over a certain period, by 
measuring available forage. It is important that the stocking rate 
match the available production and be used optimally. Improper stocking 
of grazing lands leads to over-grazing or under-grazing, neither of 
which provides favorable outcomes. Over-grazing for extended periods of 
time leads to the degradation of the grazing land and an overall 
reduction in pasture productivity, soil health and livestock 
production. Determining a proper stocking rate is essential for proper 
grazing management and requires balancing the animal numbers with 
available grass and forage production.
    Livestock are selective grazers, and left unmanaged they tend to 
disproportionally graze more-productive plants over less-productive 
plants. Livestock also prefer the fresh regrowth over mature leaves. 
That is why is important for producers to consider where to graze, when 
to graze, how long to graze, and how long to allow a grazed area to 
rest and recover. The purpose of a grazing rotation is to manage the 
impact of grazing on the grazing land while maintaining or improving 
livestock production. A good grazing management practice is ``take half 
and leave half.'' Conceptually, this means graze the top half of the 
leaves and leave the rest to allow for rapid recovery and regrowth.
    After being grazed, plants need an adequate recovery period. The 
more severe the grazing intensity, the longer it takes for the plants 
to fully recover. Soil moisture and seasonal temperatures also affect 
the rest and recovery period. In favorable moisture conditions, the 
recovery period is shorter than in low moisture conditions. As moisture 
becomes more limiting, longer rest and recovery periods are required. 
It is important to determine the recovery period based on the key 
species in the grazing land being managed. In a native grass pasture, 
the key species are those more productive, more palatable species that 
have a longer recovery period than the less desirable species. 
Introduced pastures usually have a shorter recovery period than the 
native prairies and have to be managed differently for optimum results. 
Well-managed rest and recovery periods increase pasture production and 
offer greater potential for livestock production.
    To achieve these outcomes, producers should consider the following:
1. Have a Plan
    You need to know where you are to know where you're going. A sound 
management plans allow producers to be better poised to increase their 
food output, combat food insecurity, run more efficiently, save money, 
and reduce their climate impact. Reaching out to your local Natural 
Resource[s] Conservation Office for assistance in creating a baseline 
assessment which will provide farm managers a clear picture of how the 
farm operates, and how it can run more efficiently while producing more 
food. Running more efficiently means reducing greenhouse gas emissions. 
Producing more food with land already in use means reduced need for 
fresh farmland, cleared from forests. Meanwhile, farms also keep close 
track of weather and farm data, which can help them predict patterns 
and plan more effectively.
2. Water Conservation
    Access to water resources is vital to any operation. Since 
agriculture consumes roughly 70 percent of the world's freshwater, 
water conservation is urgent and necessary in areas where water is 
becoming increasingly scarce. Climate-smart agriculture promotes a 
number of water conservation practices, such as planting a buffer of 
trees and bushes along streams and rivers to prevent erosion and 
contamination from crop runoff.
3. Save the Soil!
    Not only does fertile soil impart better flavor and higher 
nutritional value to food, soil is one of the biggest carbon sinks on 
the planet. Tending to the soil increases the amount of greenhouse 
gasses sequestered, and leads to healthier plants with higher yields. 
Healthy soil holds more moisture, keeping plant roots hydrated in dry 
periods. Soil conservation methods such as contour planting or no-till 
farming reduce erosion, keeping the soil in place during heavy rains or 
floods--a major concern in certain parts of the Unites States. All of 
this equates to higher climate resilience for farms, and better soil 
for years down the road.
4. More Trees
    Farmers using climate-smart practices understand that trees do a 
lot on farms: they can act as windbreaks, reduce soil erosion; enrich 
soil; filter water that results in higher water quality; shade and 
forage for livestock; habitat for wildlife and wildlife corridors; and 
suck up and store greenhouse gasses--the list of benefits goes on and 
on. Approximately 80 percent of deforestation is caused by agricultural 
expansion, and that conversion from forest to cropland produces a 
significant amount greenhouse gas emissions. But farmers who utilize 
climate-smart agriculture practices have lesser need to expand their 
farms--higher yields negate the need to clear forest, and keeps those 
greenhouse gases sequestered in the forest.
Conclusion
    Money can in fact grow on trees. A collective action of 
governments, non-governmental organizations, businesses, families, and 
individuals worldwide need to collaborate to accelerate nature-based 
solutions and conserve, restore and grow trees. Working together and 
integrating systems like Silvopasture, we can support environmentally 
friendly and economically viable ranching operations. However, we must 
ensure that producers have access to the resources they need to be 
successful.
    Because silvopasture takes advantage of underutilized ecosystems, 
it has the ability to create the most inclusive forest movement ever. 
Our efforts can support agricultural producers who have often been over 
looked, helping under-resourced family forest and landowners use 
sustainable forestry to increase family wealth and to build a legacy. 
But this movement does more. It supports conservation, and our quest to 
combat some of the greatest challenges facing our planet. These 
Silvopastures deliver benefits shared by all, such as purifying our air 
and water, conserving wildlife habitat, producing sustainable wood 
products, and sequestering carbon to mitigate climate change. Forests 
are an essential part of the solution to tackle climate change and 
biodiversity collapse, as well as important for jobs and sustainable 
livelihoods.
    It's also important for us to remember our work is not complete. 
For much of the past sixty years, the agriculture industry admittedly 
focused on treating climate symptoms with practices and inputs rather 
than addressing the problem with science-based, holistic principles. 
Innovative producers today understand that we do not solve ecological 
problems by implementing old practices, rather, we implement best 
practices that we know work based on science, and explore new ways of 
working. We can and are addressing ecological degradation by following 
principles that rebuild ecological processes and habitat from the 
ground up rather than focusing on specific singular species or 
management practices.
    It all begins with maintaining a solid foundation with healthy soil 
as the cornerstone to any agricultural enterprise.
    We need investment in capital to engage in best practices, 
education, access to markets, and partnerships to ensure that we all 
benefit from the opportunities for our industry and specifically 
minority producers to address climate change, ensure food security, and 
diversify the network of producers.

    The Chair. Thank you so much very, Ms. Ratcliff, for your 
testimony today.
    And, Dr. Paustian, please begin whenever you are ready.

STATEMENT OF KEITH H. PAUSTIAN, Ph.D., DISTINGUISHED PROFESSOR, 
DEPARTMENT OF SOIL AND CROP SCIENCE, COLORADO STATE UNIVERSITY; 
                        SENIOR RESEARCH 
      SCIENTIST, NATURAL RESOURCE ECOLOGY LABORATORY, CSU

    Dr. Paustian. Chair Spanberger, Ranking Member LaMalfa, and 
Committee Members, my name is Dr. Keith Paustian. I am a 
Professor at Colorado State University. I do research and 
teaching on soils, agriculture, and climate. Thank you for 
allowing me the opportunity to speak at your hearing today.
    Agriculture, both in the U.S. and globally, is facing 
several challenges, while being called upon to deliver more and 
more products and services to an increasing global population. 
Agriculture is a significant source of greenhouse gases, 
accounting for about ten percent of total U.S. emissions and 14 
percent of global emissions. However, agricultural soils can 
also be a carbon sink, removing carbon dioxide from the 
atmosphere and converting it to soil or organic matter that 
improves soil fertility and soil health.
    The key determinants for sequestering carbon and improving 
soil health are the agronomic practices employed by the farmer. 
Past management practices have over time significantly depleted 
soil carbon stocks on our agriculture lands. However, we can 
reverse much of these historic losses by adopting a variety of 
conservation practices, including reduced- and no-tillage cover 
crops, more diverse crop rotation, and other practices.
    In addition to sequestering carbon, many of these practices 
help to tighten up nutrient cycles, reducing nutrient losses 
that contaminate ground and surface waters. Also soils rich in 
organic matter are more resilient to flooding and drought 
conditions.
    So, while these agricultural practices, these conservation 
practices have seen increased use, there is massive room for 
additional adoption. For example, cover crops are currently 
planted on about less than five percent of our annual cropland. 
USDA programs, such as EQIP, Conservation Stewardship Program, 
and others have been key to encouraging producers to adopt 
conservation practices across the country. Although many of 
these practices can pay for themselves in the long run by 
improving soil function and crop yields, there are numerous 
barriers to adoption. Farming is inherently risky, and farmers 
tend to be risk averse. Thus, the support payments and 
technical assistance from USDA help to mitigate risks while 
farmers transition to these new practices.
    My research team at Colorado State University has been 
involved with USDA over the past 12 years in developing the 
COMET-Farm system. COMET-Farm is an online tool that is used to 
evaluate different conservation practices that can increase 
carbon sequestration and reduce greenhouse gas emissions on an 
individual farm or ranch. The tool is available. It is free. It 
is on the internet. The tool implements USDA's Entity-Scale 
Greenhouse Gas Inventory Methods, which were developed by top 
experts from government, academia, and industry. COMET-Farm 
currently has thousands of users, including Federal agencies, 
state governments, NGOs, companies, as well as individual 
farmers and ranchers.
    To bring about transformative changes on our nation's 
agriculture lands will also require increased participation 
from the private-sector. Over the past couple of years, there 
has been growing interest from major companies towards 
investing in carbon drawdown approaches to help meet corporate 
sustainability goals. To increase the willingness of the 
private-sector to invest in soil carbon solutions and also to 
design optimal public policy, we need to improve our abilities 
to cost-effectively measure and monitor carbon sequestration.
    While we have many excellent field experiments, as well as 
highly capable tools such as COMET-Farm, there are a number of 
R&D initiatives that could significantly improve our 
capabilities. A number of these priorities have been documented 
in a 2019 study by the National Academy of Sciences.
    One is the need for a national system of on-farm 
measurements of soil carbon stock changes. The National 
Resources Inventory System currently managed by USDA would be 
an ideal platform to supplement with some on-the-ground soil 
measurements. Our Forest Inventory System provides this type of 
information on biomass carbon stocks. We need something similar 
for our soils. We also need additional capabilities for 
performance testing of new technologies, such as new crop 
varieties, new soil amendments, new regenerative conservation 
practices.
    Finally, there is a growing scientific consensus that 
improved quantification systems can be achieved by more fully 
integrating ground-based measurements and monitoring networks, 
remote sensing, and dynamic models.
    In summary, USDA title II programs have been instrumental 
in promoting the adoption of conservation practices that yield 
significant climate benefits, as well as healthier soils and 
ecosystems. Good tools exist to expand and advance policies to 
promote climate-smart agriculture. Further improvements in 
quantification technologies can help increase engagement by the 
private-sector to take these improved practices to scale.
    Thank you, and I will be happy to take any questions.
    [The prepared statement of Dr. Paustian follows:]

     Prepared Statement of Keith H. Paustian, Ph.D., Distinguished 
    Professor, Department of Soil and Crop Science, Colorado State 
    University; Senior Research Scientist, Natural Resource Ecology 
                            Laboratory, CSU
    Chair Spanberger and Ranking Member LaMalfa, my name is Dr. Keith 
Paustian; I'm a Professor at Colorado State University, Department of 
Soil and Crop Sciences. I do research and teaching on soil ecology and 
biogeochemistry related to agriculture and climate. Thank you for 
allowing me the opportunity to speak at your hearing today.
    Agriculture, both in the U.S. and globally, is facing several 
challenges, while being called upon to deliver more and more products 
and services to an increasing global population. Agriculture is a 
significant source of GHGs, accounting for about 10% of total U.S. 
emissions \1\ and 14% of global emissions.\2\ However, agricultural 
soils can also be a carbon sink, removing carbon dioxide from the 
atmosphere and converting it into soil organic matter that improves 
soil fertility and soil health.
---------------------------------------------------------------------------
    \1\ https://www.epa.gov/ghgemissions/sources-greenhouse-gas-
emissions.
    \2\ https://www.ipcc.ch/report/ar5/syr/.
---------------------------------------------------------------------------
    The key determinants for reducing soil GHG emissions, sequestering 
carbon and improving soil health are the agronomic practices employed 
by the farmer. Many so-called conventional practices--including use of 
continuous annual crops, heavy tillage, extended bare-fallow periods 
and cultivation of marginal lands--have, over time, significantly 
depleted soil carbon stocks. However, we can reverse much of those 
historic carbon losses by adopting a variety of conservation practices 
including reduced- and no-tillage, cover crops, more diverse crop 
rotations, field buffers, agroforestry, and other practices.\3\ These 
management practices lead to more carbon dioxide being taken up by 
plants and converted to organic matter stored in the soil and with less 
soil disturbance, which also helps to maintain more of that added 
organic matter.
---------------------------------------------------------------------------
    \3\ Paustian, K., J. Lehmann, S. Ogle, D. Reay, G.P. Robertson & P. 
Smith. 2016. Climate smart soils. Nature 532: 49-57.
---------------------------------------------------------------------------
    In addition to sequestering carbon, many of these practices help to 
``tighten'' nutrient cycles, reducing leaching losses that contaminate 
ground and surface waters and reducing emissions of nitrous oxide--
another GHG--from soils. In addition, soils rich in organic matter are 
also more resilient to both flooding and drought conditions, which 
reduces yield loss due to extreme climate events.
    While these conservation management practices are seeing increasing 
use in the U.S., there's massive room for additional adoption--for 
example, cover crops are still only planted on less than 5% of our 
annual cropland. USDA conservation programs such as EQIP, the 
Conservation Stewardship Program (CSP), the Conservation Reserve 
Program (CRP) and others have been key to introducing appropriate 
conservation practices to producers across the country and to encourage 
adoption through cost-sharing, direct payments and technical 
assistance. Although many conservation practices can pay for themselves 
in the long run by improving soil function and yield stability, there 
are numerous barriers to adoption. Farming is inherently risky and 
farmers tend to be risk averse. Thus, the support payments and 
technical training and outreach from these USDA programs help to 
mitigate risk while farmers transition to these new practices.
    One of the activities that my research team at Colorado State 
University has been involved in with USDA over the past 12 years has 
been the development of the COMET-Farm system. COMET-Farm \4\ is an on-
line tool that farmers, ranchers, crop consultants, NRCS field staff 
and others can use to do a full carbon and GHG inventory of their 
operation and explore implementing different conservation management 
practices to estimate how much they could increase carbon sequestration 
and reduce other greenhouse gas emissions. The tool is free and 
available for any one that has an internet connection. The tool 
implements USDA's Entity Scale Greenhouse Gas Inventory Methods which 
were developed by top experts from government, academia and industry, 
overseen by USDA's Office of Energy and Environmental Policy and first 
published in 2014.\5\ We've also developed a related tool called COMET-
Planner \6\ that gives a quick overview at the regional scale of the 
impacts of implementing NRCS-prescribed conservation practices on 
carbon sequestration and GHG reductions. The COMET tools are currently 
being used by 10s of thousands of users, including Federal agencies, 
state governments, NGOs, companies, consultants, extension personnel, 
students, as well as individual farmers and ranchers (see attached 
Appendix A of current COMET users.)
---------------------------------------------------------------------------
    \4\ https://comet-farm.com/.
    \5\ https://www.usda.gov/sites/default/files/documents/
USDATB1939_07072014.pdf.
    \6\ http://comet-planner.com/.
---------------------------------------------------------------------------
    To bring about truly transformative changes on the nation's 
agricultural lands will require continued support from Federal and 
state governments but also increased participation and investment from 
the private-sector. Over the past couple of years there's been growing 
interest from major companies towards investing in carbon drawdown 
approaches, including soil carbon sequestration, to help meet corporate 
carbon neutrality and sustainability goals. In addition, many 
agriculturally-related industries are striving to develop low carbon 
food and fiber products.
    To increase the confidence and willingness of the private-sector to 
invest in soil carbon solutions, and to design optimal public policy, 
we need to improve our abilities to cost-effectively measure and 
monitor carbon sequestration and greenhouse gas reduction in the 
agricultural sector and reduce uncertainties in our estimates. While we 
have many excellent long-term field experiments documenting the 
performance of conservation practices, as well as highly capable models 
and tools such as COMET-Farm, there are a number of research and 
development initiatives that could significantly improve our 
capabilities. A number of these R&D priorities have been documented in 
a 2019 study by the National Academy of Sciences \7\ on so-called 
negative emission technologies, including soil carbon sequestration. I 
will just mention a couple of them here.
---------------------------------------------------------------------------
    \7\ https://www.nationalacademies.org/our-work/developing-a-
research-agenda-for-carbon-dioxide-removal-and-reliable-sequestration.
---------------------------------------------------------------------------
    One is the need for a national system for on-farm measurements of 
soil carbon stock changes over time. The National Resources Inventory 
(NRI) system is managed by USDA and provides a statistical sampling of 
farms that tell us what management practices (such as crop rotations, 
irrigation, fertilizer use, etc.) are being used but there are no on-
the-ground measurements of, for example, soil carbon stocks. If USDA 
chose a few thousand NRI points on which to measure soil C stocks every 
7-8 years, we would be able to build up a record of soil C stocks 
changes over time. Our forest inventory system provides this type of 
information on biomass C changes; we need something similar for our 
soils.
    We also need capabilities for field performance testing of new 
technologies, such as new crop varieties, new soil amendments and new 
practices that aren't currently included in long-term field 
experiments. Typically assessing the impact of new practices or crop 
types on soil carbon sequestration can take a decade or more; we need 
systems to assess capabilities of new technologies much more rapidly.
    Finally, there's a growing scientific consensus that improved 
quantification systems can be achieved by more fully integrating 
multiple data sources, including ground-based measurements and 
monitoring networks, remote sensing, crowd-sourced data on management 
activities and dynamic models.\8\ Further R&D investments in developing 
an integrated soils information system can yield major improvements in 
the next few years.
---------------------------------------------------------------------------
    \8\ Paustian, K., et al. 2019. Quantifying carbon for agricultural 
soil management: from the current status toward a global soil 
information system. Carbon Management 10: 567-587.
---------------------------------------------------------------------------
    In summary, USDA title II programs have been instrumental in 
promoting the adoption of conservation practices that can yield 
significant climate benefits along with promoting healthier soils and 
ecosystems. Good tools exist now to advance and expand policies to 
promote climate-smart agriculture. Further improvements in 
quantification technologies can help increase engagement by the 
private-sector to take these improved agricultural conservation 
practices to scale.
    Thank you. I'll be happy to take any questions.
Appendix A. Report to USDA/NRCS, March 2021, Summary of COMET-Farm and 
                          COMET-Planner Users
                          
                          
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


COMET-Tools Outreach Report
03/12/2021

                               COMET-Farm
------------------------------------------------------------------------
          Year                  Total Users           Annual Sessions
------------------------------------------------------------------------
             2015                                             3,769
             2016                       140                   4,201
             2017                       407                   2,497
             2018                       777                   3,273
             2019                       901                   2,500
             2020                     4,181                  12,342
           2021 *                     1,345                   3,111
------------------------------------------------------------------------
* As of 3/12/2021.


                              COMET-Planner
------------------------------------------------------------------------
                Year                            Total Sessions
------------------------------------------------------------------------
                   2016                                 4,582
                   2017                                 7,985
                   2018                                10,029
                   2019                                 8,564
                   2020                                 5,626
                 2021 *                                ** 679
                       Lifetime                        37,460
------------------------------------------------------------------------
* As of 3/12/2021.
** Excluding an anomaly of 1,121 users on 2/1/2021.


                       User Support via Help Desk
------------------------------------------------------------------------
                                                              Solution
     Year          Sessions        People         Hours        Article
                                                                Views
------------------------------------------------------------------------
        2016              37             54           35.2            --
        2017              26             40           21.7            --
        2018              38             26           11.5            --
        2019              74            104           67.8            --
        2020             377            398          321.5           413
      2021 *              92             59             16           284
------------------------------------------------------------------------
* As of 3/12/2021.


                      YouTube Training Video Views
------------------------------------------------------------------------
                           Video                                Views
------------------------------------------------------------------------
Assessing Animal Ag (Dairy)                                          170
Using Shape Files in COMET-Farm                                      107
Assessing Agroforestry                                               123
Assessing Croplands                                                  449
Assessing Croplands (Rice)                                            89
Assessing Forestry                                                    96
Introduction to COMET-Energy                                         131
COMET-Planner video (2015)                                         2,250
COMET-Planner video (2017)                                         1,157
New Drag and Drop Feature                                             46
COMET-Farm & COMET-Planner Introduction *New Channel*                136
Creating a COMET-Farm Account *New Channel*                           27
Navigating COMET-Farm *New Channel*                                   29
Carbon Farm Planning Using COMET-Farm                                231
New Animal Ag Accounting (flexible baseline, defining                 19
 herds, herd copy)
------------------------------------------------------------------------


                            Outreach to Date
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Federal, State, Regional and Local Government
------------------------------------------------------------------------
USDA Agricultural Research Service   State of Hawaii
USDA Farm Services Agency            San Miguel County, Colorado
California Department of Food and    Boulder County, Colorado City of
 Agriculture                         Boulder, Colorado LaPlata County,
                                      Colorado
California Air Resources Board       Summit County, Utah Johnson County,
 Resource                             KS
Conservation Districts throughout    Sierra Resource Conservation
 California                           District
WHATCOM Conservation District,       NRCS--Annapolis, MD; Walhalla, SC;
 Washington State                     McMinnville, OR; Washington, D.C.;
Wilkin Soil and Water Conservation    Connecticut; Madison, WI;
 District, Minnesota                  Columbia, MO;
                                     Colorado Energy Office
Department of Agriculture, Forestry  Boulder County (Colorado) Parks and
 & Fisheries (S. Africa)              Open Space
California Air Resources Board       Alameda County Resource
New Mexico Department of              Conservation District
 Agriculture
Indiana Department of Agriculture    Tualatin Soil and Water
                                      Conservation District
Wisconsin Land + Water               Napa Resource Conservation District
------------------------------------------------------------------------
Higher Education
------------------------------------------------------------------------
Colorado State University            University of Northern Colorado
Bard College                         University of Wyoming
North Dakota State                   University University of Hawaii
University of Maryland               University of Vermont
Western Colorado University          Oklahoma State University
University of Guelph                 Yale University
Rutgers University                   Northern Arizona University
Georgia Institute of Technology      University of California Composting
Nueta Hidatsa Sahnish College--       Education Program
 North Dakota
------------------------------------------------------------------------
NGO's
------------------------------------------------------------------------
The Marin Carbon Project             Sunflower City
Environmental Defense Fund           Carbon Cycle Institute
The Nature Conservancy               Chesapeake Bay Foundation
Climate Action Reserve               American Farmland Trust
Verra (formerly Verified Carbon      American Carbon Registry
 Standard--VCS)                      Innovation Center for U.S. Dairy
Solano Land Trust                    Colorado Carbon Fund
The Pinhead Institute                Ducks Unlimited
Sustainable Tompkins                 Soil Health Institute
National Corn Growers                Soil Health Partnership
Straus Family Farm                   Project Together
Clear Frontier Ag Management         Shelburne Farms
Fish Friendly Farming                Energy District
Carbon 180                           California Land Stewardship
                                      Institute
------------------------------------------------------------------------
Agricultural Industry Organizations
------------------------------------------------------------------------
California Farm Bureau               California Almond Growers Rocky
Mountain Farmers Union               Hawaii Agriculture Research Center
Australian Department of
 Environment and Water
------------------------------------------------------------------------
Businesses
------------------------------------------------------------------------
Ben & Jerry's                        Pure Strategies
Fibershed & The North Face           NORI Indigo
Ag Coca Cola                         Agrisoma
Unilever                             Monsanto
Strauss Dairy                        Stemple Creek Ranch
Native Energy                        Mad Agriculture
Cargrill                             NORI
Sustainable environmental            Upstream
 Consultants
Watershed Climate                    Nutrient
Indigo Agriculture                   Microsoft Azure
Logiag                               Boston Consulting Group
GD Associates                        PIF California
Anthesis Group                       SBC Global
Handsome Brook Farms                 Post Holdings
Land O' Lakes                        Wheat Sheaf Group
Blue Skye                            Simplot
First Earth                          Jackson Family Wines
Mondelez International               Keystone Pacific/Wild Rose LLC
Lozensky Farms                       Active Renewals
Wheat Sheaf Group                    Gould Family Farms
Anuvia                               Agrocares
FoodTBS                              Solution TF
KWS Berlin GmbH                      Frontier Farmland
TeamAg Inc.                          Stonyfield Organic
Arcor Group                          Quivira Coalition
Polytechnique Montreal               Heffernan Consulting, Inc. Home &
Caterpillar                           Farm Consulting
CiBO Technologies                    McKinsey & Company
SMARTFARM                            Casella Waste Systems
Hudson Carbon                        Pipestone Nutrition
Kloberdanz Consulting                Growell Consulting
Locus Agriculture Solutions          Sofies Environmental Consulting
McKinsey & Company                   Florida Crystal Corporation
Alltech--Quality Animal Nutrition,   Philosopher's Farm
 Health and Feed Supplements         Blockware Technologies (Canada)
Levi's Indigenous Fruit Enterprises  Soletrac Electric Tractors
Treasury Wine Estates                Biome Makers
Team Ag Inc                          Royal Dairy
Mountain View Acres Farm & Orchard   Ag Grow Tech
Kytech Consultant                    Hem Mills
Smart Farmer (Thailand)              Net Zero Carbon Buildings
Frogs Leap Winery                    Pifer's Land Management
Triple Crown Consulting              African Data Technologies
Carbon Credits Group                 Fresh Del Monte
Pekrul Engineering                   LandFund Partners
Sesenta (South Africa)               Farmer's Business Network
Deveron                              Cedar Valley Farms
EMBRAPA (Brazil)                     Farmer's Edge
North Iowa Agronomy Partners         Dari Gold
------------------------------------------------------------------------

Haley Nagle,
Outreach and Education Specialist--COMET Tools
Natural Resource Ecology Laboratory,
Colorado State University.
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="054d6469607c2b6b6462696045666a696a76716471602b606170">[email&#160;protected]</a>


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chair. Thank you, Dr. Paustian.
    Mr. Johansson, please begin with your 5 minutes when you 
are ready.

   STATEMENT OF JAMIE JOHANSSON, PRESIDENT, CALIFORNIA FARM 
                     BUREAU, SACRAMENTO, CA

    Mr. Johansson. Thank you, Chair Spanberger, Ranking Member 
LaMalfa, and Members of the Subcommittee for the opportunity to 
appear before you today.
    I am Jamie Johansson, President of California Farm Bureau 
and a first-generation olive and citrus farmer.
    California's producers are all too familiar with changing 
weather conditions. The current U.S. Drought Monitor reports 
that over 97 percent of California is experiencing moderate to 
exceptional drought, impacting over 34 million Californians.
    We are also forecast to have above-normal fire potential 
this year. California's wildfires are very personal to me. Not 
only as President of an organization who has witnessed 
countless stories of farmers' loss and frustration but also 
because my family has been evacuated three times in the last 4 
years due to wildfire. Sadly, there is no wildfire season in 
California. The risk is now year-round, and it is immense.
    Last year, the U.S. Forest Service stated in testimony they 
would need $2 billion to $3 billion per year for treatments 
required to get ahead of hazardous fuel levels. We urge the 
Committee to include both forestry and grazing practices as 
strategies to restore forest health and rangeland health and 
increase fire resilience. We also ask that the Subcommittee 
helps to ensure that sufficient disaster assistance programs, 
such as the Wildfire Hurricane Indemnity Program Plus, are made 
available to producers.
    Our producers are at the forefront of investment in 
agricultural research and adopting practices that improve 
productivity while enhancing sustainability. Conservation is 
widespread in California agriculture. Our farmers and ranchers 
have a proven track record of doing more with less. Practices 
include water recharge, irrigation efficiency, energy 
conservation, and investment in farm equipment with cleaner 
emissions.
    With so much already happening at the field level, it is 
important to consider how new Federal policies and programs 
will overlay with existing state climate programs and, most 
importantly, grower-led initiatives.
    Title II programs provide producers with additional ability 
to adopt conservation practices while improving agricultural 
production. We are appreciative of the improvements made to the 
conservation title by this Committee in the last farm bill, 
including enhanced flexibility of programs to meet producer 
needs. EQIP is the most utilized program in California, 
assisting producers with options and achieving greater 
conservation goals. It is important that any changes to title 
II do not walk back those flexibilities.
    To help ensure climate benefits are adopted, NRCS can 
consider prioritizing EQIP contracts that result in emission 
reductions, increased carbon sequestration, and improved 
climate resilience. Prioritization would still need to retain 
flexibility for all crop types with sufficient levels of 
financial and technical assistance.
    California produces over 400 commodities with various 
cropping systems and farm sizes. Practices will need to be 
broad and outcome-based, emphasizing a list of options as 
opposed to a prescriptive checklist. The nexus between a lack 
of broadband in many agricultural areas and implementation 
should also be considered.
    We also urge the Committee to considered adding feed, 
genetics, and nutrition management as eligible practices within 
the Conservation Innovation Grant Program to provide additional 
opportunities for farmers to test the newest technologies and 
evaluate their impact within their operation. While trials 
around feed additives and genetics are not explicitly excluded, 
it is also not clear that they are included.
    We are also very supportive of the Regional Conservation 
Partnership Program, which offers producers the opportunity to 
work collaboratively with NRCS and other conservation partners. 
We supported the change in the 2018 Farm Bill that reconfigured 
RCPP as a standalone program. And we are currently an RCPP 
partner, working collaboratively on Tricolored Blackbird 
nesting colonies with many of our dairy farms in the Central 
Valley.
    Regardless of programs or practice, financial and technical 
assistance must be consistent, sustainable, and long-term, if 
our expectations as producers are also long-term. We must also 
consider the indirect pressure this may place on important CCC-
funded programs for California. These programs would include 
programs like the Market Access Program and the Foreign Market 
Development Program, the Coronavirus Food Assistance Program, 
as well as livestock and other disaster programs.
    California Farm Bureau supports producer participation in 
voluntary climate-smart practices, that is, sequester carbon, 
reduce greenhouse gas emissions, and build climate resilience. 
While many have been incorporating climate-smart practices on 
their operations for years, to further adoption of the on-farm 
climate-smart climate practices, we must not only compensate 
early adopters but also consider the economics of the farm and 
assist those being expected to do more. Only in working 
together can we achieve solutions that make agriculture more 
climate resilient while remaining viable.
    Thank you again for the opportunity to testify today, and I 
look forward to your questions.
    [The prepared statement of Mr. Johansson follows:]

   Prepared Statement of Jamie Johansson, President, California Farm 
                         Bureau, Sacramento, CA
Introduction
    Chair Spanberger, Ranking Member LaMalfa, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
about the important topic of farm bill title II conservation programs 
and exploring climate-smart agricultural practices.
    My name is Jamie Johansson, President of the California Farm 
Bureau. California Farm Bureau is California's largest farm 
organization, representing over 31,000 members across 53 counties, that 
contribute the largest agricultural economy of any state in the nation. 
Our agricultural producers provide food, fiber and feed to our local 
communities, the nation and foreign economies across the globe. Farm 
Bureau strives to protect and improve the ability of farmers and 
ranchers engaged in production agriculture to provide a reliable supply 
of food and fiber through responsible stewardship of California's 
resources. California Farm Bureau has long served as a leading 
agriculture organization representing over 400 commodities with diverse 
production practices and continues to work collaboratively with 
stakeholders within our state and across the nation, including being a 
general member of the Food and Agriculture Climate Alliance (FACA).
    In addition to serving as the California Farm Bureau President 
since 2017, I am also a first-generation farmer. My family grows olives 
and citrus fruit in Oroville, California and operates an olive oil 
company, Lodestar Farms. I am also a co-founder of the Sierra Oro Farm 
Trail Association and a former board member of the California Olive Oil 
Council. Additionally, I also serve on the Board of Directors for 
American Farm Bureau Federation.
General Comments
    California's farmers, ranchers and foresters are all too familiar 
with changing weather conditions including, but not limited to, 
changing hydrological conditions that result in cyclic drought and 
catastrophic wildfire seasons that are lengthening and burning more 
intensely. In addition to the numerous market impacts brought on by the 
COVID-19 pandemic, California producers have also grappled with burned 
and smoke tainted crops, dead and injured livestock, and farming at 
times in dangerous air quality conditions due to catastrophic wildfires 
and extremely limited access to personal protective equipment.
    As our producers look ahead to 2021, they are once again being met 
by immense weather-related challenges. The most recent data provided by 
the U.S. Drought Monitor reports that over 97% of California is 
experiencing moderate (D1) to exceptional (D4) drought resulting in 
over 34 million Californians experiencing drought. Precipitation totals 
remain well below normal, and California's below-normal snowpack is 
melting rapidly. Dry soils are expected to reduce runoff and vegetation 
is already showing signs of stress. A warmer than normal summer is also 
forecasted meaning that there will be significant, above normal fire 
potential for many areas in our state starting in July and continuing 
through the summer and into the fall.
Wildfire & Forest Management
    California's wildfires are very personal to me; not only as the 
President of an organization who has heard countless stories of loss 
and frustration from my members but also because my employees and my 
family have been evacuees three times due to wildfire. Sadly, there is 
no fire season in California anymore; the risk is now year-round. 
Destructive mega-fires do not discriminate what or where they burn and 
the impacts on our water, energy, environment, and economy are being 
consistently felt, both in rural and urban areas. This makes it 
critically important that Federal, state and private forest and 
rangeland stakeholders across ownership types, including grazing 
permittees, be included in emerging climate policy discussions.
    Additionally, there are many forest management policies designed 
with preservation, rather than active management and multiple-use 
approaches in mind. This has resulted in restrictive and inflexible 
parameters that hinder improving current conditions on our forestlands 
despite drought, pest infestation, and backlog from underfunded 
management programs that lack adequate resources to realistically 
address the catastrophic wildfire risk we now face. During testimony 
last year, the U.S. Forest Service indicated that they would need $2-$3 
billion per year to treat the number of acres required to increase the 
pace and scale of forest management and get ahead of fuel levels 
exacerbating wildfire across the National Forest System.
    Healthy forests provide an abundant source of clean water, clean 
air, wildlife habitat and unsurpassed recreational opportunities. It is 
estimated that California's forests store and filter more than 60% of 
the state's water supply and store massive amounts of carbon, assisting 
in our efforts to combat climate change. For these reasons, it is 
imperative that forest management strategies and adequate funding that 
significantly increase efforts to improve forest health and resilience 
are part of the climate conversation. This includes, but is not limited 
to, focusing attention on both forestry and grazing practices that can 
help restore forest and rangeland health, increasing our resilience to 
fire, and reducing fuel load on our National Forests. We must also 
direct resources toward reforesting the vast areas that have been 
harmed by recent fires.
    We would also ask that the Subcommittee consider the immense impact 
of wildfire on agricultural producers due to the onset of a changing 
climate, by ensuring that sufficient disaster assistance, such as the 
Wildfire and Hurricane Indemnity Program Plus (WHIP+), is made 
available to agricultural producers who experience production losses 
caused by wildfire. Additionally, we urge USDA to consider making 
grants available to rural communities and producers to replace 
equipment, infrastructure and fencing damaged due to wildfire.
Climate-Smart Agriculture & Forestry Practices
    Because agriculture provides society with numerous benefits 
including, but not limited to, food security, environmental benefits 
and community stability, California Farm Bureau believes it is 
critically important that we consider the economics of the farm when 
considering new climate policies. Only in working together can we 
achieve climate solutions that not only make agriculture more 
resilient, but our country stronger because competitiveness and 
productivity are not hampered.
    California's farmers, ranchers and foresters are at the forefront 
of promoting soil health, utilizing water resources efficiently, 
enhancing wildlife on working lands, efficiently applying nutrients and 
caring for their animals. Through investment in agricultural research 
and adopting practices that improve productivity while enhancing 
sustainability, California's producers have a proven history of 
innovation. Conservation is widespread in California agriculture. Our 
farmers and ranchers have been managing soil health and conserving 
natural resources for generations and have a proven track record of 
doing more with less.
    Examples of this include applying precision agricultural practices 
focused on methods that keep our soil, water and air quality as 
sustainable and healthy as possible. Strategies include water recharge, 
irrigation efficiency, energy conservation, energy production and 
investing in farm equipment with cleaner emissions. Depending on the 
operation, some farmers have also found that diversifying their 
operation helps make certain that their soil never fatigues. They work 
with a variety of different crops on the same ranch that are designed 
to work together. This can help stop soil erosion while keeping the 
ground fertile. Crop diversification can also help the producer remain 
economically secure because no single crop makes up most of their 
income.
Title II Conservation Programs in California
    Title II, the conservation title of the farm bill, incorporates 
several voluntary conservation initiatives that provides California 
farmers, ranchers and foresters with additional ability to adopt 
numerous conservation practices while improving agricultural 
production. California's producers utilize the tools included in title 
II to help maintain the quality of their operations while also 
stewarding the environment around them. The conservation title of the 
2018 Farm Bill makes up 7% of the bill's total projected mandatory 
spending over 10 years ($60 billion of the total $867 billion). Within 
title II, we urge the Subcommittee to focus on the working lands 
portion of theconservation title.
Environmental Quality Incentives Program
    We are very appreciative of the many improvements that were made by 
this Committee in the conservation title of the last farm bill. Of the 
conservation title programs, the Environmental Quality Incentives 
Program (EQIP) is by far the most utilized program in California 
assisting producers in achieving greater conservation goals. We 
particularly thank you for including funding for air quality 
incentives, which has been incredibly important to farmers in 
California who face strict air standards. EQIP has assisted farmers in 
making great strides in the areas of air quality and water conservation 
and we believe additional opportunities exist.
    The 2018 Farm Bill also focused on enhancing the flexibility of 
conservation programs to meet producer needs and it is important that 
any changes to title II do not walk back those flexibilities. 
California producers largely turn to the Environmental Quality 
Incentives Program (EQIP) because of its flexibility and wide array of 
uses. For this reason, California Farm Bureau was extremely supportive 
of the 2018 Farm Bill's expansion and reauthorization of EQIP with 
increased funding levels.
    In 2020, California had 1,473 active and completed EQIP contracts 
over nearly 408,000 treated acres of land. EQIP assists producers with 
making beneficial, cost-effective changes to production systems, 
including, but not limited to, addressing resource concerns related to 
organic production grazing management, fuels management, forest 
management, crop and livestock nutrient management, pest management, 
irrigation management, adaption and mitigation to increasing weather 
volatility, and drought resiliency measures.
    To help ensure climate benefits are adopted, the Natural Resources 
Conservation Service (NRCS) could consider prioritizing EQIP contracts 
that result in a reduction of emissions, boost carbon sequestration, 
and provide climate resilience in addition to the practice areas listed 
above. This would help ensure that positive climate benefits are 
identified and adopted as part of current and new EQIP contracts, 
encouraging producers to continue to adopt new climate stewardship 
measures voluntarily. Given the diversity of the agricultural sector, 
especially in states like California, we must also emphasize the 
importance of contacts remaining flexible for all crop types and 
practices. This change in prioritization would also need to be 
accompanied by proportionate levels of financial and technical 
assistance.
Conservation Innovation Grants
    Feed, genetics and nutrition management should be eligible under 
the Conservation Innovation Grant (CIG) On-Farm Trial Program. CIG on-
farm trials are a critical tool for farmers to test and prove new 
practices with reduced risk. While trials around feed additives and 
genetics are not explicitly excluded, it is also not clear that they 
are included. Inclusion would provide additional opportunities for 
farmers to test the newest technologies and evaluate their impact 
within their operation.
Regional Conservation Partnership Program
    The Regional Conservation Partnership Program (RCPP) offers 
producers the opportunity to work collaboratively with NRCS and other 
conservation partners to work together and expand voluntary, private 
lands conservation. For this reason, California Farm Bureau was 
supportive of the change in the 2018 Farm Bill that reconfigured RCPP 
as a stand-alone program with its own funding and producer contracts.
    Currently, California Farm Bureau is still collaborating in a RCPP 
partnership with other organizations in the California Bay-Delta region 
to address the decline of the Tricolored Blackbird. The geographic 
focus of this RCPP project is in the San Joaquin Valley where nesting 
of Tricolored Blackbird colonies on agricultural fields conflicts with 
producer's harvest schedule. This conflict has represented a unique 
challenge of finding a balance between natural habitat, protecting 
colonies on agricultural lands and supporting the livelihood of our 
dairy farmers. While the program has been successful in numerous ways, 
consistency in funding assistance and funding levels has been a 
challenge. As we seek to add additional climate-smart practices, this 
RCPP project is an example of the importance of funding sources being 
consistent, sustainable and long-term if our expectations of producers 
are also long-term.
Conservation Reserve Program
    There has been much attention on the Conservation Reserve Program 
(CRP). Compared to other states, California is a relatively low user of 
this program with less than 100,000 acres enrolled in CRP. As mentioned 
above, within title II, we urge the Subcommittee to focus on the 
working lands portion of the conservation title in help keep working 
lands working.
Title II Conservation Program Recommendations
    California Farm Bureau supports enhancing and expanding the ability 
for growers of all agricultural commodities to be able to voluntarily 
participate in climate-smart agriculture and forestry practices that 
help to sequester carbon, reduce greenhouse gas (GHG) emissions and 
build climate resilience. Additionally, we are aware of legislation and 
proposals seeking to address the current borrowing authority of the 
Commodity Credit Corporation (CCC). Absent additional, sustainable and 
long-term funding for climate-smart agriculture and forestry practices 
added to title II conservation programs, we also urge the Subcommittee 
to consider the additional pressure this could place on the CCC and the 
important programs the CCC funds.
    CCC funding is a critical tool for agriculture. As more demands are 
put on the CCC, it is important to ensure sufficient funding remains 
for existing core programs. For that reason, California Farm Bureau is 
supportive of updating the CCC borrowing amount. In California, farmers 
and ranchers heavily rely on programs funded by the CCC such as:
Market Access Program & Foreign Market Development Program
    California farmers and ranchers need continued investment in the 
Market Access Program (MAP) and the Foreign Market Development (FMD) 
Program. The twin challenges presented by the ongoing COVID-19 pandemic 
as well as spikes in competitors' export promotion programs and 
activities highlight the need for continued investment in these public-
private partnerships. In 2019, California exported nearly $21.7 billion 
in agricultural goods. Programs like MAP and FMD will continue helping 
us export to current markets as well as new and emerging markets. It is 
critical the CCC funds be used for these programs to help U.S. farmers, 
ranchers and food exporters keep pace and to help us make up for lost 
time after 2\1/2\ years of trade conflict and retaliatory tariffs.
Market Facilitation Program
    As trade negotiations and tariff issues persist, it is important 
that we continue supporting our farmers and ranchers through policies 
and programs such as the Market Facilitation Program (MFP). MFP was 
created to help those who were impacted by the retaliatory tariffs 
which resulted in the loss of certain exporting markets. The MFP helped 
address the financial hit farmers took due to the tariffs. Although the 
program did not provide relief to all producers, it did help the dairy 
industry, along with walnuts, pecans and table grape growers in 
California.
Coronavirus Food Assistance Program
    Direct payments through the CCC to producers impacted by the 
pandemic have played a big role in providing much needed relief to keep 
them afloat. California farms collected nearly $1.8 billion in CFAP 
payments with most of these payments going to producers in the Central 
and Imperial valleys of California, regions with large amounts of 
dairy, fruit, vegetable and nut production that have traditionally 
received little to no direct USDA assistance.
Livestock and Disaster Programs
    California farmers and ranchers heavily rely on disaster programs 
and aid as drought and wildfires continue to worsen in the western 
states. While not all disaster programs are funded by the CCC, our 
members continue to utilize those that are. Whether it be the Dairy 
Margin Coverage (DMC) program, Livestock Forage Program (LFP), 
Livestock Indemnity Program (LIP), Emergency Assistance for Livestock, 
Honeybees, and Farm-raised Fish (ELAP) or others, California producers 
cannot afford to see a funding shortfall in any of these programs that 
they, unfortunately, continue to utilize.
General Climate Policy Recommendations
    As this Subcommittee reviews title II conservation programs and how 
to encourage the voluntary adoption of climate-smart agricultural and 
forestry practices generally, we urge Members of the Subcommittee to 
consider the following:

  <bullet> Policy analyses characterizing domestic U.S. crop and 
        livestock systems should reflect American agriculture's 
        leadership globally in sustainable farming practices. Policy 
        changes will have real world impacts on farmers, ranchers, 
        foresters and the rural communities that depend on them. For 
        this reason, it is important that the Subcommittee continue to 
        engage a broad spectrum of opinions, especially producers who 
        will be directly affected, as it is doing today.

  <bullet> Retroactive efforts or incremental improvements undertaken 
        by agriculture leaders to reduce greenhouse emissions and/or 
        sequester carbon must be fully eligible to participate and 
        receive applicable compensation. Many farmers and ranchers in 
        California have been incorporating climate-smart practices, 
        such as cover cropping, no-till farming and compost 
        application, on their operations for years. These producers 
        should be acknowledged and appropriately rewarded for their 
        work.

  <bullet> The Subcommittee should consider how the overlay of any new 
        Federal policies and programs will impact existing state 
        climate policies and programs. Additionally, the Federal 
        Government should consider ways to partner with state 
        departments of agriculture as appropriate. Recently, the 
        California Department of Food and Agriculture (CDFA) has been 
        holding stakeholder meetings to solicit feedback on ways to 
        boost climate resilience, greenhouse gas mitigation and food 
        security. This work will eventually inform scoping plans, as 
        well as ongoing and future work, associated with state climate 
        laws. We support the Federal Government following a similar 
        approach where crop specific, producer feedback is solicited.

  <bullet> To further the adoption of on-farm climate-smart practices, 
        we must not only compensate early adopters, but also assist 
        those being expected to do more. This will require a 
        sustainable, stable and long-term funding source for both 
        financial and technical assistance. Additionally, funding 
        parameters attached to farm characteristics, such as size or 
        adjusted gross income levels, should not apply. We also request 
        that the Subcommittee consider how much funding will be 
        allocated to non-farm intermediaries who may divert funding to 
        narrow or non-farm-related purposes.

  <bullet> Consider the diversity and scale of American agriculture. 
        There has been much discussion on the role of cover crops in 
        climate-smart agriculture. While cover crops can be an 
        effective tool, California produces more than 400 different 
        commodities and has a variety of cropping systems and farm 
        sizes. A one-size-fits-all approach, or emphasizing only one or 
        few practices, will not be the best path forward for American 
        agriculture, especially in states like California that produce 
        large amounts of specialty crops among others.

      Additionally, some crops are more cost-intensive to produce and 
        may be grown on higher-value land than other areas. The cost of 
        production per acre as well as the value per acre of each crop 
        will influence which practices and which incentives are most 
        attractive. For these reasons, we encourage the Subcommittee to 
        be broad and inclusive, emphasizing a menu of practice choices 
        as opposed to a prescriptive checklist. Every farm, every 
        ranch, and every field have a different story to tell. 
        Producers should be able to choose which outcome-based 
        practices best fit their operation.

  <bullet> Access to technical assistance from USDA staff, USDA 
        Technical Service Providers (TSP), Cooperative Extension 
        specialists, and crop advisors is critical to assist farmers, 
        ranchers and foresters with planning and implementing 
        conservation practices. Being inclusive of these groups will 
        help maximize reach and enhance program delivery. We also 
        support a streamlined approach to TSP certification.

  <bullet> Climate-smart agricultural practices must be grounded in 
        science but also field-trialed to prove that they have 
        practical applicability for farmers to undertake. Technologies 
        and conservation practices that are readily understood, 
        scalable and easy to implement will likely be the most 
        utilized. Implementing an on-farm change with a full 
        understanding of its tradeoffs (pests, costs, regulatory 
        ramifications, etc.) is also important. This should be coupled 
        with funding and emphasis on agricultural research and 
        extension. Additional technologies, traits, and production 
        practices are far more beneficial than burdening the economy 
        with additional, prescriptive regulations.

  <bullet> The overarching goal should be to keep working lands 
        working. We oppose pursuing practices that do not consider and 
        encourage the economic base value of the property. For farms 
        and ranches to meet their conservation goals, they must also be 
        able to meet their economic goals.

  <bullet> Consider the nexus between the lack of broadband in many 
        agricultural areas and the modern use of precision agriculture 
        equipment. Precision agriculture tools and practices can result 
        in quantifiable benefits for both the farmer and the 
        environment. However, it is very difficult to implement such 
        practices if the farm location lacks adequate connectivity.

  <bullet> Farmers have only so much control. California's farmers and 
        ranchers continue to farm amidst great uncertainty when it 
        comes to reliable water supplies and cyclic drought. Drought 
        followed by wet years has recently illustrated what both 
        extended drought and extreme rainfall cycles look like with 
        inadequate water infrastructure. If longer and drier droughts 
        coupled with powerful floods are the future of California's 
        possible larger climate trend, it means we must do a better job 
        of investing in water infrastructure and capturing water 
        resources when they are available.
Conclusion
    On behalf of California's farmers, ranchers and foresters, I 
appreciate the opportunity to come before the Subcommittee today and 
share our perspective on climate strategies that impact American 
agriculture. Having faced many climate initiatives at the state level 
already, California Farm Bureau is well equipped and stands ready to 
assist. Thank you for the opportunity to testify.

    The Chair. Thank you very much, Mr. Johansson.
    At this time, Members will be recognized for questions in 
order of seniority, alternating between Majority and Minority 
Members. You will be recognized for 5 minutes each in order to 
allow us to get as many questions as possible. Please keep your 
microphones muted until you are recognized in order to minimize 
background noise.
    I will begin by recognizing myself for 5 minutes.
    But before I begin, I would like to offer a USDA report, 
Cover Crop Trends, Programs, and Practices in the United 
States, for the record.
    [The report referred to is located on p. 55.]
    The Chair. Mr. Isbell, in addition to reduced soil erosion, 
improved water filtration, and greater weed and pest 
suppression, cover crops provide important environmental 
benefits, including carbon storage. And according to the latest 
report, cover crop adoption increased by approximately 50 
percent from 10.3 million acres in 2012 to 15.4 million acres 
in 2017. While kind of rather modest in terms of national 
cropland acreage, the report does demonstrate that programs 
like CSP and EQIP are helping to drive practice adoption.
    In your opening statements you did talk to some degree 
about the ways that implementation could be improved. You 
talked about some of the programs being too restrictive, the 
value of technical assistance, particularly post-
implementation.
    But, I was wondering if you could speak to the importance 
of these programs, EQIP and CSP, in achieving greater carbon 
sequestration through practices like the use of cover crops 
because, as we here in Congress are debating policies that are 
investing in expanded economic opportunities and combating the 
climate crisis, I want to have a firm understanding of the 
practical impact on growers and producers. If we are thinking 
about potentially making additional investments in these 
voluntary and incentive-based programs while also increasing 
funding for technical assistance, I am curious what your 
thoughts would be in terms of what that would mean for you on 
the ground.
    Mr. Isbell. Thank you. Absolutely.
    So forages and grasslands have the greatest ability to 
sequester carbon in that the carbon is then stored in the soil. 
And so the greatest flexibility to increase carbon 
sequestration is by cycling those forages and grasses via 
grazing, haying, mowing, and so. And that is what we have been 
able to do with our cover crops utilization. And by doing so, 
not only are we sequestering more carbon, but we are also able 
to cycle and retain nutrients, free up nutrients that are 
previously insoluble in the soil, and then also, more 
importantly, build organic matter which increases our water-
holding capacity, thus drought-proofing.
    And so, with utilization of these programs and these 
conservation practices, we have been able to increase our 
financial bottom line, and in that, we are able to produce more 
forages, more crops, despite direct potential drought or lack 
of rainfall, because of the building of that organic matter, in 
addition to capturing the nutrients, which then reduces the 
need for additional fertility application.
    I think that it is important to continue these fundings and 
then also to ensure that the technical assistance is there to 
follow through with the farmers to actually be able to show 
them the long-lasting financial and environmental benefits from 
these programs.
    The Chair. Thank you very much.
    Dr. Paustian, in your testimony, you noted that, while 
payments from our working lands program, like EQIP and CSP, can 
help cover some of the initial costs of embracing some of these 
conservation programs, they don't often cover the full cost of 
the practices experienced by farmers up-front. You also noted 
that, while on-farm benefits like improved soil function and 
yield stability can help pay for these benefits, there are 
still significant barriers in adoption of these practices.
    So, given that, I am curious: What value do you see in 
helping farmers gain access potentially to private carbon 
markets that provide additional revenue streams for growers who 
may choose to adopt these practices?
    Dr. Paustian. Thank you, Chair Spanberger.
    I certainly think there are opportunities, and they are 
growing, for farmers to monetize, if you will, some of the 
ecosystem benefits that they are creating with these practices. 
I mentioned in my opening remarks that a number of industries 
are interested in carbon drawdown, and soil carbon offers a way 
to do that.
    As long as farmers can participate and get a fair return 
and are able to implement the practices that work well on their 
operations, then it is certainly an opportunity that would be 
good to see if it could increase.
    I will mention another thing, and that is that the farmers 
also have potential to get a premium on their products if 
consumers are looking to pay more for low-carbon products that 
are produced in the agriculture space, and we see increasing 
interest in that, and so that is another way in which farmers 
can increase their bottom line to help cover this transition 
period in particular.
    The Chair. Thank you very much, Dr. Paustian.
    Certainly, as consumers learn the benefit of, let's say, 
grass-fed beef, understanding actually the environmental impact 
as well of making food choices along those lines, is important 
and particularly helpful for the producer.
    Continuing on, I now will recognize Ranking Member LaMalfa 
for 5 minutes.
    Mr. LaMalfa. Thank you again, Madam Chair.
    To my neighbor, Mr. Johansson there, California Farm 
Bureau, thank you for your testimony today and for your good 
work.
    Let me jump right into it here. Now the conservation 
programs and the conservation title we have had in the farm 
bills, they are currently oversubscribed. There are more 
farmers applying for them than are really able to utilize it. 
How do you think, if we are moving into new programs, is this 
going to take away from the current ones we have in place with 
EQIP, et cetera? Ought not we prioritize the existing ones that 
are indeed very well-liked and voluntary, is I think a key 
point? What are your thoughts on that?
    Mr. Johansson. Well, the important part of any conservation 
program, coming out of the USDA is also, how does it work with 
state programs as well to further those Federal dollars? We can 
do that at the state level. We have a Healthy Soils Program 
here in California that has been successful, administered by 
the California Department of Food and Agriculture but also 
works well with NRCS conservation practice standards. It also 
is a practice ironically that uses the COMET-Planner, which we 
are discussing here today as well to implement.
    I think it is that we also have programs here in California 
in terms of equipment replacement for more efficient tractors, 
irrigation pumps as well.
    I think it is a good thing that we are over-prescribed. 
But, we have to figure out how we engage the private market as 
well, since there are consumer benefits to this, who can also 
participate, because it is always going to be a level, and that 
is one of the things. We can have these programs for farmers, 
and one of the problems we have here in California is the 
inconsistency of funding. You start a program, and then the 
next year maybe the funding isn't there to do it.
    Mr. LaMalfa. Yes.
    Mr. Johansson. I think it is vitally important that, as 
these programs are over-prescribed, unless we can get more 
funding for it, that we leverage and prioritize with those 
states and those farmers who bring in additional dollars.
    Mr. LaMalfa. Well, that looks like we will either have to 
boost funding on the current programs and discover new funding 
for a new direction or we are going to see these current 
programs perhaps be reduced in order to go in a new direction. 
That is my concern on that.
    Mr. Johansson, also, please we had some very compelling 
testimony by our neighbor, a great guy, Dave Daley in the 
Natural Resources Subcommittee on National Parks, Forests, and 
Public Lands last week on the fire situation over there in east 
Butte County and one that is kind of a microcosm of much fire 
all around the country.
    What do you see we should be doing to further prioritize on 
our forest management, as you mentioned your own area being 
evacuated? And then the litigation that seems to bog down, as I 
kind of alluded to in my opening statement, that bogs down any 
management or salvage operations needing to be done for making 
forests healthy and good carbon grabbers, so to speak.
    Mr. Johansson. Yes, Dr. Daley, a tragic story. I would 
encourage everyone to look him up and his story, the 
generations he spent up there in the Plumas National Forest. 
Now will be probably multiple generations before forests return 
to normal.
    But we are seeing that in California as we saw 4 million 
acres burned in California. Believe it or not, while it is a 
record in the modern time, in the early 1900s, it wasn't 
unusual for 8 million to 9 million acres to burn at a time in 
California. As we say, California is either under water or it 
is on fire. And how do we appropriately deal with these natural 
disasters? And it is about management, and we have great 
resources in California. Whether it is our soils that produce 
for different commodities or our forests that at one time 
really fueled rural California, particularly in the Redwood 
Coast, where I grew up in Humboldt County, working summers at 
the Pacific Lumber Company, but it has changed.
    And with any amount of resources that we have and if we 
define what a resource is, that which is to be used for 
economic gain or in a time of need, that is what we have in 
California, a lot of resources. However, we haven't properly 
managed it. The opposite of what happens with a resource we 
have proven has become a liability. And the same also goes with 
the recent drought declaration so soon after the last emergency 
drought declaration that we had in California.
    How do we manage our water as well? As we know, the 
temperatures are changing. Lake Oroville, head water, state 
water project, is 4 miles as the crow flies from my farm, is 
dependent on snow. And Lake Shasta, which is the Central Valley 
Project, the Federal project, it is dependent on rain for the 
most part. But we know that the snowpack, which this year we 
saw 500,000 extra acres disappear because the snow didn't make 
its way down the mountain. We have to adapt to either expand 
our advantage in those high runoff periods or also important 
part that we are discovering is groundwater recharge.
    We have to manage our resources better and how to return 
funding and profitability to our forests because simply if the 
National Forests aren't being properly managed, as we have seen 
in the private forest, it gets overwhelmed with fuel and great 
destruction happening on private property as well.
    Mr. LaMalfa. Yes, great point on that at the end there with 
people around here don't understand why we have the funds like 
Secure Rural Schools that make up for the forestry that used to 
cause timber receipts to help keep local schools and local 
county roads up. That was the impetus for that. So, without the 
forest industry, instead, we get millions of acres of fire with 
this lack of management. I appreciate that testimony.
    And I will yield back. Thank you, Madam Chair.
    The Chair. Thank you.
    I now recognize the gentlewoman from New Hampshire for 5 
minutes.
    Ms. Kuster. Thank you, Madam Chair.
    I appreciate the opportunity, and I appreciate this 
Committee. It is great to be back on the Agriculture Committee 
and the Conservation and Forestry Subcommittee this Congress.
    I do want to begin by noting the dedication and commitment 
of farmers and foresters in New Hampshire to reducing emissions 
and mitigating climate change on our land. Many have already 
undertaken practices like tillage management, crop rotation, 
and the use of cover crops. Sometimes it is on their own 
initiative, but often it is through participation in the title 
II programs.
    In the Granite State, we are lucky to have an incredible 
team at the USDA Natural Resources Conservation Service, NRCS. 
The staff understand our unique agricultural needs of our 
region and are terrific partners and technical advisors for 
both farmers and foresters. They expertly manage New 
Hampshire's participation in NRCS programs, including enrolling 
over 55,000 acres last year alone.
    While programs like EQIP and CSP are much relied-upon 
staples in the Granite State, NRCS fosters many other climate-
smart practices that support our region. Just last month the 
Merrimack River Watershed Council received nearly $7 million in 
RCPP funding to conserve land, enhance climate resilience, and 
restore wildlife habitats in our watershed. This type of 
public-private partnership is truly a win-win. Critical farm 
and forest lands are safe, while the water supply for cities 
like Nashua are also protected.
    Additionally, NRCS has supported unique projects like the 
construction of a high tunnel at the New Hampshire Technical 
Institute in Concord that was completed just last week. The 
tunnel will allow beginning farmers to field test farming and 
conservation techniques right on campus. And I am always 
excited to hear about these types of projects and look ahead to 
the next farm bill. I am eager to explore how Congress can 
strengthen NRCS' role in combating climate change in the years 
to come.
    On that note, Dr. Paustian, I was very interested in your 
research concerning carbon capture in agricultural soils. And I 
am curious how you see working forests fitting into the broader 
picture. Based on your research or your colleagues', would you 
have recommendations about how NRCS programs can best support 
carbon capture in our working forests?
    Dr. Paustian. Well, thank you, Representative Kuster.
    I think there are several opportunities that are both in 
working forests, as well as in forests in agricultural lands, 
if you will, things like agroforestry, and Ms. Ratcliff 
mentioned silvopasture in her operation, and these kinds of 
systems, as has been pointed out, can both sequester carbon in 
the soil but also in the biomass--in woody biomass, it persists 
for a long time--as well as providing shade and other ecosystem 
benefits and those kind of things. NRCS does have a pretty 
active involvement in agroforestry systems, as they do also in 
working forests.
    I would say, in general, in most--if you think of private 
forest land as forest land, so they are just producing wood or 
wildlife habitat, these sorts of things, probably the key 
quantity for carbon sequestration is still in the biomass 
carbon, and most of the work involved in how do we manage the 
vegetation to optimize forest health, as well as carbon 
sequestration, really focuses primarily on the biomass.
    But certainly, there are, in instances like afforestation 
or reforestation and to the extent that NRCS provides advice on 
that, then there are soil carbon benefits that also accrue with 
reestablishing forests on, for example, degraded lands or other 
things like that.
    Ms. Kuster. Good. Thank you.
    Just quickly, Mr. Isbell, I am glad to hear of your work 
that you are doing. I appreciate your collaboration with groups 
like 4-H. Briefly, could you tell us more about encouraging 
farmers, including young and beginning farmers, to adopt good 
conservation practices?
    And I apologize. My time is almost up.
    Mr. Isbell. Thank you, Representative Kuster.
    We do a lot of outreach, and I think that within the 
farming community, farmers are rather slow to adopt new 
practices, and so that is why the importance of having field 
days, outreach to neighboring farmers is the greatest 
opportunity to actually show financial and physical benefits 
from these conservation practices and which then we have seen 
our neighboring farms and farmers who have attended our events 
to start to implement some of these conservation practices 
because of being able to see and talk to somebody who has been 
doing it and realizing those benefits.
    Ms. Kuster. Great. Well, thank you so much.
    And, with that, I yield back.
    The Chair. Thank you.
    I now recognize the gentleman from Georgia for 5 minutes, 
Mr. Allen.
    Mr. Allen. Thank you, Madam Chair.
    And thank you to our witnesses for being here today. To all 
of our witnesses, I would like to say thank you for offering 
your time and expertise, particularly those of you that are our 
farmers and ranchers because I know this is a busy time of 
year.
    Climate change is clearly the topic of this Congress. We 
have already had innumerable briefings, Member meetings, 
hearings, and proposed legislation over the past year or so to 
address it.
    However, when I am in the district, this is not an issue 
that I hear frequently about. As a matter of fact, it wouldn't 
even make the top ten. What my constituents are more concerned 
about, particularly in agriculture, is labor.
    I have spent the last several weeks in the district, 
meeting and communicating with constituents. And I will tell 
you: they have a lot of concerns. In fact, right now, I 
understand in Atlanta, Georgia, there is no gas, already lines. 
You know, there are pipelines down. We have a war on fossil 
fuels, and it is chaos everywhere, the border, major cities, a 
lot of things that we need to be addressing, but certainly none 
more important than agriculture because if certain people get 
control of this country, I believe climate change is going to 
exceed starvation.
    And that is what we are talking about here is the food 
needs of the country. In fact, there are many leaders, one 
business leader, in particular, said that we need to go to 
synthetic beef, and so I don't know where all this is coming 
from, but, obviously, it affects many of our witnesses here 
right now.
    The other thing is skyrocketing lumber prices. This is the 
Subcommittee on Forestry. And, it is adding $35,000 to the cost 
of an average home in my district. Obviously, gasoline is up. 
Food prices are skyrocketing. Folks, we need to get to work on 
these issues that are affecting the American people. And we got 
to do it quick.
    The best conservationists in the world are our farmers, and 
what we have done from a technological standpoint is amazing, 
and certainly we want this Congress to help with these 
conservation issues. But, at the same time, it does not need to 
be top-down, one-size-fits-all by a bunch of intellectuals in 
Washington, D.C. It needs to be bottom-up, as the testimony 
from Ms. Ratcliff, on how--the practices she has put into 
place, which I was very impressed with, to be successful and to 
sell some of the finest beef, I would propose, in this country.
    As far as the academic study called, World Market 
Conditions Suggest Set-Asides Not an Effective Farm Policy for 
Corn and Soybeans,* argues that set-aside programs are not an 
effective farm policy because it sends a market signal to our 
competitors to plant more.
---------------------------------------------------------------------------
    * Editor's note: the farmdoc Daily article is available at: https:/
/farmdocdaily.illinois.edu/2020/07/world-market-conditions-suggest-set-
asides-not-an-effective-farm-policy-for-corn-and-soybeans.html.
---------------------------------------------------------------------------
    Mr. Allen. Dr. Paustian, how concerned are you that by 
idling tens of millions of acres in the U.S. we could very 
likely be exacerbating greenhouse gas emissions as our 
competitors respond to take the U.S. market share here?
    Dr. Paustian. Well, thank you, Representative Allen, for 
that question. I am not an ag economist, but I have studied the 
question some. My understanding is that the things like the 
Conservation Reserve Program as currently configured is not 
leading to markedly increased commodity prices that would be a 
driver then of, say, agriculture expansion on forest lands in 
the tropic or something like that. That is certainly my 
understanding.
    Another thing I would point out about some interesting 
research going on now is also looking at our--even some of our 
most productive lands in the Midwest, for example, have areas 
within the field that are actually unprofitable. And so, as 
farmers add seed and fertilizer, they actually, if you look at 
it in a detailed view of the field, they are, in fact, losing 
money year-in and year-out on particular areas within the 
fields.
    As we get these kinds of understandings of maximizing 
profitability and how farmers utilize the land, things like, 
for example, putting in perennial grasses and buffer strips 
within areas of the field that are not productive can actually 
maintain production but also improve the bottom line for 
farmers.
    We have the opportunity to look at a more nuanced way of 
going forward with some of the technologies we have now to 
obviously keep our agriculture production at the highest level 
in terms of quality products and enhancing farmers' income but 
also maintaining, yes, protection for sensitive lands or lands 
that are not necessarily well suited for production.
    Mr. Allen. Thank you, sir.
    And, unfortunately, I am out of time. Madam Chair, I 
apologize.
    And I yield back.
    The Chair. I now recognize the gentlewoman from Washington 
for 5 minutes.
    Ms. Schrier. Thank you, Madam Chair. And thank you for 
convening this hearing.
    Thank you to our witnesses. First, just some comments. I 
would like to speak about an issue of critical importance in 
Washington State, which is the status of the State Acres for 
Wildlife Enhancement, or the SAFE Initiative.
    In Washington State, these state acres are particularly 
critical for two native birds. Sage grouse are currently state 
listed as threatened, and sharp-tailed grouse are state listed 
as endangered, and their population estimates in 2019 were only 
677 and 834 individuals, respectively. Most of the habitat 
remaining to support prairie grouse in Washington State is on 
private lands. And the Conservation Reserve Program, CRP, and 
SAFE, in particular, is really one of the only programs 
available to conserve this habitat and these acres at 
meaningful scale.
    Now, there is a cap on the number of acres of 
environmentally sensitive land that the CRP program will pay 
landowners to farm or not to farm per county and the SAFE acres 
used to be eligible for a waiver to exempt them from those 
acres, but because of provisions in the 2018 Farm Bill that is 
no longer the case. Limiting the acreage that CRP will support 
by including SAFE lands in that overall number will remove 
financial incentives for farmers to conserve that land and will 
have a devastating effect, not just on soil and water but also 
on these wildlife resources, like the threatened sage grouse 
and the sharp-tailed grouse on private lands.
    So should those SAFE acres remain ineligible for exemption, 
sage and sharp-tailed grouse conservation efforts could falter 
as nearly 50,000 acres of CRP land expire and this could leave 
our farmers subject to violations further endangering these 
birds. I wanted to ask about reinstating these waivers. I will 
be sending a letter to FSA Administrator Ducheneaux asking 
about the best way to re-establish this waiver process and I 
wanted to bring this to your attention.
    Now, I also want to touch on other conservation programs, 
including the EQIP program, which provides financial and 
technical assistance to agricultural producers looking to 
conserve natural resources on their farms and ranches. And 
through EQIP, the Federal Government provides producers the 
financial resources and the one-on-one help to plan and 
implement conservation practices that can lead to cleaner water 
and air, healthier soil, and more resilient crops all while 
improving agricultural productivity, as we have heard about 
already.
    EQIP worked so well for the farmers and producers in my 
district that I have recently heard of some concerns, concerns 
specifically about the reimbursement rates that NRCS uses being 
out of date and not really reflecting the true cost of the 
practices being implemented. This is especially true in urban 
or semi-urban areas where the costs are so much higher.
    So, for example, an EQIP supported irrigation efficiency 
project in Pierce County, NRCS's reimbursement rate came back 
at only 31 percent of the total cost forcing the local 
conservation district to pony up $89,000 to cover the 
shortfall.
    I have a question for Mr. Johansson. You talked about the 
EQIP program and its importance in California. Have you come 
across similar issues with reimbursement rates in the farm 
bill's conservation programs? And given this, how can we better 
incentivize climate-smart ag practices?
    Mr. Johansson. Well, certainly, like I mentioned in my 
opening statement, it is the most popular program in 
California, EQIP. Currently, I believe we have 1,400 different 
EQIP projects covering about 400,000 acres. The reimbursement 
rates are going to be, are always a question in terms of it 
makes sense and it depends on what the time is. And right now, 
any type of irrigation adjustment--if you are going out trying 
to source any sort of irrigation, it just simply isn't there.
    I think Representative Allen had mentioned that we are in a 
scarcity time for whatever reason when it comes to either 
timber or also steel. Yes, certainly that has to be taken into 
account, and that is something that, in California where it is 
extremely expensive to do business, as it turns out most 
probably like Washington, too, those rates, there can be an 
inequity in terms of the reimbursement rates.
    Ms. Schrier. Thank you. I yield back the remainder of my 
time. I appreciate it.
    The Chair. I now recognize the gentlewoman from Illinois 
for 5 minutes.
    Mrs. Miller. Good afternoon. It is great to be on here. I 
am a farmer and we implement these practices on our farm, all 
of them, and we have had great success, but I do have a 
question for Mr. Johansson. We have observed two issues, and I 
was wondering if you have any ideas/solutions for this. One is 
that the other--so we are in the minority of using these 
practices--cover crops, crop rotation, no-till rotation, and 
all that, but other farmers will tell us that they want to 
implement these, but they sharecrop or they are cash renting 
their land, and the owners are not open to these conservation 
practices.
    And where we are, our big issue is soil erosion because of 
very flat land. It is the best soil in the world, and our 
topsoil is running down to the Gulf. If we could just do cover 
crops and reduced-tillage, that would be fantastic.
    So does anybody or do you have ideas of how to motivate the 
landowners to want to get on board with these practices?
    Mr. Johansson. And that is a difficult part in terms of the 
long-term investments, a lot of these programs are, especially 
with rented land. And, are landowners willing to sign those 
long-term leases? Putting in fence that can last up to, for a 
good organic grazing kind of methods, is a 10, 15 year 
investment. I think that there could be a part of it, in terms 
of landowners, outreach to them. They are probably, maybe a 
generation removed. A lot of times in California, the land that 
is being rented, the owner actually lives maybe in San 
Francisco or Los Angeles. I haven't really thought about how we 
engage the landowner, but certainly, I mean, it is an education 
part of it. But I would think that most landowners I know, as a 
first-generation farmer, the first time I tried to go rent 
land, I lost to the guy who had been farming for 40 years 
because the landowner was more assured that he knew the 
practices that would keep that land productive and keep it 
going.
    I think there could be part of the outreach that would have 
to get in to, and we certainly do at Farm Bureau in terms of 
outreaching to the urban communities of what we are already 
doing on our farms to adapt smart agricultural climate 
practices.
    Mrs. Miller. And I have one other question. Another thing 
we have observed is--so I have seven children, and several of 
them have gone to universities, and some have gone to the local 
community colleges, and some have majored in ag production. And 
our observation is that the community colleges seem to be 
slower about teaching these conservation practices than the 
universities. And I was wondering if you had any ideas for 
solutions on that end?
    Mr. Johansson. No. I appreciate you bringing that up 
because one of the things--I see Professor Paustian is on here 
as well, and he would confer that one thing I probably didn't 
put into my opening statement, but is in the written statement, 
is the necessary--is the need to fund education. And, in 
agriculture, that has been our extension advisors, our 
extension offices, our UC extension offices will be critically 
important and critically important parts of climate-smart 
agriculture. And it has been a funding--a difficulty of 
funding--funding has been cut in California, but they are 
critical.
    UC Davis is our major research university coming up with 
great programs, but I farm up in Oroville, Chico State, in that 
area, Butte County, hour north of Sacramento, a different place 
to farm, a different climate than say farming in the Salinas 
Valley or farming down in Kern County. It is important that we 
have--while we invest in our universities and the agricultural 
research, we can't forget that, at some point, it has to get 
down to the lower level, whether that is community college or 
state schools like at Chico State (CSU, Chico), which has a 
demonstration farm which is tasked with, how do we apply these 
technologies at the local level that serves local farmers. And 
certainly as is right now I am sure in community college in 
California, with the type of budget cuts at one point we 
thought we were facing--of course now the Governor's announcing 
a huge surplus so hopefully that trickles down to more 
investment in our research, a lot of the first programs they 
cut is in the agricultural program because it is equipment- or 
property-intensive cost to do those programs, but you bring up 
a great point.
    It does come to having enough funding to engage both at our 
community college/state schools but also a cooperative 
extension, who is a trusted entity for farmers.
    Mrs. Miller. Well, if I may add, I believe it is 
information more than the funding that is my opinion. But any 
way, thank you so much.
    And I yield back.
    The Chair. I now recognize the gentleman from California, 
Mr. Panetta, for 5 minutes.
    Mr. Panetta. Thank you, Madam Chair. Speaking of the 
Salinas Valley--no. I am kidding.
    Thank you, President Johansson, for mentioning the salad 
bowl of the world in your answers, which obviously I am going 
to go into where I come from on the Central Coast of 
California. Like many of my colleagues, I was in the district 
for the past 2 weeks and having a good opportunity to speak 
with and have sit downs with farmers, ranchers, and forest 
landowners. And as you can imagine, the topics that are coming 
up labor, as labor always does, as Mr. Allen mentioned from 
Georgia, but in California, obviously, that is a big issue. But 
then, of course, water and wildfire, what is going on in our 
state and what we have been and will continue to deal with when 
it comes to our drought and then our wildfire season as well.
    As many of you know, our Governor expanded the state's 
drought emergency proclamation to include 41 counties, 
including San Benito County in my district, and that means that 
basically 30 percent of California's population is now living 
in a drought state of emergency. At the same time, many of 
these places are still recovering from the historic 2020 
wildfire season. In my district alone, we endured wildfires in 
or around my district that affected 650,000 acres that were 
actually burned, unfortunately. And then we had to go through 
the post-wildfire effects dealing with the flooding and burn 
scars as well. And, we can all probably acknowledge that 
climate change is at the root of these crises, and that is why 
this hearing is so important today.
    I thank you, Madam Chair, for holding it. As we look to 
reassess and build on our Federal conservation programs, I do 
believe that we have to ensure that farmers, ranchers, and 
foresters have a seat at the table in these types of 
discussions, first of all. Second of all, they have to have the 
ability to access and fully leverage these programs to save 
water, reduce wildfire risk, and to ultimately invest in the 
long-term health of their lands.
    Now, Dr. Paustian, in California, you are probably familiar 
with the USDA's Natural Resources Conservation Service, the 
NRCS, that has been helping producers employ irrigation water 
management techniques, including irrigation scheduling.
    Can you elaborate in ways that those types of Federal 
programs can better help producers who are seeking to conserve 
water, and what are some of the co-benefits of these types of 
water-saving practices that they employ?
    Dr. Paustian. Thank you, Representative Panetta, and you 
make a really great point. And that is there is a lot of 
synergism between things like water management, drought, soil 
carbon, greenhouse gas emissions, nutrient management. And we 
are working a lot with NRCS in California but also with the 
California Department of Food and Ag, and we have actually been 
working with them recently on developing a new online tool 
called the SWEEP (State Water Efficiency Enhancement Program) 
tool, which looks at the co-benefits of water savings from 
improved irrigation management systems on things like water 
savings but also greenhouse gas emissions.
    There is a lot of room for, yes, for improving programs 
that support conservation practices that are, if you will, 
holistic, that look at the multiple benefits of not only carbon 
storage, greenhouse gas, but water use efficiency and nutrient 
use efficiency and things of this nature. It is really key that 
we take that approach, and, fortunately, I would say that the 
conservation practices that NRCS has defined and which are 
supported by these different programs, one of the real virtues 
of them is they have these multiple benefits. They are, in 
general, they help the health and productivity of the systems, 
and so there is not so often that you have major tradeoffs: Oh, 
I want to save water; oh, that is going to hurt my carbon.
    It tends to be synergistic.
    Mr. Panetta. Okay. And I appreciate that, and I agree. And, 
look, I just want to follow up real quickly on Mrs. Miller's 
line of questioning of how we get the benefits of no-till 
farming and cover cropping, but, man, in my district, we have 
specialty crops, and we don't have the water resources 
necessary to do that.
    Can you assure us that the Federal conservation programs 
can better take into consideration these realities of the 
different crops throughout our nation?
    Dr. Paustian. Well, I can't really speak for USDA, but 
certainly from the scientific standpoint, we understand that 
there is not a single solution that works everywhere, right? We 
have to have not only programs, but also the scientific 
knowledge that is granular, that looks at the particular 
circumstances in a particular area, particular soil type, 
climate growing system. I think we can do that, and I think 
that needs to be, perhaps, emphasized more in policy, but I 
believe it is to a large extent.
    Thanks.
    Mr. Panetta. Great. Thank you, Dr. Paustian.
    Thank you, Madam Chair.
    I yield back.
    The Chair. The chair now recognizes the gentleman from 
South Dakota, Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you very much, Madam Chair. I appreciate 
it. I agree with so much of what my colleagues have said today 
and, of course, that is what I hear from a lot of farmers and 
ranchers. And really any time I am talking to South Dakotans 
who work in production ag, they emphasize time and time, again, 
to me two things: First, farmers and ranchers really are a part 
of the climate solution, and they have contributed so much to 
the progress we have already made as a country, and they have 
pride behind that. And then, second, the rural economies really 
do need production agriculture, and, frankly, the world needs 
American production agriculture if we are going to continue to 
feed the world.
    And so, with those things in mind, I would like each of the 
panelists, and we will just go in the witness list order, so 
Isbell, Ratcliff, Paustian, and Johansson, I have concerns, I 
have serious concerns, and I know many of my producers have 
concerns, when they hear about 30 by 30. And I know it is more 
of a concept right now than a plan. I mean, details are pretty 
light, but when we hear about setting aside and conserving at 
least 30 percent of the American land mass by 2030, I think 
that causes them concern about what does that mean for American 
competitiveness, what does that mean for a push to feed the 
world, and what does that mean with regard to environmental 
stewardship?
    So could each of you comment about how you would prioritize 
these efforts with regard to whether or not we should be idling 
lands or whether or not we should be focusing on working lands 
conservation?
    And, again, we will start with Mr. Isbell. And if you could 
each keep your answers to between 40 and 60 seconds, I think 
that would be fair to the other witnesses. I want to make sure 
they have time to respond as well.
    Mr. Isbell. Thank you for that. I will take an approach to 
it. So, for me, the concept of feeding the world and 
conservation are not exclusive. They can be synergistic. New 
challenges require new approaches. Setting aside 30 percent of 
our land mass and not allowing it for food production is not 
contributing towards our goal of American competitiveness and 
feeding the world, but we have to look at the way CRP is 
implemented, and we have ways to be able to set aside land from 
tillable agriculture but be able to still produce food in a 
regenerative way, sequester carbon, but also keep the American 
edge and provide financial stability for farmers.
    Mr. Johnson. Is it fair to say, Mr. Isbell, you wouldn't 
want us to overly prioritize idling land over working 
conservation? There is a role for both and an important role 
for working lands conservation. Is that right?
    Mr. Isbell. Absolutely. Working lands conservation should 
be the number one priority.
    Mr. Johnson. Very good. Thank you, sir.
    Ms. Ratcliff.
    Ms. Ratcliff. And I am in agreement with him. I think my 
main comment would be is, what is the goal of the 30 by 30? And 
is the goal actually accomplished by the producer? Is the goal 
actually going to hit the ground? Is the goal actually 
something that is ultimately going to affect the producers? 
Because a lot of times, these programs are implemented without 
even coming down to people who are producers and asking our 
input in them. We have to have a seat at the table when it 
comes to programs that are initially coming out, so we can put 
our input in and allow us to be profitable and allow us to have 
some kind of success story when it comes out. I don't know if 
the 30 by 30 will actually provide that.
    Mr. Johnson. Oh, Ms. Ratcliff, that is very well said, 
ma'am. Thank you.
    Dr. Paustian.
    Dr. Paustian. Thanks for the question. I would echo what 
Mr. Isbell said that there is not a conflict between, yes, best 
regenerative practices on our working lands, and if there are 
some lands that are not as well suited for production 
agriculture, that there is this role for some set aside there, 
but I don't believe the conflict. I think they go together. You 
know, 30 by 30 is looking at focusing on biodiversity, it is 
looking at all land covers, and certainly we have deserts and 
forests and other things where there is a lot of biodiversity. 
Our working lands can, they can supplement that pollinator 
habitat, for example, in some of the systems that Mr. Isbell 
and Ms. Ratcliff manage, I am sure is an important attribute of 
those as well. So that it contributes to the overall goal of 
biodiversity maintenance.
    Mr. Johnson. Dr. Paustian, I have to cut you off to be fair 
to Mr. Johansson.
    Mr. Johansson, any final comments.
    Mr. Johansson. I agree with my fellow farmers here on the 
panel. Focus on working lands, of course, in California, we 
have already embarked on this with the Governor's executive 
order, I believe, last January for a 30 by 30 by 2030. We have 
already engaged in roundtables. And, as we remind the Governor, 
working lands only work when people are allowed to work them. 
And if you look at California, which is already at 49 percent 
public land, both state and federally owned, we can meet that 
number because farmers at heart are conservationists, and we 
know that if we look at some of the state programs we have 
implemented, depending how you look at it, we are already at 
around 23 to being over 30 percent already working lands 
conservation.
    Mr. Johnson. Thank you, sir.
    Madam Chair, thanks for your indulgence.
    And I yield back.
    The Chair. I now recognize the gentlewoman from Maine, Ms. 
Pingree, for 5 minutes.
    Ms. Pingree. Thank you so much, Madam Chair. And thank you 
for hosting this hearing. I apologize to some of our 
presenters. I had to go off to a different agricultural hearing 
for a little while, and if I am repeating a question, I also 
apologize, but I did appreciate the testimony that I heard.
    And, Ms. Ratcliff, you really made a very important point 
about the barriers to participation for smaller operations and 
minority farmers. Some of the NRCS conservation programs have 
set-asides or advanced payment options for historically 
underserved producers, but it seems like the barriers are still 
too high for many farmers.
    So what recommendations would you make to increase 
awareness of access to NRCS resources for smaller farms and 
farmers of color?
    Ms. Ratcliff. Thank you for that question. I think the 
number one issue is I don't know if they are really coming to 
smaller producers and looking at our goals. The goal that 
necessarily NRCS wants and the goal that is actually hitting 
the ground might be a little bit of disconnect. The number one 
thing needs to be outreached and figure out what the small 
producer's goals are and then from there try to move it up. 
Because a lot of times it is coming down instead of moving up. 
And it is prohibiting us because we do have some barriers. Our 
barriers might be because we don't have the cost to actually 
implement these programs. We need some cost assistance to help 
implement those programs. We might not even have the resources 
to implement the program, and we might not have the capacity to 
aptly implement these programs.
    So my first thing is that we need to sit at the table. We 
need to make sure that these small producers are sitting at the 
table to help make these decisions and help make these 
decisions that are good for our operation because a lot of 
times you come to us and say you must implement these, which we 
might not have the capacity to implement.
    So, please, we need a foot at the table.
    Ms. Pingree. Thank you. I think that is a really important 
point, and I would certainly hope that new USDA understands the 
importance of having small farmers, farmers of color at the 
table, but also to change the way the systems work so we are 
asking the questions, not just deciding how the system should 
work.
    Dr. Paustian, I want to talk a little bit about COMET-Farm. 
We often hear that climate change solutions can't be one-size-
fits-all, and we certainly know that agriculture doesn't look 
the same in every part of the country. I represent Maine, and 
our farmers certainly have different climate-related challenges 
and opportunities to reduce emissions and sequester carbon than 
someone would in the Midwest or California.
    So could you talk a little bit about the accuracy of COMET-
Farm and accounting for carbon sequestration and greenhouse gas 
emissions across different types of operations? Yes, that would 
be helpful to know.
    Dr. Paustian. Thank you for that question. Probably one of 
the advantages of COMET-Farm is it is really a platform that 
includes quite detailed data on things like weather and soil 
types that are down to the field and subfield scale, so you are 
capturing some of the differences, obviously, as you go across 
the landscape and certainly from region to region.
    The other attribute is that it uses a dynamic model that 
integrates things like soil moisture and temperature and the 
conditions that determine the agricultural system's 
performance. In a sense, it is quite good at capturing these 
local capabilities. Our basis for how good the model is, is 
really based to a large extent on our fundamental 
understanding, but also on field experiments that are out 
across the nation. And, we utilize sort of all the data that we 
can from field experiments that have looked at measuring carbon 
changes over several decades even in different practices.
    So we try to integrate all that in there. I do think there 
are some improvements that could be made that I mentioned in my 
opening remarks, including development of an on-farm monitoring 
system attached to the national resource inventory system. 
Thanks.
    Ms. Pingree. Yes. And thank you for that. I did see those 
recommendations in your testimony, and it is critically 
important that we make this a reliable tool and a dependable 
and credible measurement system. It is important to look at 
your recommendations, and I have the good fortune of sitting on 
the Agriculture Appropriations Subcommittee. I will certainly 
make that a priority to support the system.
    With that, I yield back, Madam Chair, and thank you, again, 
for having this hearing.
    The Chair. I now recognize the gentleman from Alabama, Mr. 
Moore, for 5 minutes.
    Impeccable timing, Mr. Moore.
    Mr. Moore. Thank you, Madam Chair, and I have a couple of 
other committee meetings going on as well. This is for Dr. 
Paustian. I thank you all for appearing today. [inaudible] 
Leading conservation efforts, often through partnerships with 
land-grant universities, such as Auburn University, where I 
graduated, Tuskegee University and Alabama A&M. Would you be 
willing to go into more detail regarding state programs and 
land-grant universities support producers in improving soil and 
water health and incorporating technology such as precision 
agriculture?
    Dr. Paustian. Now thanks for that question. And, as a 
number of the other panelists had mentioned before, this 
outreach to producers is critically important. We have more 
that we can do from the university side, bringing this 
information out to farmers. We are actually working with NRCS, 
as well as some NGOs, including the Carbon Cycle Institute and 
Mad Agriculture [inaudible] And other universities in 
developing a curriculum for carbon farm planning that we hope 
to be launching soon and working with NRCS so that their 
technical service providers can go out and help to provide more 
information about how these new practices work and how they can 
best be implemented for the particular areas that farmers are 
in because, as we mentioned before, kind of the site-specific 
context, things in Alabama are very different than they are in 
Minnesota or Maine or other places. We really need to have that 
granularity. And, both the ag college folks as well as NRCS 
have a key role to play there.
    Mr. Moore. [Inaudible.]
    The Chair. Mr. Moore, it appears you have a challenged 
connection. We are having trouble hearing you.
    Mr. Moore. [Inaudible.]
    The Chair. Mr. Moore, the connection that you have is--Mr. 
Moore, we are having trouble understanding your question with 
your connection.
    Mr. Moore. [inaudible.]
    The Chair. Mr. Moore, we have a connection that is not 
working with you. We are going to continue on----
    Mr. Moore. [inaudible.]
    The Chair. Mr. Moore, if you can hear me, we are having 
trouble hearing you. The connection is quite bad. It appears to 
be the case for everyone else. We are going to continue on with 
Mr. Costa's question and come back to you, Mr. Moore, if we get 
the connection rectified. Thank you.
    The chair now recognizes Mr. Costa for 5 minutes. And Mr. 
Moore, we are going to try and get your connection clearer, and 
we will come back to you. Thank you so much.
    Mr. Costa. Thank you, Madam Chair, for the Subcommittee 
hearing. This is an important hearing that the Subcommittee is 
holding looking at title II and exploring smart climate change 
practices because I believe American agriculture can play and 
is playing an important role in reducing our carbon footprint, 
as well as wastewater waste streams.
    I want to underline a comment that our colleague 
Congressman Panetta talked about that really many of you have 
spoken to and that is one size doesn't fit all in terms of 
regional challenges that we face as it relates to our carbon 
footprint and how we can make efforts. And I am glad that, Dr. 
Paustian, you indicated that cover crops may have good 
applications in some areas, but certainly where you have 
drought conditions in the West, especially in California, as we 
are experiencing extreme drought conditions, cover crop is just 
not going to work.
    Kimberly Ratcliff, you talked about some of the issues that 
was raised with my previous colleague about programs for small 
farmers, minority farmers, and my experience over the years has 
been that NRCS and Farm Service Administration, frankly, don't 
have the capability to reach out to small farmers.
    In my area, especially, we have cultural and language 
barriers that exist. Would you agree that we need to do a 
better job--and I have said that to the current Secretary of 
Agriculture--in making these efforts with the USDA more user-
friendly?
    Ms. Ratcliff. I would absolutely agree. One of the major 
issues is the locations of a lot of the USDA office. They are 
so distant from a lot of producers that it is pretty much hard 
to participate in the program. If you have to drive an hour and 
a half just to see someone within the USDA office, it is going 
to be hard for someone to get off a ranch or a farm that are 
out there every day to go visit a USDA office. So many USDA 
offices were shut down. So that is one thing. We need to open 
up all these USDA offices back up in regions that will assist 
more producers.
    The other thing that is key that can actually help USDA is 
partnerships. I am going to go back to 100 Ranchers. We have 
private university partnership and USDA partnership. All of us 
help get out the USDA requirements. All of us help fill out 
documentations for producers. If there are more ways for us to 
partner with private institutions, I think that will be a 
tremendous help.
    Mr. Costa. And I would agree with you. My time is expiring, 
but the public-private partnerships are essential, as well as 
with our colleges and universities, land-grant universities, 
and I am attempting in California to do just that.
    Jamie Johnson--Johansson, I am sorry, my friend. You are 
doing a terrific job as the President of California Farm 
Bureau, your leadership nationwide. I have limited time, but 
you talked about the importance of title II programs, EQIP. I 
think we are going to get broadband expanded nationwide. It is 
one of the good things to come out of this horrific pandemic, 
but I would like you to talk about the efforts that we have had 
in California in terms of Federal conservation programs to 
complement California's efforts. Do they work together? Do we 
need to make changes as we work on additional strategies to 
help farmers implement climate-smart practices?
    Mr. Johansson. Yes. It is fairly--I had mentioned that EQIP 
does work or our Healthy Soils Program does work well with the 
EQIP. It is a potential there. The other big program we have, 
and I know important in the Valley as well, is the FARMER 
Program, which is the Funding Agricultural Replacement Measures 
for Emission Reductions program. That is to replace tractors, 
and so cleaner, more efficient tractors, cleaner engines, 
cleaning burning engines. It has been a struggle to maintain 
that funding. Certainly, there could be greater interaction on 
the Federal level along with that program.
    Another important program, and Dr. Paustian had mentioned, 
it was our SWEEP Program, the State Water Efficiency and 
Enhancement Program, that we have going on in California that 
has been successful in conserving around 130,000 acres now 
annually as we bring in water efficiencies.
    If we can use these state programs and the Federal program 
just to build on each other and expand, there is a lot of 
opportunities out there.
    Mr. Costa. My time is expiring, Jamie, but you are doing a 
terrific job, but on the soliciting solutions, I have worked 
with Karen Ross, our Ag Secretary in California, about the 
reviews that they have done to assess California's success. I 
want to talk to you further about how we implement that in 
terms of a nationwide effort and your thoughts and ideas. I 
don't know if you care to comment or if we have any--I have no 
time left, but it is an important effort.
    Mr. Johansson. Always happy to visit, Congressman. And all 
too often, it feels like California kind of we have been down 
this road before. I am happy to share our experiences, whether 
that is a success or even just the burden of new programs 
sometimes.
    As farmers, we get a lot of programs that start out as 
carrots and can end up as a stick down the road. And we have to 
remember that, like the climate, it can change and so can 
conditions on the farm in terms of what works and what doesn't 
work based on that condition.
    Mr. Costa. Long-term funding commitments are critical.
    Mr. Johansson. Absolutely.
    Mr. Costa. Thank you. Thank you, Madam Chair, for allowing 
me to sit in on your Subcommittee. Let's keep up the good work 
and work together. You are doing a great job.
    The Chair. Thank you very much.
    And to the witnesses, we have heard from Mr. Moore's office 
that he will not be coming back to ask a question, but the 
Committee invites him to submit any additional questions in 
written form, moving forward.
    This concludes the first round of questions. The Ranking 
Member and I would like to do an additional round for anyone 
who might have any additional questions.
    And so I will begin. Very briefly, Mr. Isbell, I would like 
to ask you a pretty straightforward, simple question. We have 
gone into depth in your written testimony and in your spoken 
testimony as well about the benefits of the different practices 
and programs that you make use of on your farm, but if you 
could just tell us a little bit for anybody who might be 
watching this hearing and not with an agricultural background, 
not someone who is really focused on these topics, what 
compelled you to utilize these practices on your farm, and what 
does that look like from a day-to-day perspective, and why do 
you keep doing it?
    Could you explain kind of more in layman's terms some of 
the real benefits of the practices that you utilize on your 
farm?
    Thank you.
    Mr. Isbell. Thank you, Madam Chair.
    So, for me, when we were growing and developing our farming 
operation and me being the third generation and my kids 
hopefully becoming the fourth, for us, it is looking about 
sustainability. And a lot of people throw around the term 
sustainability, but it is not just about conservation, 
environmental sustainability, but also financial stability and 
sustainability. And so, by utilizing these practices, we were 
turned on to them through a lot of research, talking to folks 
who have implemented the practices and the benefits that they 
have seen from that implementation, and that is what led us 
down that direction.
    So, instead of continuing a traditional sense of cropping 
and livestock raising, we wanted to see--we could see things 
changing within the environment, within the marketplace and 
wanting to adapt and knowing that the practices of the last 50 
years are not going to get us to the next 50 years.
    And so, looking at those and how they would incorporate. 
And so really we have seen a reduction in our manpower that is 
needed to accomplish the same goal. We have increased our soil 
organic matter, which holds more water, which helps prevent us 
from seeing the effects of the droughts that we are seeing. We 
are seeing greater soil biology. That biology then gives us 
fertility, which allows the plants to grow at a better rate 
without us having to purchase/implement a nutrition program. We 
are able to recycle nutrients by incorporating our livestock 
into our cover crops and our crop rotations. So it is really a 
synergistic effect. It is not a one-size-fits-all, but it is 
definitely an approach that, with adaptation, can be 
implemented across the states.
    Of course, with each environment, there are different needs 
and conditions that dictate different implementation, but it is 
certainly utilizing a land stacking enterprising operation, 
allows for both conservation, food production, and economic 
stability for us.
    The Chair. Thank you very much for that answer.
    And if I could get you, again, for anyone who may not be 
focused on these issues, the use of cover crops and the use of 
rotational grazing in pretty basic straightforward terms, what 
does that actually mean, the use of cover crops?
    Mr. Isbell. Yes, for us, typically, a grain operation would 
plant a harvestable crop, say, corn, and then they may leave it 
fallow or empty and not plant anything else until the following 
year when they would plant, say, soybeans or sometimes, in 
Virginia, we have a typical three crop rotation where it is 
corn, soybeans, and wheat in succession. If you leave the land 
fallow in between with nothing growing on it, the cover crop 
then takes that place. It allows for you to grow a crop that 
you are not going to harvest, which captures nutrients to keep 
them from running off in the off-season. It reduces erosion.
    And in turn, when we roll down the cover crop or terminate 
it mechanically, so what we are doing at that point is we are--
and the whole time that cover crop is growing, we are 
sequestering carbon. The plant that is growing, is pulling 
carbon, pulling it into its roots. Then, when the plant dies 
off, we are now adding carbon to the soil, which feeds the 
biology of the soil. We are capturing nutrients, feeding the 
soil, growing organic matter, and all this in a time in which 
the average producer would not have anything growing in the 
field.
    It costs us money up-front, and most farmers, well, why 
would I spend the money to put in the crop that I am not going 
to gain anything out of? You see it leave your bank account, 
but don't see anything come in return. But it requires--to 
convey to farmers that really what I see when I am investing in 
a cover crop is I am putting money in the bank for the future. 
By building that organic matter and soil health, I am putting 
money in the bank that I will be able to utilize later by 
having my successive cash crop after the cover crop usage.
    And, in turn, with our livestock operation, we are also 
able to utilize the livestock on those cover crops, 
periodically grazing them, stimulating vegetative growth, and 
furthering our sequestering of carbon and building of soil 
biology.
    The Chair. Thank you, Mr. Isbell.
    I appreciate you indulging me in that question. Living in 
the county just next door to where you are and representing a 
district that is suburban and rural in agriculture, it is so 
important that those who may not have an agricultural 
background really understand the benefits and the choices that 
you all are making on your land.
    And so I am grateful that you took the time to make that 
explanation. Hopefully, it will make clear why these programs 
are so important, and so I thank you for that.
    And I now yield to the Ranking Member for a second round of 
questions.
    Mr. LaMalfa. Thank you, again, Madam Chair. I will probably 
go mostly with Dr. Paustian on this. I want to get into maybe a 
little technical on no-till and on sequestration. This isn't 
some political rhetorical question here. I am a farmer in my 
real life myself, and so we farm rice. We farm it in a certain 
way that has been successful for many, many years. And so we 
don't generally engage in the cover crop kind of thing because 
we don't really have the luxury of time and certainly, this 
year in California, we don't have the luxury of water to do 
anything other than trying to grow--whether it is my or any of 
my neighbor's crops or anybody else up and down the state, we 
got to grow to try and stay in business this year with what 
water they have.
    And as we have seen, some areas have been cut dramatically. 
Some were told they are going to get five percent of their 
normal allocation, now they are going back and taking that five 
percent. That is from right out of--from Bureau of Reclamation 
in certain parts of the state. I mean, zero percent allocation. 
They don't have any options on doing any of this that we are 
talking about here because it is survival.
    Klamath Basin same thing. I mean, it is just incredible how 
difficult it is going to be this year.
    And so--but when we are talking about whether it is no-till 
and what is sequestered in, say, that top 4" to 8", maybe 12" 
layer of soil, what are the effects when you do finally go back 
and till the land to change a crop or put it back into play 
after it has been idle for 1 year, 5 years, what have you?
    The next time you till that ground, are we releasing the 
carbon that you have just done all the work to try to sequester 
in the soil? I understand carbon stays sequestered in wood 
products and things like that that are more or less permanent, 
but talk about that, Dr. Paustian, and others on the panel that 
would like to weigh in on that, feel so. Thank you.
    Dr. Paustian. Yes. Thank you, Representative. Yes, when we 
are looking at soil carbon, we are really trying to essentially 
manage a balance, right, and what Mr. Isbell said was really 
important that conservation practices, you are generally trying 
to accomplish two things to add more carbon to the soil. And 
one is, you want to, the carbon is in the atmosphere. The 
longer you can have a growing plant on the soil and capturing 
more of that CO<INF>2</INF> and introducing it into the soil 
through the roots and the crop residues, the better off you 
are.
    Also, in general, if you can reduce the amount of soil 
disturbance, you tend to maintain the organic matter from being 
decomposed as quickly as it might otherwise do. You are trying 
to manage that carbon balance and increase the stocks there. 
But, it is different with different types of systems. And you 
mentioned rice cultivation, and typically I would say, in a 
rice system probably from a climate standpoint, the thing that 
you want to focus on is probably the ways to reduce methane 
emissions from rice either through varieties, if they are 
suitable, or through water management to have the system not 
flooded quite as often.
    So there are management techniques that work in rice 
systems to reduce methane emissions.
    Mr. LaMalfa. We have been trying them all for 90 years. It 
is a situation where we used to burn the rice straw at the end 
of the season, which wasn't popular finally more recent years. 
And so my own farm, we have been working really hard to bail it 
and remove it and find other products for it, but it is a very 
extremely limited market. We are stuck with having to instead 
of the burn, chop, disc, and flood, which does have its own new 
problems when you do that making the straw decompose.
    We don't have the option of cover crop or no-till in that 
situation, and there are other crops that would probably chime 
in with other unique situations. I guess what is the bottom 
line, though, on if you do till the soil, are you going to lose 
the carbon that you have sequestered?
    Dr. Paustian. Let's say you are doing, maybe not rice 
farming, but maybe you are in upland soils and you have been 
doing no-till and cover crops and things like this, if you then 
sort of abandon those practices, then over time your carbon 
levels will tend to go back down towards where they were 
before.
    So it is important that we have systems that--as in Mr. 
Isbell said, are not only environmentally sustainable but 
economically sustainable. So, if you have a system that is 
sequestering carbon, building that carbon, and you are making 
more money doing that, then the good news is that the 
likelihood of maintaining those practices over time is much 
greater if they are more profitable.
    Mr. LaMalfa. Yes. Many in the Midwest are multi-cropping on 
a rotation and such so. I am not here to bad mouth it or 
anything. It sounds to me like, once you get into a particular 
flow on this, a particular method, that you don't get out of a 
no-till method without the carbon penalty, I guess you would 
say. And that will lead to other concerns for me as somewhere 
on the line are you required to stay in that type; otherwise, 
you are emitting carbon, and now you are one of the bad guys. 
Even though, crop rotations, changing crops, or just the 
necessity to air the soil and maybe you have--when they change 
orchards and such, they have to go in a deep rip and kill 
nematodes, things like that. Anyway, it is just an ongoing 
discussion, and I want to be sure that we all have flexibility 
in ongoing programs that if there is a need to change or to 
move in a different direction with that crop, that doesn't 
become a penalty or a red letter on how our farmers need to 
practice.
    So thank you for the extra time. I appreciate it.
    The Chair. The chair now recognizes Mr. Costa, of 
California, for 5 minutes.
    Mr. Costa. Okay. I want to, once again, thank the Chair for 
this important Subcommittee hearing today and make a few 
points.
    Certainly, my colleague from California, Congressman 
LaMalfa, makes some important points. It gets back to one size 
doesn't fit all, but beyond that, farming has changed. We know 
a lot more today than we did a generation ago. I farm too. It 
is my primary source of income, but I don't farm the way my 
father farmed because of a lot of reasons, not only technology, 
but obviously change in crop patterns and the impacts of 
climate change.
    I want to make a point I would like the three of you to 
respond. I have been simultaneously, Madam Chair, participating 
in the Foreign Relations Committee hearing today with Senator 
Kerry talking about our role in the international arena towards 
climate change. It seems to me that American agriculture has 
played a role and continues to play a role in reducing our 
carbon footprint and reducing waste streams, but you need two 
things, and the Chair and I have discussed this. I have 
discussed it with Senator Kerry and Secretary Vilsack.
    You need two things to be successful in that for outcomes: 
one, determine what consistent funding sources we can have on a 
regional basis throughout the country to reduce that carbon 
footprint and the waste stream, water waste streams; and, two, 
continuous funding to determine which management practices work 
best on a farm and the dairies and the ranches, realizing the 
regional differences. But, goals over the next 10 years are 
critical, that are achievable, and a commitment on funding 
sources on this public-private partnership. Where, to your 
knowledge, are there realistic goals based upon existing 
practices and hopefully new practices that we can achieve in 
the next 10 years in American agriculture, and what are the 
consistent revenue streams you believe necessary as we develop 
a legislative package and strategy?
    In less than 2\1/2\ minutes, who would like to respond?
    Mr. Johansson. Well, I will start, Congressman. And thanks, 
again. I mean, really quickly, we haven't really discussed it 
here, but one of the difficulties as well to in implementing 
these programs is what is the baseline, right? Where do we set 
the baseline at and how do we not punish the early adopters?
    Mr. Costa. Absolutely.
    Mr. Johansson. And you saw that in our own carbon program 
here in California and what that meant to our food processors, 
and that is the other part of this equation, too, is our food 
processors and ultimately those brands that sell our products. 
How do we engage them that we know the economic benefit they 
get for marketing a product that is, say, carbon neutral or has 
a lower carbon footprint, how does that end up back to the 
farmer which encourages them further in those practices?
    I mean, we certainly saw it in the organic industry as that 
grew in the 1980s and 1990s to where it is today, but how do we 
engage that private-sector to reward those farmers and those 
ranchers who are taking those steps, but, again, as we 
implement these programs, as we come up with this baseline, it 
is going to be critical that the early adopters aren't 
penalized.
    Mr. Costa. I agree. And, voluntary is an important concept 
in that public-private partnership.
    Ms. Ratcliff, you care to comment?
    Ms. Ratcliff. Absolutely. And I am in agreement with that 
baseline, and I guess my baseline would be the size--you 
mentioned it previously in your open comment is not all size 
fits everyone. There are always different climates. There are 
different grasses. There are different soil types. Just within 
Texas, our big state, is different from north to south. I think 
you really have to do it regionally and look at each region 
separately.
    I don't think you can do a global around the United States 
and, say, ``Hey, this is what needs to go in every single 
state.'' I really think we need to concentrate it on regionally 
because it is different for each region.
    Mr. Costa. It has to be a regional strategy to set national 
goals.
    Ms. Ratcliff. Exactly.
    Mr. Costa. Finally, Doctor, would you care to comment?
    Dr. Paustian. I would agree with Ms. Ratcliff. We have the 
technologies to integrate local solutions with national 
policies, and I think we want to work in that area.
    Mr. Costa. And as a 30 year member of the California Farm 
Bureau, to Jamie Johansson's comments, we don't want to punish 
under the category of no good deed goes unpunished, the fact 
that good practices have already been installed, and we want to 
incentivize those good practices if we want to develop a 
successful, overall nationwide strategy.
    Thank you, Madam Chair. I really appreciate you allowing me 
to participate, once again.
    The Chair. Thank you very much.
    If there are any other Members remaining on with us today 
who would like to ask additional questions, please unmute 
yourself and seek recognition.
    All right. Seeing none, we are going to move towards 
closing today. Ranking Member LaMalfa needed to head to the 
floor and will not be giving closing statements. I will 
continue and close out this hearing.
    I want to thank Ranking Member LaMalfa.
    And, to all of our witnesses here today, I truly appreciate 
this discussion. It has been informative. I thank you for 
spending extra time with us for our second round of questions. 
And I want to emphasize my commitment to ensuring that we are 
exploring every avenue for addressing the climate crisis 
through every avenue for improving upon our conservation 
programs. I appreciate the time that you all spent today, 
answering our questions, making clear why these programs are so 
incredibly important, the value that they have on the farms in 
your states.
    Dr. Paustian, thank you for all of your research.
    And as the committees consider opportunities to leverage 
title II programs and research, our continuing possibilities 
for mitigating climate change, I do want to keep in mind many 
of the excellent points that were raised here today. I also 
hope that we will walk out of this hearing with a greater 
clarity of the benefits of these conservation programs and also 
how we may continue to ensure that we are seeing these benefits 
at a larger scale.
    So I appreciate you bringing your personal experiences, 
answering our questions, and really helping to inform Committee 
Members here today. So, to all of our witnesses, again, I thank 
you very much.
    Under the Rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses to the 
witnesses to any question posed by a Member.
    This hearing on the Subcommittee on Conservation and 
Forestry is adjourned.
    [Whereupon, at 12:04 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
Submitted Reports by Hon. Abigail Davis Spanberger, a Representative in 
                         Congress from Virginia
                         
                         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Cover Crop Trends, Programs, and Practices in the United States
Steven Wallander, David Smith, Maria Bowman, and Roger Claassen
Economic Research Service
Economic Information Bulletin Number 222
February 2021


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Economic Research Service
www.ers.usda.gov

          Steven Wallander, David Smith, Maria Bowman, and Roger 
        Claassen. Cover Crop Trends, Programs, and Practices in the 
        United States, EIB 222, U.S. Department of Agriculture, 
        Economic Research Service, February 2021.
          Cover is a derivative of images from Getty Images.
          Use of commercial and trade names does not imply approval or 
        constitute endorsement by USDA.
          To ensure the quality of its research reports and satisfy 
        government-wide standards, ERS requires that all research 
        reports with substantively new material be reviewed by 
        qualified technical research peers. This technical peer review 
        process, coordinated by ERS' Peer Review Coordinating Council, 
        allows experts who possess the technical background, 
        perspective, and expertise to provide an objective and 
        meaningful assessment of the output's substantive content and 
        clarity of communication during the publication's review.
          In accordance with Federal civil rights law and U.S. 
        Department of Agriculture (USDA) civil rights regulations and 
        policies, the USDA, its Agencies, offices, and employees, and 
        institutions participating in or administering USDA programs 
        are prohibited from discriminating based on race, color, 
        national origin, religion, sex, gender identity (including 
        gender expression), sexual orientation, disability, age, 
        marital status, family/parental status, income derived from a 
        public assistance program, political beliefs, or reprisal or 
        retaliation for prior civil rights activity, in any program or 
        activity conducted or funded by USDA (not all bases apply to 
        all programs). Remedies and complaint filing deadlines vary by 
        program or incident.
          Persons with disabilities who require alternative means of 
        communication for program information (e.g., Braille, large 
        print, audiotape, American Sign Language, etc.) should contact 
        the responsible Agency or USDA's TARGET Center at (202) 720-
        2600 (voice and TTY) or contact USDA through the Federal Relay 
        Service at (800) 877-8339. Additionally, program information 
        may be made available in languages other than English.
          To file a program discrimination complaint, complete the USDA 
        Program Discrimination Complaint Form, AD-3027, found online at 
        How to File a Program Discrimination Complaint and at any USDA 
        office or write a letter addressed to USDA and provide in the 
        letter all of the information requested in the form. To request 
        a copy of the complaint form, call (866) 632-9992. Submit your 
        completed form or letter to USDA by: (1) mail: U.S. Department 
        of Agriculture, Office of the Assistant Secretary for Civil 
        Rights, 1400 Independence Avenue, SW, Washington, D.C. 20250-
        9410; (2) fax: (202) 690-7442; or (3) email: 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fd8d8f929a8f9c90d39493899c9698bd888e999cd39a928bd3">[email&#160;protected]</a>
          USDA is an equal opportunity provider, employer, and lender.
Cover Crop Trends, Programs, and Practices in the United States
Steven Wallander, David Smith, Maria Bowman, and Roger Claassen
Abstract
    On U.S. cropland, the use of cover crops increased by 50 percent 
between 2012 and 2017. During this same period, Federal and state 
conservation programs increased efforts to promote cover crops through 
financial and technical assistance. When farmers introduce cover crops 
into a crop rotation, there can be important on-farm benefits for the 
farmers as well as benefits to society. These benefits depend upon how 
the farmers manage the cover crop, such as the type of cover crop, the 
method used to terminate its growth, and other soil health and residue-
management practices employed. Based on a series of farm- and field-
level surveys, this report details how cover crops are managed on corn, 
cotton, soybean, and wheat fields. These surveys reveal that there are 
many different approaches to using cover crops. This includes 
considerable variation in the other soil-health-related practices 
farmers use with cover cropping, such as no-till farming, conservation 
cropping, and soil testing.
    Keywords: Cover crop, conservation practice, soil health, 
conservation program, financial assistance, erosion, tillage.
Acknowledgments
    The authors would like to thank Robert Dubman of USDA, Economic 
Research Service (ERS) for assistance with Agricultural Resource 
Management Survey (ARMS) data, and Dave Buland of USDA, Natural 
Resources Conservation Service (NRCS) for assistance with Conservation 
Stewardship Program (CSP) payments data. For review comments, we would 
like to thank Andrew Rosenberg (ERS), Tara Wade (University of 
Florida), Alejandro Plastina (Iowa State University), and many 
reviewers from within the NRCS Science and Technology Deputy Area and 
Soil and Health Science Division coordinated by Bianca Mobius-Clune and 
Jimmy Bramblett. We appreciate the editorial support provided by 
Melanie Scarborough, ERS editor, and production layout assistance by 
Andrea Pimm, ERS designer.
    About the authors: Steven Wallander is an economist with the USDA, 
Economic Research Service (ERS). David Smith, Maria Bowman, and Roger 
Claassen were economists at ERS when this research was conducted.
Contents
    Summary
    Background
    Adoption of Cover Crops
    Conservation Programs for Cover Crops
    Conservation Rotation, Tillage, and Nutrient Management
    Conclusions
    References

          A report summary from the Economic Research Service
---------------------------------------------------------------------------
     ERS is a primary source of economic research and analysis from the 
U.S. Department of Agriculture, providing timely information on 
economic and policy issues related to agriculture, food, the 
environment, and rural America.
---------------------------------------------------------------------------
What Is the Issue?
    Farmers grow cover crops for a variety of production and soil 
health benefits that do not include the sale or direct use of the crop. 
This distinguishes cover crops from both cash crops, which are 
harvested and sold, and forage crops, which are grazed by livestock or 
harvested for hay or silage. Well-managed cover crops provide a living, 
seasonal coverage of soil between commodity or forage crops. Depending 
upon the field, soil, climate, and weather, cover crops can result in a 
variety of on-farm benefits: reduced soil erosion and compaction, 
improved water infiltration and storage within the soil profile, 
greater weed and pest suppression, and better nutrient cycling and soil 
stability to support machine operations. Cover crops can also provide 
public environmental benefits: less runoff of sediments and nutrients 
into waterways, reduced flooding in watersheds, and greater soil carbon 
sequestration. As the understanding of links between soil health and 
these environmental benefits has grown, USDA and many states have 
increased financial assistance for cover crops through working lands 
conservation programs. This report summarizes unique, nationally 
representative data available on cover crop adoption rates, crop type, 
and management choices, and the links between cover crop use and other 
conservation practices.
What Did the Study Find?
    U.S. farmers are rapidly expanding the adoption of cover crops.

  <bullet> In 2017, farmers reported planting 15.4 million acres of 
        cover crops, a 50 percent increase compared to the 10.3 million 
        acres reported in 2012.

  <bullet> Field-level surveys of corn, cotton, soybean, and wheat 
        fields reveal the use of cover crops; and rates of expanded 
        adoption are highest on fields that include corn silage in the 
        rotation and lowest on fields that include wheat.

    Financial incentives provided by Federal, state, and private 
organizations to encourage cover crops are one driver of increased 
cover crop adoption.

  <bullet> In 2018, about \1/3\ of the acreage planted with a cover 
        crop received a financial assistance payment from either 
        Federal, state, or other programs that support cover crop 
        adoption.

  <bullet> In Fiscal Year 2018, USDA's Environmental Quality Incentives 
        Program (EQIP) obligated $155 million in planned payments 
        toward cover crops on about 2 million acres. This is about 20 
        times the level of financial support for cover crops through 
        EQIP in 2005, driven primarily by an increase in acres enrolled 
        in a cover crop practice.

  <bullet> Between 2011 and 2015, the total acreage enrolled in USDA's 
        Conservation Stewardship Program (CSP) through contracts, 
        including cover crop practices and enhancement, increased from 
        about 350,000 acres to more than 2 million acres.

  <bullet> A variety of incentive programs administered by at least 22 
        states supported more than 1 million acres of cover crops in 
        2018.

  <bullet> In 2018, financial assistance for cover crops across a 
        variety of Federal and state programs, excluding CSP, ranged 
        from $12 per acre to $92 per acre.

    Farmers use a variety of cover crops and diverse strategies to 
manage them.

  <bullet> Fields in cotton and corn silage are much more likely to use 
        cover crops compared to fields in corn-for-grain or soybeans.

  <bullet> The most common cover crops are rye (cereal rye or annual 
        ryegrass) and winter wheat. (Note Summary figure).

  <bullet> To prepare for the planting of cash crops, most cover crops 
        are terminated with herbicide or tillage.

    Cover crops are often part of a suite of conservation practices 
that comprise a farmer's soil health management system. Other 
conservation practices, such as no-till farming and a written nutrient 
management plan, are more common on fields with cover crops than on 
fields without cover crops.

  <bullet> No-till planting is two to three times more likely on fields 
        with cover crops.

  <bullet> Testing for nutrients and soil organic matter and the use of 
        written nutrient management plans are all more likely on fields 
        with a cover crop.
How Was the Study Conducted?
    We estimate cover crop adoption rates using data from the 2012 and 
2017 Census of Agriculture and the Agricultural Resource Management 
Survey (ARMS), a national survey of farming operations and production 
practices conducted by USDA's National Agricultural Statistics Service 
(NASS) and Economic Research Service (ERS). The field-level data are 
based on the Production Practice and Cost Report (Phase 2) ARMS that is 
conducted periodically for corn (2010 and 2016), cotton (2015), wheat 
(2017), and soybeans (2018). Field-level data on cover crop adoption 
and management are obtained from a series of questions that ask farmers 
about what crops they grew during the 4 years prior to the survey, 
whether the crop was a cover crop, and what tillage and termination 
practices were used. To capture potential relationships between cover 
cropping and other management practices, we also use field-level survey 
data to estimate the extent to which different tillage practices, 
conservation cropping, soil testing, and other practices are associated 
with the use of cover crops on surveyed fields.
    We use data obtained from the USDA, Natural Resources Conservation 
Service (NRCS) ProTracts database and other online NRCS resources to 
estimate the magnitude of Federal financial incentives for cover crops 
and trends in these incentives provided through EQIP and CSP. 
Information on state-level programs and financial incentives for cover 
crops was compiled from various sources, including publicly available 
documents and conservation program reporting, and personal 
communication with state departments of agriculture and conservation 
districts.
Cover Crop Trends, Programs, and Practices in the United States
Background
    Maintaining, supporting, and enhancing soil health is a cornerstone 
of an agroecosystem that sustains productive agricultural land. Soil 
health management follows four basic principles: (1) minimize soil 
disturbance; (2) maximize soil cover; (3) maximize biodiversity; and 
(4) maximize the presence of living roots in the soil (USDA-NRCS, 
2018f). Cover crops, a soil-health-related conservation practice, have 
received increased attention from Federal and state conservation 
programs, farmers, and nongovernmental organizations. This single 
conservation practice meets three of the four basic principles for 
improving soil health (principles 2-4).
    The soil health improvements that can come with the use of cover 
crops are associated with a variety of potential on-field benefits for 
the farmer. Cover crops can enhance soil properties such as aggregate 
stability, beneficial microbial activity, and the amount of organic 
matter in the soil (Snapps, et al., 2005). Depending upon the local 
soil and climate, these changes can help suppress and control weeds, 
reduce nutrient and pesticide losses, increase infiltration, and 
increase the volume of water retained in the soil profile, which may 
lead to greater drought resilience (Myers, et al., 2019). The types of 
soil health improvements and on-farm benefits are variable, complex, 
and context-specific (Tonitto, et al., 2006). Many of these benefits 
are also associated with public benefits, such as improved downstream 
water quality (Dabney, et al., 2001).
    Cover crops can also have costs--both monetary and non-monetary--
that limit the willingness of many farmers to plant them (Plastina, et 
al., 2018). Establishing a cover crop involves seed, machinery, and 
time. Managing a cover crop to achieve the desired benefits can require 
significant learning and adjustments in other aspects of the farming 
system. Terminating a cover crop to prepare for the following cash crop 
also involves machinery, time, and sometimes additional herbicide. In 
some situations, there can be unintended or undesired negative 
consequences from cover crops, such as allelopathy or an increase in 
certain crop pests (Lu, et al., 2000; Bakker, et al., 2016).
    This report relies on survey data in which farmers self-report 
whether they are growing cover crops on their operation or on a given 
field. For any management practice, such data collection relies upon 
survey respondents defining the practice in the same way as the 
analysts interpreting the survey data. What is a cover crop? In 
general, a cover crop can be a single species or a mix of grasses, 
legumes, or forbs grown primarily to provide seasonal cover and related 
benefits. For example, cereal rye is often planted as a cover crop in 
the fall to provide winter cover between the planting of cash crops 
such as corn and soybeans.
    USDA defines a cover crop based on the primary intended use for the 
crop (see box ``How does USDA define a cover crop?''). This definition 
separates cover cropping from double cropping, a practice in which 
farmers plant and harvest a second cash crop within a year (Borchers 
and Wallander, 2014). Sometimes this distinction is simplified to 
define cover crops as crops that are not harvested; though as the data 
below show, many farmers use harvesting as a method to terminate the 
cover crop. In some cases, farmers even harvest a cover crop for grain. 
While such cover crop management is not allowed in USDA financial 
assistance programs (NRCS, 2014b), some state programs have allowed for 
such management of cover crops in return for reduced payments. For 
example, between 2007 and 2017, roughly 20 to 40 percent of the cover 
crop acres planted in Maryland as part of the state's Agricultural 
Water Quality Cost Share Program were ``commodity cover crops'' that 
could be harvested for sale (Bowman and Lynch, 2019). Since there are 
conflicting rules around cover crops in these conservation programs, 
statistics on cover crop adoption inherently capture a certain amount 
of acreage that would not qualify as having cover crops under some 
program definitions. This challenge of consistently defining cover 
crops reflects the inherent complexity of managing cover crops.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
How does USDA define a cover crop?
    In 2014, USDA agencies revised their definition of a cover crop for
 consistency across agencies, as follows:
 
      ``Crops, including grasses, legumes, and forbs, for seasonal cover
   and other conservation purposes. Cover crops are primarily used for
   erosion control, soil health improvement, and water quality
   improvement. A cover crop managed and terminated according to these
   guidelines is not considered a `crop' for crop insurance purposes.
   The cover crop may be terminated by natural causes such as frost, or
   intentionally terminated through chemical application, crimping,
   rolling, tillage, or cutting'' (USDA-NRCS, 2014c; USDA-NRCS 2014e).
 
    Further, USDA's definition allows for grazing and harvesting under
 specific conditions, as follows:
 
      ``Cover crops may be grazed or harvested as hay or silage, unless
   prohibited by RMA (Risk Management Agency) crop insurance policy
   provisions. Cover crops cannot be harvested for grain or seed'' (USDA-
   NRCS, 2014c; USDA-NRCS, 2014e).
------------------------------------------------------------------------

Adoption of Cover Crops
    In 2017, U.S. farmers reported planting 15.4 million acres of cover 
crops. The adoption of cover crops increased 50 percent from 2012 when 
farmers reported planting 10.3 million acres of cover crops (USDA-NASS, 
2019, table 47). Various conservation groups and experts have suggested 
long-run targets for cover crop adoption that range from 20 million 
acres by 2020 to 100 million acres by 2025 (Hamilton, et al., 2017). 
Currently, though, there is no official USDA goal or target for the 
extent of cover crop adoption.
    Looking at adoption rates, rather than total acreage, allows for 
comparison across regions. Previous research has suggested that total 
cropland is not the correct denominator for calculating adoption rates 
(Hamilton, et al., 2017). For this study, we calculate adoption rates 
using a denominator of harvested cropland minus harvested alfalfa 
acreage.\1\ Harvested cropland excludes fallow land, failed crops, and 
the long-term, perennial cover on land enrolled in the Conservation 
Reserve Program (CRP). As a share of harvested cropland, excluding 
alfalfa, cover crop adoption increased from 3.4 percent in 2012 to 5.1 
percent in 2017.
---------------------------------------------------------------------------
    \1\ We do not exclude orchards, as suggested by Hamilton, et al., 
(2017), because it is possible to plant cover crops within an orchard. 
We do not exclude non-alfalfa hay and haylage because an examination of 
county-level data makes clear that in some areas, particularly the 
northeastern United States, a large share of cover crops is reported as 
hay or haylage. We do not exclude double-cropped acres, which are 
similar to perennial rotations in lacking the ability to include crops, 
because the Census of Agriculture data do not capture double-cropped 
acreage.
---------------------------------------------------------------------------
    Cover crop adoption rates in 2017 and the change from 2012 to 2017 
vary a great deal across the United States (figure 1). Maryland, which 
has been heavily promoting cover crops for well over a decade, has both 
a high adoption rate (about 33 percent in 2017) and a high growth rate 
(more than six percentage points from 2012 to 2017). States with both 
high adoption and high growth rates are often in the eastern United 
States (e.g., Pennsylvania, Virginia, and Georgia). Several states in 
the Midwest and Great Lakes regions had moderate adoption and growth 
rates (e.g., Missouri, Indiana, Michigan, and Ohio). There was a slight 
decline in cover crop adoption in Colorado, Washington, and Wyoming, 
and a much larger decline in New Mexico.
    Adoption levels can also vary considerably within states, 
reflecting the combined effects of different soils, primary crops, 
livestock density, outreach and training availability, and conservation 
technical assistance and financial incentive programs (figure 2). For 
example, within Texas, some of the highest adoption rates are in the 
panhandle, where a larger share of acreage is planted to cotton. As 
shown later in this report, cotton fields have higher adoption rates 
than corn for grain or soybeans. In Pennsylvania, cover crop adoption 
is more common in counties within the Chesapeake Bay watershed, which 
could reflect greater conservation program- or regulation-related 
incentives in those counties. In Iowa, cover crop adoption is more 
common in the southeastern portion of the state, where soils have lower 
organic matter and higher erodibility compared to the rest of the 
state. These potential drivers of variation in adoption suggest a 
complex mix of both the benefits and costs of using cover crops, which 
include variation in cover crop incentive programs.
    As noted above, cover crop adoption was high in 2017 compared to 
where it was in 2012 but is still relatively rare at a 5.1 percent 
adoption rate. Given the extensive interest in cover crops and calls 
for expanded adoption, comparing cover crop acreage to the acreage of 
other crops, conservation practices, and land uses can provide useful 
perspective even though these other practices and land uses generally 
provide different economic, agronomic, and environmental benefits 
(figure 3).
Figure 1
State comparisons of 2017 cover crop adoption rates and 2012-17 trends


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Notes: Alaska and Hawaii are not included in the chart. Share 
        of acreage is calculated as harvested cropland acreage (which 
        excludes Conservation Reserve Program, fallow, and failed 
        cropland acres) minus harvested hay and forage acreage. The 
        size of circles is proportional to the total cover crop acreage 
        in 2017; states with more total acreage in cover crops have 
        larger circles.
          Source: USDA, Economic Research Service using data from USDA, 
        National Agricultural Statistics Service.

    As a conservation practice focused on both increasing organic 
matter and reducing erosion, cover crops are often considered alongside 
tillage practices. Both no-till (104 million acres) and conservation 
tillage (97 million acres, excluding no-till) are much more widely 
adopted than cover crops, which suggests there is still potential for 
cover crop adoption to increase.\2\ However, no-till and conservation 
tillage generally involve reduced on-farm costs because of fewer field 
operations and lower input use relative to conventional tillage. In 
contrast, cover crops can involve increased costs, at least in the 
short run, due to seed purchases and additional field operations and, 
often but not always, greater use of inputs such as herbicide.
---------------------------------------------------------------------------
    \2\ According to the NASS Census of Agriculture definition, 
conservation tillage includes all reduced tillage operations, excluding 
no-till, that leave at least 30 percent of the soil covered in crop 
residue at the time of planting.
---------------------------------------------------------------------------
Figure 2
Cover crop adoption as a share of harvested acreage by county, 2017


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Note: County boundaries are clipped to show only cropland. 
        Non-cropland appears white. Missing data occur when county-
        level estimates cannot be publicly released due to an 
        insufficient number of observations in a county.
          Source: USDA, Economic Research Service estimates using 2017 
        Agricultural Census, USDA, National Agricultural Statistics 
        Service.

    As a crop that is generally not harvested and that can have very 
high benefits if used on highly erodible land, cover crops may also be 
compared to the CRP. In 2017, CRP contracts enrolled 24 million acres. 
However, there are very different costs and benefits involved in the 
two different land uses since the environmentally sensitive land in CRP 
is effectively retired from active crop production for at least 10 
years.
    Given that cover crops are integrated into cash crop rotations, it 
is also helpful to compare cover crop acreage to cash crop acreage. In 
2017, only corn, soybeans, winter wheat, and hay had more total acreage 
than cover crops. Winter wheat and hay are probably the most relevant 
comparisons because of the potential use of cover crops for forage in 
some circumstances. There were more cover crops planted in 2017 than 
spring wheat (including durum), cotton, sorghum, and many other crops.
Figure 3
Comparing cover crop acreage to other crop and conservation acreage in 
        2017
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
        
          Note: Conservation tillage acreage does not include no-till 
        acreage.
          Source: Crop acreages are from USDA, National Agricultural 
        Statistics Service annual surveys. Cover crop and tillage 
        acreages are from 2017 Census of Agriculture. Conservation 
        Reserve Program acreage is from September 2017, USDA, Farm 
        Service Agency monthly report.
Conservation Programs for Cover Crops
    Federal and state conservation programs reduce the cost of cover 
crop adoption through financial assistance payments, which encourage 
greater adoption of cover crops than would occur without the program 
payments. As detailed in this section, during 2017, these programs 
provided more than $180 million in total incentives for the adoption of 
cover crops on more than 5 million acres of cropland. The per-acre 
payment rates, the eligibility requirements, and even the types of 
cover crops and management practices vary significantly across programs 
as well as between states and regions within Federal programs.
    USDA has two major programs that provide such financial assistance: 
the Environmental Quality Incentives Program (EQIP) and the 
Conservation Stewardship Program (CSP). In addition to the Federal 
programs, farmers may be eligible for state programs that provide 
financial assistance to farmers who plant cover crops. In most cases, 
farmers cannot simultaneously receive payments from multiple programs 
for the cover crops on the same field in the same year, although some 
exceptions do exist.
The Environmental Quality Incentives Program
    Under EQIP, farmers may be eligible to receive annual payments for 
introducing cover crops if the conservation planning process finds 
their fields have environmental resource concerns that cover crops 
could address. Farmers are ineligible for payment through EQIP on 
fields where they are already planting cover crops. In this way, EQIP 
is meant to encourage trial adoption of cover crops for up to 5 years.
    Farmers who receive an EQIP payment cannot harvest their cover crop 
for grain or seed. In many cases, participants can terminate their 
cover crop by grazing livestock on the forage or harvesting the cover 
crop for hay or silage (USDA-NRCS, 2014c), but these requirements can 
vary by state. Each EQIP contract specifies the type of cover crop to 
be established, seeding rates and dates, when and how farmers will 
apply nutrients, and how they will terminate their cover crop (USDA-
NRCS, 2014b).
    Cover crops are considered an annual practice in EQIP and can be 
included in an EQIP contract for a maximum of 5 years on the same field 
(USDA-NRCS, 2017b). Per-acre payment levels for cover crops through 
EQIP differ by region, in part due to variation in the costs of 
implementing the practice (USDA-NRCS, 2018a). In FY 2017, the median 
per-acre payment at the state level for the cover crop practice ranged 
from $62.33 (Illinois) to $92.27 (Delaware). Payment rates for cover 
crops in EQIP vary according to whether a single crop or multiple crop 
mix is planted, may differ in organic production systems, and can be 
higher if the farmer is a member of a historically underserved producer 
group.\3\
---------------------------------------------------------------------------
    \3\ Historically underserved producer groups, as defined by the 
Agricultural Act of 2014, include Limited Resource Farmers, Socially 
Disadvantaged Farmers, Beginning Farmers and Ranchers, and Veteran 
Farmers (NRCS, 2014d).
---------------------------------------------------------------------------
    There is a significant upward trend in total funding going toward 
cover crops through both EQIP and CSP. During the past 14 years, USDA 
funding for cover crops through EQIP has increased--both in absolute 
terms and relative to other practices included in the programs such as 
no-till. Between 2005 and 2018, funding for cover crops through EQIP 
increased from about $7 million to more than $155 million (in 2018 
dollars) (figure 4). During this same period, funding for no-till 
declined substantially.
Figure 4
Spending trends on conservation tillage and cover crops in EQIP


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Note: Dollar figure is the total amount of funding obligated 
        for financial assistance (``cost-share'') payments on the cover 
        crop practice within EQIP contracts signed in each fiscal year. 
        Adjustments for inflation are made with the Consumer Price 
        Index.
          Source: USDA, Economic Research Service analysis of USDA, 
        Natural Resources Conservation Service ProTracts data on 
        Environmental Quality Incentive Program (EQIP) obligations.

    The growth in total financial assistance for cover crops reflects 
both an increase in the per-acre financial assistance payment for cover 
crops and the large increase in the total number of acres enrolled in 
the cover crop practice (figure 5). The analysis here reports total 
funding by the fiscal years in which contracts are initiated. However, 
many practices in a contract are planned to be implemented in 
subsequent years, at which point payments for the practices will be 
made. For this reason, the actual increase in cover crop acreage 
receiving financial assistance through EQIP lags slightly behind the 
increase in quent years, at which point payments for the practices will 
be made. For this reason, the actual increase in cover crop acreage 
receiving financial assistance through EQIP lags slightly behind the 
increase in EQIP funding levels for cover crops. For example, total 
planned acreage for cover crops in 2018, about 2.4 million acres, 
reflects contracts from the 2018 Fiscal Year as well as from earlier 
fiscal years.
Figure 5
Cover crop acres enrolled in EQIP


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Source: USDA, Economic Research Service analysis of USDA, 
        Natural Resources Conservation Service ProTracts data for the 
        Environmental Quality Incentive Program.

    To examine how well the increase in EQIP funding explains the 
increase in cover crop adoption in the Census of Agriculture data, we 
estimate the correlation between the county-level change in adoption 
between 2012 and 2017 and the total planned acres of cover crop in EQIP 
for 2013 to 2017 by county. If EQIP financial assistance were the only 
driver of changes in cover crop adoption and all contracts resulted in 
new adoption, then we would expect to see a perfect (one-to-one) 
correlation between the share of acreage enrolled in EQIP cover crop 
practices and the change in the cover crop rate of adoption. On 
average, there is a positive correlation, and a one-percentage-point 
enrollment of county-harvested cropland in EQIP is associated with a 
0.5-percentage-point increase in cover crop adoption (figure 6). That 
this correlation is less than one-to-one is consistent with both the 
fact that not all farmers will continue the use of cover crops after an 
EQIP contract expires, and that some farmers receiving financial 
assistance would have adopted the cover crops without the payments 
(Claassen, et al., 2018).
Figure 6
County-level changes in cover crops and EQIP participation


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Note: Change in cover crop adoption is the difference between 
        the share of harvested, non-alfalfa cropland with cover crops 
        in 2017 and 2012. EQIP enrollment in cover crop practices is 
        expressed as the share of harvested, non-alfalfa cropland 
        enrolled for financial assistance on the cover crops (practice 
        code 340) in at least 1 year from 2013. Enrollment acreage is 
        the total number of acres based on planned year in the original 
        contract and divided by 3 since most contracts specify 3 years 
        of cover crops on the same fields. Only counties with at least 
        100,000 acres of harvested, non-alfalfa cropland are included 
        in the chart because of the noisier adoption rates in the 
        smaller counties. The predicted line is a simple linear fit to 
        the displayed data with no weighting.
          Source: USDA, Economic Research Service analysis of USDA, 
        Natural Resources Conservation Service ProTracts data for the 
        Environmental Quality Incentive Program (EQIP) and Census of 
        Agriculture (2012 and 2017), USDA, National Agricultural 
        Statistics Service.

    In addition, while this correlation is statistically significant, 
there is a lot of variation in cover crop adoption rates not explained 
by EQIP funding. This likely reflects the influence of other programs, 
weather, shifts in cash crop acreage, and perhaps other factors such as 
cover crop seed availability.
The Conservation Stewardship Program
    While EQIP generally focuses on incentivizing new adoption of 
practices to address resource concerns and deliver environmental 
benefits, CSP seeks to incentivize enhanced conservation stewardship on 
farms that have the potential to achieve even higher levels of 
environmental benefits by implementing enhancements to existing 
practices (USDA-NRCS, 2016a). This means farmers who are already using 
cover crops (with or without financial assistance) might be eligible 
for CSP if they shift to enhanced cover crop systems, such as more 
diverse cover crop mixes or systems that promote specific ecosystem 
services or address additional resource concerns. Examples of eligible 
CSP enhancements involving cover cropping include the use of multi-
species cover crops to improve soil health and increase soil organic 
matter.\4\ Cover crop enhancements can be used to address several 
resource concerns, including soil erosion, weed and pest pressure, soil 
health degradation (e.g., aggregate instability, soil organism habitat 
degradation, compaction, organic matter depletion), and water quality 
degradation (USDA-NRCS, 2018b).
---------------------------------------------------------------------------
    \4\ For a full list of 2018 CSP enhancements, including 
enhancements that incorporate cover cropping, see USDA-NRCS, 2018b.
---------------------------------------------------------------------------
    Farmers enrolled in CSP sign a 5 year contract committing to engage 
in conservation activities (``practices, enhancements, and bundles of 
enhancements'') included in a whole-farm stewardship plan. In 2017, CSP 
shifted to a system with enhancement-based payment rates similar to the 
structure of EQIP. Under this system, the per-acre payment levels for 
CSP are generally lower than those for EQIP (table 1). In part, this 
reflects the fact that CSP payment rates are based only on the 
enhancement component of the activity--such as moving from a simple 
cover crop, which typically would be required to meet eligibility for 
CSP, to a more complex cover crop--and these costs are lower than the 
costs of adopting cover crops for the first time.
    Going further back into the history of the program, CSP payments 
are not itemized by activity during the timeframe covered by this 
report, so it is generally not possible to disaggregate CSP funds by 
specific activity. Therefore, the trends in cover crop funding under 
CSP cannot be charted in the same way as for EQIP. For CSP, the cover 
cropped acres are estimated as the total acres under contracts with at 
least one cover crop practice or enhancement receiving financial 
assistance. The total cover crop acreage receiving CSP payments 
increased from just over 350,000 acres in 2010 to more than 2 million 
acres in 2015. This growth in CSP acreage with cover crop practices or 
enhancements mirrors the shift toward cover crops in EQIP.
State Programs
    In addition to Federal sources of funding to incentivize the 
adoption of cover crops, there are many state programs (AGREE, 2019). 
The seven largest and longest standing state programs enrolled about 
1.4 million acres in 2017 (table 2). In combination with the 1.8 
million acres planned for 2017 in EQIP (figure 5) and the approximately 
2 million acres in CSP (table 1), this means that at least 5 million 
acres, \1/3\ of total cover crop acres, were receiving some form of 
financial assistance for cover crops in 2017. In addition to the seven 
states listed in table 2, at least 17 other states or conservation 
districts within states have provided a per-acre incentive payment for 
cover crops.\5\
---------------------------------------------------------------------------
    \5\ Other states that offer either statewide or conservation 
district-level cover crop incentive programs include California, 
Georgia, Idaho, Illinois, Minnesota, New Jersey, New York, North 
Carolina, North Dakota, Pennsylvania, South Dakota, Tennessee, Vermont, 
West Virginia, and Wisconsin. Since a few programs allow participants 
to receive assistance from multiple sources, simply adding acreage 
across programs can lead to some double counting. However, such 
allowances are an exception to most programs and the total acreage 
receiving payments is consistent with reported acreage receiving 
assistance in ARMS.
---------------------------------------------------------------------------
    In terms of both total funded acreage and per-acre payment levels, 
Maryland has the largest program in the United States: In FY 2017, the 
Maryland program provided incentives on 639,710 acres and payments of 
more than $20 million statewide. After Maryland, the next-largest 
programs were in Iowa and Virginia. In FY 2017, Iowa spent $5 million 
to incentivize the planting of cover crops on 250,000 acres; in FY 
2016, Virginia spent $5.1 million to incentivize cover cropping on 
approximately 200,000 acres.
    The requirements of these state programs vary widely; some 
substitute for Federal programs, while others are complementary to 
Federal financial assistance or are designed to make sure the farmer is 
receiving a 100 percent cost-share for using a cover crop practice. 
Some programs limit the total acreage a farm can enroll or the length 
of time a field can enroll. Others limit their programs to farmers who 
have never previously used cover crops. In Missouri, the Department of 
Natural Resources requires farmers participating in the cover crop 
cost-share program to provide initial soil samples to the University of 
Missouri Soil Health Assessment Center, and they are encouraged to 
complete a follow-up soil health test after 4 or 5 years of cover 
cropping (Missouri Department of Natural Resources, 2016).
    In addition to per-acre payments to plant a cover crop, several 
other types of incentives or cover crop support also exist. Examples of 
other support include tax credits and programs that rent out or loan 
equipment related to cover cropping, such as no-till drills, cover crop 
inter-seeders, or roller crimpers. Pennsylvania has a tax credit 
program that gives farmers a 50 percent tax credit for eligible cover 
crop costs (such as equipment and cover crop seed) in their first year 
of cover cropping.\6\ The Scott Soil and Water Conservation District in 
Minnesota rents out no-till drills and interseeders (Scott Soil and 
Water Conservation District, 2017), and the Three Rivers Soil and Water 
Conservation District in Virginia rents out no-till drills and has a 
pilot project providing free use of a roller crimper to terminate cover 
crops (Three Rivers Soil and Water Conservation District, 2018). In the 
fall of 2017, the Iowa Department of Agriculture and Land Stewardship 
began a 3 year demonstration project offering farmers a $5 per acre 
reduction on their crop insurance premium if they planted a cover crop 
in the fall and were not enrolled in other state or Federal cover crop 
programs (Iowa Department of Agriculture and Land Stewardship, 2017).
---------------------------------------------------------------------------
    \6\ The 50 percent tax credit in Pennsylvania was capped at a 
maximum $45 per acre in FY 2018 (Pennsylvania State Conservation 
Commission, 2016).

                                 Table 1
 Comparison of incentive payments for cover crops in USDA working lands
                          conservation programs
------------------------------------------------------------------------
                      Practices or          Scope of      Payment range
     Program           enhancement          program         in FY 2017
------------------------------------------------------------------------
Environmental     Cover crop (basic,    About 2.4        Median per-acre-
 Quality           or with multiple      million acres    payment from
 Incentives        species)              planned in       $62.33
 Program (EQIP)                          2018             (Illinois) to
 1997-present                                             $92.27
                                                          (Delaware)
Conservation      Various types of      More than 2      Median per-acre-
 Stewardship       cover crops and       million acres    payment from
 Program (CSP)     management            in 2015          $7.96
 2010-present                                             (Arizona) to
                                                          $14.65
                                                          (Wyoming).
------------------------------------------------------------------------
Note: Per-acre median payment range for CSP enhancements represent the
  additional activity payment for a single cover crop enhancement, not
  the total amount of the farmer's per-acre CSP payment.
Source: USDA, Economic Research Service using USDA, Natural Resources
  Conservation Service (NRCS) online resources and NRCS ProTracts data.


                                 Table 2
            Summary of select state programs for cover crops
------------------------------------------------------------------------
                                            Per-acre
   State        Program/       Scope of     payment       Annual state
  (years      Implementing     program       range          spending
  active)        agency        (acres)     (dollars)       (dollars)
------------------------------------------------------------------------
Maryland    Agricultural         639,710        30-75       22.5 million
 (2009-pre   Water Quality
 sent)       Cost-Share
Iowa (2013- Department of        250,000        15-25          5 million
 present)    Agriculture
             and Land
             Stewardship
             (IDALS)
Virginia    Virginia             200,539        15-33        5.1 million
 (1998-pre   Department of        (2016)                          (2016)
 sent)       Conservation
             and Recreation
             with funding
             from Water
             Quality
             Improvement
             Fund and real
             estate
             recordation
             fees
Missouri    Department of        117,175        30-40        3.8 million
 (2015-pre   Natural
 sent)       Resources
Delaware    County                85,438        30-50
 (at least   conservation
 2011-pres   districts
 ent)
Ohio (2012- Various,             50,000        12-40           600,000
 present)    including
             Muskingum
             Watershed
             Conservancy
             Project, Ohio
             Department of
             Natural
             Resources, and
             Ohio
             Department of
             Agriculture
Indiana     Watersheds and        18,278     Up to 20            307,385
 (2015-pre   county
 sent)       conservation
             districts with
             funding from
             Indiana State
             Department of
             Agriculture
             (ISDA) Clean
             Water Indiana
             Grants
------------------------------------------------------------------------
Source: USDA, Economic Research Service, drawing from publicly available
  information on state websites and personal communication with staff at
  programs and implementing agencies.

Cover Crop Management
    Field-level surveys reveal the many variations in how farmers 
manage cover crops, including the types of cover crops, the frequency 
of cover crop use, and the method of terminating growth of the cover 
crop to prepare for planting a cash crop. These cover crop management 
decisions can affect the success of the cover cropping, the cost of 
cover cropping, and strategies for managing cash crops on the field.
Crop Rotation
    The crops preceding and following a cover crop can influence the 
decisions about cover crop selection and cover crop management. In most 
fields, cash crops are rotated to improve nutrient cycling, control 
pests, and improve soil health. For example, alternating corn and 
soybeans is a very common rotation. One challenge for farmers in 
managing cover crops is determining how to fit them into an existing 
rotation.
    Since cash crop planting and harvesting occur at different times of 
the year, the sequence of cash crops planted can influence decisions 
about whether to use a cover crop and how that cover crop is managed. 
The earlier a spring cash crop is planted, the tighter the window to 
terminate the cover crop and prepare the soil for planting. Similarly, 
the later the cash crop is harvested, the shorter the window in the 
fall to plant the cover crop. For example, in major corn and soybean 
regions, soybeans are planted in late May and early June, while corn 
tends to be planted earlier--in late April and early May. On the other 
end of the season, corn-for-silage is harvested in September, while 
corn-for-grain is harvested in October and early November. Such 
differences in timing may affect the viability of planting cover crops 
before and after certain crops; later planting and earlier harvest of 
the cash crop both increase the length of the cover crop season and 
facilitate cover crop use.
    The benefits of cover crops depend upon the planned cash crops in 
the rotation. Legume cover crops, which increase available nitrogen, 
will be more beneficial to subsequent nitrogen feeding crops (e.g., 
corn) than to a legume crop (e.g., soybean). However, legume cover 
crops often take longer to produce biomass in the spring. In contrast, 
grasses or small grains work well to scavenge leftover nitrogen from 
the preceding crop. However, these high-residue cover crops have a high 
carbon-to-nitrogen ratio, which reduces the availability of nitrogen 
for the following cash crop (USDA-NRCS, 2011). In addition to their 
potential nutrient benefits, cover crops also increase residue on the 
soil surface, which can reduce erosion between cash crop seasons, 
contribute organic matter to the soil for long-term soil health, 
suppress weeds, and buffer soil temperature extremes. This residue can 
be especially beneficial following low-residue crops such as corn 
silage, cotton, and soybeans.
Cash Crops and Cover Crop Adoption Rates
    To examine differences in cover crop adoption by rotation, we draw 
on commodity-specific field-level data from the Phase 2 Agricultural 
Resources Management Survey (ARMS). For this report, we use a sample of 
fields that were planted as corn in 2010 or 2016, cotton in 2015, wheat 
in 2017, or soybeans in 2018. For each survey year and targeted 
commodity, we also ask about 4 years of cropping history including 
cover crops.
    The level of cover crop adoption varies considerably by the primary 
commodity (figure 7). In the fall preceding the survey year, cover crop 
adoption ranged from just over five percent of acreage on corn-for-
grain (2016), to eight percent on soybeans (2018), just under 13 
percent on cotton (2015), and just under 25 percent on corn-for-silage 
(2016). Wheat has an adoption below two percent of acreage (2017) for 
the preceding fall on spring wheat and the previous year on winter 
wheat. Some fields, particularly those with winter wheat, have 4 year 
crop sequences that mix spring-planted and fall-planted cash crops in 
different years. In some cases, these include spring-planted rather 
than fall-planted cover crops. The statistics above look only at fall-
planted cover crops since they are much more common, which is true even 
for the surveyed winter wheat fields.
Figure 7
Trends in fall cover crop adoption by related cash crop


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Note: For each crop, the sampled fields are planted with the 
        designated crop in the survey year and a mix of other crops in 
        earlier years. The samples used to calculate these adoption 
        percentages are restricted to fields that had a 4\1/2\ year 
        history of crops.
          Source: USDA, Economic Research Service and USDA, National 
        Agricultural Statistics Service; 2010, 2016, 2017, 2018 
        Agricultural Resource Management Surveys.

    Cornfields harvested for silage differ from cornfields harvested 
for grain in three primary ways. First, and probably most importantly 
for cover crops, corn silage involves removing both the grain and 
stalks, thus leaving a low amount of residue in the field after 
harvest. Second, corn silage is used exclusively for feeding livestock, 
which may imply that farmers growing corn silage are capitalizing on 
the opportunity to grow cover crops for both the soil health and the 
grazing or forage benefits. Third, corn silage is harvested much 
earlier than corn-for-grain, allowing for more time to plant cover 
crops in the fall.
    Like corn for silage, cotton is also a low-residue crop. In 
addition, cotton is the dominant crop in the rotation with non-cotton 
crops rotated in every 3 to 4 years. Because of the prevalence of low-
residue crops in these fields, cover crops provide an opportunity for 
cotton farmers to increase residue. This may reflect the common 
practice of growing cotton following a winter cover crop such as winter 
wheat so that the stalks protect the cotton seedlings from early spring 
winds.
    The trends evident in these field-level surveys largely mirror the 
national trends revealed in the Census of Agriculture data; however, 
there are important differences between the crops. The differences 
between the 2010 corn survey and the 2016 corn survey track the year-
by-year trends within the different fields captured by each of those 
surveys. The soybean and corn-for-grain trends largely overlap, 
reflecting the fact that a random survey of cornfields and a random 
survey of soybean fields will capture similar fields given the 
prevalence of a 2 year rotation of corn-for-grain and soybeans. The 
trend within fields for 2016 corn-for-silage fields is much steeper 
than any of the other crops.
Frequency of Adoption
    Some of the benefits of cover crops, particularly the accumulation 
of soil organic matter, require frequent or sustained adoption. The 
ARMS data on crop history provide detail on the frequency with which 
cover crops are adopted (figure 8). With the upward trend in adoption, 
these numbers are impacted by new adopters, so fields that are adopting 
cover crops in only 1 or 2 years out of the 4 years will be more common 
than they would be if cover crop adoption were stable.
Figure 8
Frequency of cover crops within 4 year crop sequences


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Note: For each surveyed commodity, fields with a full 4 years 
        of reported cropping history and at least 1 year with a cover 
        crop are included. Percentages are weighted to reflect the 
        share of total planted acreage for the targeted commodity. Of 
        acres with a cover crop planted in at least 1 of the last 4 
        years, 16 percent of 2015 cotton acres, 27 percent of 2016 corn 
        silage acreage, 53 percent of 2016 corn grain acres, and 52 
        percent of soybean acres planted a cover crop. The share of 
        adoption in all 4 years also varies across crops with 52 
        percent of 2015 cotton, 42 percent of 2016 corn silage, 11 
        percent of 2016 corn grain, and 24 percent of 2018 soybean 
        acres.
          Source: USDA, Economic Research Service and USDA, National 
        Agricultural Statistics Service, 2015 (cotton), 2016 (corn), 
        and 2018 (soybeans), Agricultural Resource Management Survey.

    Looking at the subpopulation of fields with cover crops in at least 
1 of 4 years, sustained cover cropping over the 4 year history, which 
we define as 3 or 4 years of adoption, occurs on 19 percent of (2016) 
corn-for-grain acres, 56 percent of (2016) corn-for-silage acres, 69 
percent of (2015) cotton acres, and 32 percent of (2018) soybean acres. 
Given the similar trajectories for corn-for-grain and soybeans, the 
greater sustained adoption among soybean acreage may have more to do 
with the later timing of the soybean survey (2018) relative to the corn 
survey (2016).
    A closer look at the fields with only 1 or 2 years of adoption 
reveals that many of these appear to be farmed by new adopters. Half of 
the corn-for-grain acres (2016) using a cover crop in 2016 had not used 
a cover crop in the previous 3 years. On corn-for-silage fields that 
used cover crops in 1 or 2 out of every 4 years, many (79 percent) had 
not used cover crops at all in 2013 or 2014. On just over half of 
soybean fields (52 percent), cover crops were used only once in the 4 
years preceding the survey.
    We find mixed evidence on whether the frequency of cover crop 
adoption is related to the specific crops grown within a 4 year 
rotation. On corn-for-grain (2016) fields, the frequency of cover crop 
adoption in the prior years is not statistically different for 
different spring crops. In contrast, on corn-for-silage fields, 
patterns of cover crop usage were correlated with crops in the 
rotation. When corn-for-silage was rotated with soybeans and cover 
crops, cover crops were used on average about half the time (47 
percent). However, when corn-for-silage was grown every spring and 
rotated with cover crops, cover crops were used almost all the time (92 
percent). These patterns of usage suggest a strong link between growing 
corn-for-silage and cover crop usage. A similar relationship holds for 
cotton; rotations that planted cotton more often used cover crops.
Type of Cover Crop
    When planting cover crops, farmers have a myriad of choices for the 
type of cover crop to plant. The choice of cover crop typically depends 
on its purpose as well as its limitations because of harvesting and 
planting dates of the cash crops in the crop rotation. If the cover 
crop is harvested for forage or grazed, farmers may choose a cover crop 
that provides abundant and nutritious forage. If the purpose of 
planting the cover crop is to build soil organic matter, then the 
farmer may choose a high-residue cover crop. The farmer may also be 
using the cover crop to reduce erosion or provide nutrients to the 
succeeding cash crop. The costs of the cover crop are also a 
consideration. In corn, cotton, and soybeans--the crops for which we 
have a statistically reliable sample of the type of cover crops--small 
grains are planted most often preceding these spring crops (figure 9). 
Small grains are used as a cover crop in corn most of the time (94 
percent). Rye, which in the earlier years of the ARMS questionnaire 
included both cereal rye and annual ryegrass, is used before corn more 
than twice as often as winter wheat, regardless of whether the corn was 
harvested for grain or silage. Rye is also commonly used in soybeans. 
In contrast, winter wheat is used most often as a cover crop on cotton 
acres. In 2018, for the first time, the field-level ARMS asked farmers 
about the use of a cover crop mix and found that just under a quarter 
of soybean fields with cover crops were planted with a cover crop mix.
    One important consideration when choosing a cover crop is the cost 
of the seed. In corn, cotton, and soybeans, the average cover crop seed 
costs (table 3) did not differ statistically by the type of seed (i.e., 
winter wheat, rye, oats, mixed, or other). Seed costs for these cover 
crops were also similar to seed costs for cash crops as captured in 
other USDA surveys (USDA-ERS, 2019).
Figure 9
Type of cover crop planted in the fall before the cash crop


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Note: The 2015 and 2016 ARMS did not ask farmers about the 
        use of a cover crop mix.
          Source: USDA, Economic Research Service and USDA, National 
        Agricultural Statistics Service, 2015 (cotton), 2016 (corn), 
        and 2018 (soybeans) Agricultural Resource Management Survey 
        (ARMS).
Cover Crop Termination
    Farmers who use cover crops must plant either a cover crop killed 
by cold (e.g., ``winter kill'' cover crops such as oats or radishes) or 
terminate (kill) their cover crop so that it does not compete with 
their cash crop. This could include terminating the cover crop after 
the cash crop is planted (i.e., planting green). Farmers have four main 
ways to terminate a cover crop: mechanical (i.e., tillage, mowing, or 
rolling); chemical (i.e., herbicides); livestock (i.e., grazing); or 
harvest (i.e., forage). The choice of method will depend on the purpose 
of the cover crop, type of cover crop, need for livestock forage, 
seedbed preparation needs of the cash crop, and the need to minimize 
tillage in the field.
    In soybean, corn-for-grain, and cotton fields, chemical termination 
was used on almost \2/3\ of the acreage (figure 10). Tillage was also a 
common termination method, used on about 30 percent of the acreage 
surveyed. Termination methods on corn-for-silage fields are somewhat 
different. Corn silage growers report termination through harvest on 
more than 25 percent of acres. They are less likely to use herbicide 
for termination and more likely to use tillage.
    Harvesting is a common termination method for cover crops in 
soybeans and corn-for-silage. According to the USDA, NRCS practice 
standard, a farmer can harvest a cover crop for forage but not for 
grain. If a farmer harvests a winter crop for grain, then the field is 
double-cropped. In about ten percent of the soybean fields in 2018, 
farmers self-reported planting cover crops and harvesting that cover 
crop for grain. This is about 550,000 acres of self-reported cover 
crops in soybeans that appear to be double cropping. Most of this 
acreage (84 percent) is winter wheat followed by soybeans and is found 
only in states that typically double crop (i.e., Kentucky, North 
Carolina, South Carolina, Tennessee, and Virginia). As noted above, the 
distinction between cover crops and double cropping is based on the 
intended use of the cover crop. The expansion of survey questions to 
include information about harvesting for grain and termination through 
grazing reveals that, given the multiple uses and purposes of cover 
crops, national statistics on cover crop adoption necessarily include 
some fields that might not meet practice standard definitions of cover 
crops.
Figure 10
Cover crop termination method


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Note: The grazed and rolled categories are combined because, 
        for some crops, the number of positive responses is too low to 
        report individually. Soybeans (2018) was the first year the 
        survey asked separately about harvesting for forage and 
        harvesting for grain.
          Source: USDA, Economic Research Service and USDA, National 
        Agricultural Statistics Service, 2015 (cotton), 2016 (corn), 
        and soybean (2018) Agricultural Resource Management Survey.

                                                     Table 3
               Cover crop seed costs on cotton, corn, and soybean fields, and commodity seed costs
----------------------------------------------------------------------------------------------------------------
                 Cotton (Dollars    Corn (Dollars per   Soybean (Dollars      Commodity seed cost (Dollars per
                    per acre)             acre)             per acre)                      acre)
              --------------------------------------------------------------------------------------------------
                      2015                2016                2018             2015         2016         2018
----------------------------------------------------------------------------------------------------------------
        Oats         20.48 R 7.05        11.09 R 4.30                            20.65        19.54        19.08
         Rye         16.22 R 6.55        14.26 R 2.03        16.27 R 5.96
Winter wheat         14.22 R 2.76        12.79 R 5.01        27.38 R 7.68        16.12        15.26        15.08
         Mix                                                21.99 R 11.09
       Other                    D        14.51 R 4.97       26.12 R 14.51
----------------------------------------------------------------------------------------------------------------
Note: ``D'' indicates a disclosure limitation. The estimate cannot be reported due to sample size limitations.
Source: USDA, Economic Research Service and USDA, National Agricultural Statistics Service, 2015 (cotton), 2016
  (corn), and 2018 (soybeans) Agricultural Resource Management Survey; USDA, Economic Research Service,
  Commodity Costs and Returns.

Conservation Rotation, Tillage, and Nutrient Management
    While cover crops can help conserve soil, keep nutrients in place 
for the next cash crop, and promote improved soil health, these 
benefits may be more fully realized when cover crops are used in 
conjunction with other practices. We consider conservation crop 
rotation, several forms of conservation tillage, manure and compost 
applications, as well as testing for soil organic matter, nitrogen, and 
phosphorous. The exact mix of practices that is optimal on any given 
farm will depend on the climate, ecosystem, soil, and other factors 
(USDA, 2018a).
    ARMS data for corn (2016), cotton (2015), and soybean (2018) 
provide evidence that farmers who planted cover crops in the fall 
before planting these crops are more likely than other farmers to use 
other conservation practices along with cover crops. The descriptive 
analysis presented here suggests cover crop users might be adopting a 
suite of practices to promote soil health or that they believe the 
benefits of these practices are greater when used together (i.e., that 
cover crops complement other practices).
    Conservation crop rotation is growing a planned sequence of various 
crops on the same piece of land for a variety of conservation purposes 
including soil erosion control, soil health, and others (USDA-NRCS, 
2014f). In terms of soil health management principles, conservation 
rotations can help ensure soil cover and promote crop diversity (USDA-
NRCS, 2017a). While crop rotation is common in the United States, not 
all rotations are conservation rotations. We use a definition of a 
conservation rotation based on four criteria: \7\ (1) an average 
residue rating greater than 1.5; (2) inclusion of more than one crop; 
(3) including a low-nitrogen-demand crop; (4) and at least one crop 
with residue rating greater than or equal to 2. The average residue 
rating is the sum of residue ratings for individual crops in the 
conservation rotation divided by the number of years in the rotation. 
For each crop in the crop history, we assign an annual residue rating 
obtained from NRCS. Residue ratings range from 0.25 to 4.0 for each 
crop. Very high-residue perennial crops (e.g., alfalfa and grasses) 
have a residue rating of 4. High-residue annual crops (e.g., corn, 
wheat, sorghum, and barley) have a residue rating of 2. Low-residue 
annual crops (e.g., soybeans and cotton) have a residue rating of 1. 
Extremely low-residue rotations typically involve the harvesting of 
nearly all biomass, such as in corn silage rotations. To examine 
conservation rotations, we used all 4 years of cropping information 
available in the field-level ARMS, while acknowledging that not all 
crop rotations fit neatly into a 4 year timeframe.
---------------------------------------------------------------------------
    \7\ These criteria are designed to be consistent with 
characterizations of conservation crop rotations used in the 
Conservation Effects Assessment Project (CEAP) carried out by USDA's 
Natural Resources Conservation Service (NRCS) (Norfleet, 2018).
---------------------------------------------------------------------------
    Cropping systems that include cover crops are, in fact, more likely 
to be in conservation rotations because cover crops help satisfy 
residue and crop diversity requirements (figure 11). For example, a 
simple corn and soybean rotation would not meet the definition of a 
conservation rotation, but a corn and soybean rotation with winter 
cover crops would meet the definition. For corn (2016), 70 percent of 
acres preceded by a cover crop were in a conservation rotation; for 
cornfields not preceded by a cover crop, only 26 percent of acres were 
in a conservation rotation. For cotton (2015), 34 percent of acres 
preceded by a cover crop were in a conservation rotation; only four 
percent of cotton not preceded by a cover crop was in a conservation 
rotation. For soybeans (2018), 94 percent of acres preceded by a cover 
crop were cropped in a way that met the definition of a conservation 
rotation, compared to only 13 percent of acres on fields without a 
preceding cover crop. The association between cover crops and the use 
of conservation rotations in corn and cotton is more limited than for 
soybeans because corn and cotton fields do not always include a legume 
or other crop with low-nitrogen fertilizer demands.
Figure 11
Adoption of conservation rotations with and without cover crops


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Note: Acres adopting cover crops are based on whether the 
        selected fields had a cover crop on the field in the survey 
        year.
          Source: USDA, Economic Research Service and USDA, National 
        Agricultural Statistics Service, 2015 (cotton), 2016 (corn), 
        and 2018 (soybean) Agricultural Resource Management Survey.

    No-till can help minimize physical soil disturbance (including soil 
compaction), particularly when farmers use no-till continuously over 
time. Farmers who reported using a cover crop in the fall before 
planting were also more likely to use no-till in corn (43 percent 
versus 26 percent), cotton (41 percent versus 14 percent), and soybeans 
(72 percent versus 36 percent) (figure 12). Continuous no-till (no-till 
in the survey year and on all crops in the crop history--a total of 4 
years)--is less frequent. In 2016, for example, 27 percent of corn was 
in no-till, but less than 20 percent of surveyed fields had been in no-
till continuously for more than 4 years (Claassen, et al., 2018). No-
till is often rotated with other tillage practices and is frequently 
based on the crop grown in any given year (e.g., no-till is more likely 
in soybeans than in corn) (Wade, et al., 2015). Land with a cover crop 
in 2015 was also more likely to have been in no-till continuously over 
the full 4 year crop history compared to fields without cover crops (30 
percent versus 17 percent in corn; 21 percent versus 8 percent in 
cotton; and 57 percent versus 24 percent for soybeans). Differences in 
mulch till \8\ adoption rates between cover crop and non-cover crop 
fields were not statistically significant in corn or cotton; soybean 
farmers who reported cover crops were less likely than all other 
farmers--non-cover crop soybeans as well as cotton and cornfields 
regardless of cover crop use--to use mulch till.
---------------------------------------------------------------------------
    \8\ Mulch till involves full-width tillage that is limited so that 
the Soil Tillage Intensity Rating (STIR) is 80 or less. What we define 
as ``mulch tillage'' is similar to ``reduced tillage'' in the most 
recent Natural Resources Conservation Service (NRCS) practice standards 
(USDA NRCS).
---------------------------------------------------------------------------
Figure 12
Adoption of selected tillage practices with and without cover crops


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Note: Acres adopting cover crops are based on whether the 
        selected fields had a cover crop on the field in the survey 
        year.
          Source: USDA, Economic Research Service and USDA, National 
        Agricultural Statistics Service, 2015 (cotton), 2016 (corn), 
        and 2018 (soybean) Agricultural Resource Management Survey.

    Nutrient management is also important when applying soil health 
principles. This is one reason that USDA working lands programs 
sometimes provide financial assistance for soil testing. Adjustments to 
nutrient management strategies may be needed to account for changes in 
the availability of nitrogen from increased use of legumes (as cover 
crops or part of conservation rotations), higher levels of crop 
residue, reduced tillage, and the amount of nitrogen mineralized from 
soil organic matter (Kabir, 2018; Geisseler, et al., 2018). Nitrogen 
may also be tied up in the residue of small grain cover crops during 
the early part of the season, a situation that could require additional 
fertilizer early in the growing season for some crops. Corn farmers who 
planted a fall cover crop were more likely than other corn farmers to 
have performed a soil nitrogen test within 2 years (48 percent versus 
26 percent), a soil phosphorous test within 2 years (62 percent versus 
35 percent), or a soil organic matter test within 10 years (71 percent 
versus 58 percent) (figure 13). For cotton preceded by a cover crop, 
soil testing is more likely for both nitrogen (54 percent versus 29 
percent) and phosphorous (57 percent versus 30 percent). On soybean 
fields, there is no difference in the frequency of soil nitrogen 
testing, but fields with cover crops were more likely to be tested for 
soil organic matter (52 percent versus 39 percent) and soil phosphorous 
(24 percent versus 17 percent).
Figure 13
Use of soil testing with and without cover crops


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Note: Acres adopting cover crops are based on whether the 
        selected fields had a cover crop on the field in the survey 
        year
          Source: USDA, Economic Research Service and USDA, National 
        Agricultural Statistics Service, 2015 (cotton), 2016 (corn), 
        and 2018 (soybean) Agricultural Resource Management Survey.

    Manure and composted manure are soil amendments that have been 
shown to increase soil organic matter, soil microbial activity, and 
improve soil physical properties (e.g., water holding capacity) when 
applied consistently at agronomic rates (Haynes and Naidu, 1998). Corn 
farmers who planted a cover crop were more likely to apply manure or 
compost compared to other farmers (41 percent versus 15 percent) 
(figure 14). On cotton and soybean fields, the data suggest there is no 
statistically significant difference in the frequency of manure or 
compost application or soil organic matter testing on cover crop and 
non-cover crop fields. Compared to corn, a relatively small portion of 
land in cotton (four percent of acres without cover crops) and soybeans 
(two percent of acres without cover crops) receive manure.
    Our descriptive analysis suggests that cover crop users also are 
more likely than other farmers to engage in other soil health-related 
conservation practices. However, since cover crop adoption is still 
quite modest, the use of management systems that include cover crops as 
well as other soil health practices is occurring on only a limited 
number of acres.
Figure 14
Application of manure or compost with and without cover crops


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Note: Acres adopting cover crops are based on whether the 
        selected fields had a cover crop on the field in the survey 
        year.
          Source: USDA, Economic Research Service and USDA, National 
        Agricultural Statistics Service, 2015 (cotton), 2016 (corn), 
        and 2018 (soybean) Agricultural Resource Management Survey.
Conclusions
    In 2017, farmers in the United States planted an estimated 15.4 
million acres of cover crops. This area is larger than the area planted 
to spring wheat, cotton, sorghum, or rice. The recent growth in cover 
crop acreage has been rapid, with cover crop acreage increasing 50 
percent between 2012 and 2017. Corn-for-grain and soybean fields 
accounted for most of this growth in acreage. However, corn-for-silage 
and cotton fields had the highest adoption rates. Compared to practices 
such as no-till, overall adoption rates remain low with only about five 
percent of cropland using a cover crop in 2017.
    Some of the growth in cover crop acreage is due to Federal and 
state conservation programs that pay farmers to plant cover crops. In 
2015, more than 3 million acres received a cover crop payment from 
either CSP or EQIP. In EQIP alone, funding for cover crops has 
increased by nearly $150 million (2018 dollars) between 2005 and 2018. 
In addition to the Federal programs, at least 22 states also had cover 
crop programs of their own. The largest of these are the Maryland and 
Iowa programs with approximately 640,000 acres and 250,000 acres in 
2017, respectively.
    In the spring, most cover crop farmers commonly terminate their 
cover crops using chemicals. On corn-for-silage fields, using chemicals 
for termination is less common than on fields in corn-for-grain, 
soybeans, and cotton. Harvesting of cover crops is also practiced on 
more than 25 percent of corn-for-silage acreage.
    Managing for soil conservation and soil health requires more than 
just the use of cover crops. Conservation tillage, conservation crop 
rotations, and nutrient management are among the practices that can 
make up a soil-health-focused management system. In corn, soybean, and 
cotton fields that used cover crops, no-till, including continuous no-
till, is more common than it is on fields without cover crops. The use 
of manure or compost is also more common on cornfields with cover crops 
than those without. Cover crop fields are also more likely to be 
testing for soil organic matter and nutrients (with the exception of 
soil organic matter on cotton fields).
    While this report provides a number of insights, future cycles of 
the ARMS will be able to provide additional information about cover 
crop trends and management in U.S. field crops as cover crops become a 
more common practice. Of particular interest will be the impact of 
government programs on adoption, the impact of cover crops on 
production practices (e.g., nutrient management), and the impact of 
cover crops on soil health and yields.
References

 
 
 
    AGREE. 2019. ``Cover Crop Programs and Incentives: Landscape
 Assessment, Fall 2019.''
    Bakker, M.G., J. Acharya, T.B. Moorman, A.E. Robertson, and T.C.
 Kaspar. 2016. The potential for cereal rye cover crops to host corn
 seedling pathogens. Phytopathology 106: 591-601.
    Borchers, Allison and Steven Wallander. 2014. ``Double Cropping by
 U.S. Farmers Varies Over Time and Regionally.'' Amber Waves. U.S.
 Department of Agriculture, Economic Research Service. June 2, 2014.
    Bowman, M. and L. Lynch. 2019. ``Government Programs that Support
 Farmer Adoption of Soil Health Practices: A Focus on Maryland's
 Agricultural Water Quality Cost-Share Program.'' Choices. Quarter 2.
    Conservation Technology Information Center. 2019. Crop Residue
 Management Survey. Online report summary. Accessed April 1, 2019.
    Claassen, Roger, Eric N. Duquette, and David J. Smith. 2018.
 ``Additionality in U.S. Agricultural Conservation Program.'' Land
 Economics. 94(1): 19-35.
    Claassen, Roger, Maria Bowman, Jonathan McFadden, David Smith,
 Steven Wallander. 2018. Tillage Intensity and Conservation Cropping in
 the United States, EIB-197, USDA, Economic Research Service, September.
    Dabney, S.M., Delgado, J.A., and D.W. Reeves. 2001. Using winter
 cover crops to improve soil and water quality. Communications in Soil
 Science and Plant Analysis 32: 1221-1250.
    Geisseler, D., P. Lazicki and W. Horwath. 2018. ``Field-Specific
 Nitrogen Fertilization Adjustments'' University of California, Davis.
    Hamilton, Abbe V., David A. Mortensen, and Melanie K. Allen. 2017.
 ``The state of the cover crop nation and how to set realistic goals for
 the popular conservation practice.'' Journal of Soil and Water
 Conservation. 72(5): 111A-115A.
    Haynes, R.J., and R. Naidu. 1998. ``Influence of Lime, Fertilizer
 and Manure Applications on Soil Organic Matter Content and Soil
 Physical Conditions: A Review,'' Nutrient Cycling in Agroecosystems
 51(2): 123-137.
    Horowitz, J., R. Ebel, and K. Ueda. 2010. ``No-till'' Farming is a
 Growing Practice, EIB-70, U.S. Department of Agriculture, Economic
 Research Service, November.
    Iowa Department of Agriculture and Land Stewardship. 2017. ``Iowa
 Farmers Using Cover Crops May Be Eligible for Crop Insurance Premium
 Reduction.'' Press Release.
    Kabir, Z. 2018. ``Rethinking the Nutrient Management Paradigm for
 Soil Health.'' U.S. Department of Agriculture, Natural Resources
 Conservation Service, Conservation Webinar. Accessed 10/30/2018.
    Lu, Y.C., K.B. Watkins, J.R. Teasdale, and A.A. Abdul-Baki. 2000.
 Cover crops in sustainable food production. Food Reviews International
 16: 121-157.
    Missouri Department of Natural Resources. 2016. State Cost-Share
 Handbook.
    Myers, Rob, Alan Weber, and Sami Tellatin. 2019. ``Cover Crop
 Economics: Opportunities to Improve Your Bottom Line in Row Crops.''
 SARE Technical Bulletin. June.
    Norfleet, M. Lee. 2018. U.S. Department of Agriculture, Natural
 Resources Conservation Service, personal communication.
    Pennsylvania State Conservation Commission, 2016.
    Plastina, Alejandro; Liu, Fangge; Sawadgo, Wendiam; Miguez, Fernando
 E.; Carlson, Sarah; and Marcillo, Guillermo (2018) ``Annual Net Returns
 to Cover Crops in Iowa,'' Journal of Applied Farm Economics: Vol. 2:
 Iss. 2, Article 2.
    Snapp, S.S., Swinton, S. M., Labarta, R., Mutch, D., Black, J.R.,
 Leep, R., Nyiraneza, J. and O'Neil, K. 2005. Evaluating cover crops for
 benefits, costs and performance within cropping system niches. Agronomy
 Journal 97(1): 322-32.
    Scott Soil and Water Conservation District. 2017. Equipment Rental,
 available online.
    Three Rivers Soil and Water Conservation District, 2018. Equipment
 Rental, available online.
    Tonitto, C., M.B. David, and L.E. Drinkwater. 2006. Replacing bare
 fallows with cover crops in fertilizer-intensive cropping systems: a
 meta-analysis of crop yield and N dynamics. Agriculture, Ecosystems, &
 Environment. 112: 58-72.
    U.S. Department of Agriculture, Economic Research Service. 2018.
 ARMS Farm Financial and Crop Production Practices, Documentation,
 available online.
    U.S. Department of Agriculture, Economic Research Service. 2019.
 Commodity Costs and Returns, available online.
    U.S. Department of Agriculture. National Agricultural Statistics
 Service. 2014. 2012 Census of Agriculture: Volume 1, Part 51, table 50.
 (AC-12-A-51). May 2014.
    U.S. Department of Agriculture. National Agricultural Statistics
 Service. 2019. 2017 Census of Agriculture: Volume 1, Part 51, table 47.
 (AC-17-A-51). April 2019.
    U.S. Department of Agriculture, Natural Resources Conservation
 Service. 2011. Carbon to Nitrogen Ratios in Cropping Systems.
    U.S. Department of Agriculture, Natural Resources Conservation
 Service. 2014a. Cover Crop Conservation Practice Standard Overview.
    U.S. Department of Agriculture, Natural Resources Conservation
 Service. 2014b. Cover Crop Conservation Practice Standard.
    U.S. Department of Agriculture, Natural Resources Conservation
 Service. 2014c. NRCS Cover Crop Termination Guidelines.
    U.S. Department of Agriculture, Natural Resources Conservation
 Service. 2014d. EQIP and CSP for Historically Underserved Producers.
    U.S. Department of Agriculture, Natural Resources Conservation
 Service. 2014e. Revised Cover Crop Termination Guidelines. NRCS
 National Bulletin NB 450-15-1 TCH.
    U.S. Department of Agriculture, Natural Resources Conservation
 Service. 2014f. ``Conservation Practice Standard Code 328: Conservation
 Crop Rotation.''
    U.S. Department of Agriculture, Natural Resources Conservation
 Service. 2016a. ``Conservation Stewardship Program.''
    U.S. Department of Agriculture, Natural Resources Conservation
 Service. 2016b. ``Conservation Practice Standard Code 345: Residue and
 tillage management, reduced tillage.''
    U.S. Department of Agriculture, Natural Resources Conservation
 Service. 2017b. Title 440--Conservation Programs Manual.
    U.S. Department of Agriculture, Natural Resources Conservation
 Service. 2018a. 2018 State Payment Schedules.
    U.S. Department of Agriculture, Natural Resources Conservation
 Service. 2018b. Activity Lists.
    U.S. Department of Agriculture, Natural Resources Conservation
 Service. 2018c. ``Principles for high functioning soils.''
    U.S. Department of Agriculture, Natural Resources Conservation
 Service. 2018d. ``Soil Health'' topic page.
    U.S. Department of Agriculture, Natural Resources Conservation
 Service. 2018e. Part 507--Conservation Stewardship Program.
    U.S. Department of Agriculture, Natural Resources Conservation
 Service. 2018f. ``Principles for High Functioning Soil.'' February.
 

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
